<html>
<title> - SYRIA: OPTIONS AND IMPLICATIONS FOR LEBANON AND THE REGION</title>
<body><pre>[Senate Hearing 110-512]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-512
 
       SYRIA: OPTIONS AND IMPLICATIONS FOR LEBANON AND THE REGION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                     U.S. GOVERNMENT PRINTING OFFICE
44-577 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
?

                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON NEAR EASTERN AND
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                 JOHN F. KERRY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     NORM COLEMAN, Minnesota
RUSSELL D. FEINGOLD, Wisconsin       CHUCK HAGEL, Nebraska
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BENJAMIN L. CARDIN, Maryland         GEORGE V. VOINOVICH, Ohio

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Coleman, Norm, U.S. Senator from Minnesota, prepared statement...    15
El-Hokayem, Emile, research fellow, Southwest Asia/Gulf Program, 
  the Henry L. Stimson Center, Washington, DC....................    46
    Prepared statement...........................................    48
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
    Prepared statement...........................................     3
Lesch, Dr. David W., Professor of Middle East History, Trinity 
  University, San Antonio, TX....................................    40
    Prepared statement...........................................    44
Lugar, Hon. Richard G., U.S. Senator from Indiana, prepared 
  statement......................................................     4
Malley, Robert, director, Middle East and North Africa Program, 
  International Crisis Group, Washington, DC.....................    31
    Prepared statement...........................................    35
Welch, Hon. C. David, Assistant Secretary for Near Eastern 
  Affairs, Department of State, Washington, DC...................     5
    Prepared statement...........................................     9
    Responses to questions submitted by Senator Joseph Biden.....    63
    Responses to questions submitted by Senator Robert Casey.....    65

             Additional Statement Submitted for the Record

Dodd, Christopher J., U.S. Senator from Connecticut, prepared 
  statement......................................................    62

                                 (iii)

  


       SYRIA: OPTIONS AND IMPLICATIONS FOR LEBANON AND THE REGION

                              ----------                              


                       THURSDAY, NOVEMBER 8, 2007

                                   U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:38 p.m., in 
room SD-419, Dirksen Senate Office Building, John F. Kerry 
(chairman of the subcommittee) presiding.
    Present: Senators Kerry, Feingold, Bill Nelson, Cardin, 
Casey, Lugar, Coleman, and Sununu.

  OPENING STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    Senator Kerry. The hearing will come to order.
    Ambassador, great to see you again.
    And I apologize to folks for being a little bit late. We 
had an issue on the DOD conference, and there's a lot trying to 
happen in short order here, so I do apologize to colleagues and 
to the witnesses.
    Ambassador Welch, we're very grateful to you for coming 
before the committee. Those of us on the committee know what a 
distinguished and long career you've had as a Foreign Service 
officer. I've had the pleasure of being with you in Egypt, and 
seeing your skills firsthand. I think I was there the moment 
you got a phone call and were about to become Assistant 
Secretary of State. I was there during the transition. You've 
also served as the Principal Deputy Assistant Secretary of 
State for Near Eastern Affairs, so you are well versed in the 
region and area, having spent much of your time in the 1980s in 
key Middle East positions, including in Damascus. We welcome 
you here today.
    This is not the first time that we've taken a hard look at 
the potential role that Syria could play in the Middle East, 
and we've had debates before, here, about whether to talk to 
this regime. Senior statesmen from both parties, from Lee 
Hamilton to Secretary Baker, have weighed in on the potentially 
critical role that Syria could play in advancing primary 
national security interests, and particularly with respect to 
preserving democracy in Lebanon. But also in stabilizing Iraq 
and advancing the Middle East peace process, dealing with Iran, 
and combating terrorism.
    We're at a critical moment in Lebanon and the rest of the 
Middle East. And so, we very much look forward to hearing your 
views on Syria's role in these regional questions, and also 
sharing with us some thoughts about the administration's 
potential leverage sources with Syria, and its overall strategy 
with Syria for going forward.
    Let me just focus very quickly on the role with Lebanon. 
Syria, we all know, has had a long history, in terms of 
Lebanon, and a policy, certainly, of dominating the affairs of 
the pro-Western government in Lebanon--a government that, 
almost 3 years after the Cedar Revolution, is literally in a 
struggle for survival. You could say that the parliamentary 
majority is attriting by assassination, and it's a stunning 
situation. I was there just this past year, and was struck, not 
only to see this gaping hole still in the ground from the 
Hariri assassination, but to meet with one of the ministers who 
had undergone his 12th operation after having been bombed in 
his car. I think he lost his 2-year-old daughter in that 
bombing. It's an extraordinary story of fear and survival and 
intimidation, and there remain many unanswered questions about 
it.
    The government today, as a consequence of this is on a 
precipice. The Parliament is preparing to elect a new President 
in just 3 weeks. Should ongoing negotiations over a compromise 
candidate for President fail, the Syrian-backed opposition has 
threatened to form a parallel shadow government, an act that 
could severely destabilize Lebanon.
    It's no secret that Syria and its supporters in the 
opposition, including Hezbollah, have worked to undermine 
Lebanese Prime Minister Fouad Siniora's government at every 
turn, and it's no secret that the money and weapons that 
empower Hezbollah come primarily through Syria, and much of it 
from Iran.
    We are all clear here that we stand strongly in support of 
free and fair Presidential elections, without intimidation, 
without interference, and that means leveraging Syria to 
respect Lebanese sovereignty. An important part of this 
equation is the special tribunal for Lebanon which has been 
established to try the assassins of Prime Minister Rafik Hariri 
and other anti-Syrian Lebanese leaders. And we look forward to 
hearing your views on where that tribunal is now.
    Finally, on the reconstruction in Lebanon, when I was there 
last December, I was struck by how Iran had seized the 
opportunity to win over the local population by channeling some 
half a billion dollars of reconstruction funds through 
Hezbollah--those figures are obviously hard to count--but those 
are the estimates we heard. We also were told of how Hezbollah 
flags were brazenly planted on bombed-out buildings, homes from 
the war, and the message was clear--Hezbollah will rebuild 
this, this is Hezbollah's property--and, in a sense, an overt 
challenge to the authority and legitimacy of any governmental 
efforts, which were handicapped because of the lack of 
assistance. Since then, the United States has invested some 
$770 billion in supplemental assistance, welcome and 
significant.
    We all know of the degree to which Syria has been 
contributing to the instability in Iraq. In March of this year, 
Iraq coordinator David Satterfield said that at least 80 
percent of the suicide bombers in Iraq had traveled through 
Syria, and there are continuing reports of Syria's efforts to 
build ties with--and host--Sunni insurgents in Iraq. In 
September, however, General Petraeus has said that the 
crossings had fallen to half or two-thirds of that level. So, 
we need to understand today whether that is some message--is it 
an overt trend? Is it something that we could perhaps use as an 
opening in dialogue?
    Finally, Syria has played a counterproductive role in 
efforts to resolve the Israeli-Palestinian conflict. We know 
that Syria has sponsored Palestinian militants, like Hamas, and 
helped rearm Hezbollah. The Israelis know it, and it's 
particularly telling that Prime Minister Olmert recently said, 
in a bipartisan group of high-level American foreign policy 
experts, that Syria ought to be invited to the Middle East 
peace process in Annapolis later this month. So, I look forward 
to hearing whether the administration plans to do that, and 
what can be done to get Syria to play a more constructive role.
    I will insert my remaining comments in the record, as if 
read in full.
    [The prepared statement of Senator Kerry follows:]

      Prepared Statement of Hon. John F. Kerry, U.S. Senator From 
                             Massachusetts

    Ambassador Welch, thank you for coming before the committee today. 
As we all know, Ambassador Welch has had a long and distinguished 
career as a Foreign Service officer, serving as U.S. Ambassador to 
Egypt, Assistant Secretary of State for International Organization 
Affairs, and Principal Deputy Assistant Secretary of State for Near 
Eastern Affairs. He spent much of the 1980s in key Middle East 
positions, including a posting in Damascus. He is currently the 
Assistant Secretary of State for Near Eastern Affairs.
    Ambassador Welch, this is not the first time that we've taken a 
hard look at the potential role that Syria can play in the Middle East. 
We've had debates before over whether to talk to this regime, and 
senior statesmen of both parties from Lee Hamilton to Secretary Baker 
have weighed in on the potentially critical role Syria could play in 
advancing our primary national security interests with respect to 
preserving democracy in Lebanon, stabilizing Iraq, advancing the Middle 
East peace process, containing and isolating Iran, and combating 
terrorism and weapons proliferation.
    But here we are at a critical moment in Lebanon and the rest of the 
Middle East--and so we very much look forward to hearing your views on 
Syria's role in these regional questions, the administration's main 
sources of leverage with Syria, and its overall strategy for Syria 
going forward.
    I would like to start by focusing on Syria's role in Lebanon. We 
all understand the history: Syria's had a longstanding policy of 
dominating the affairs of the pro-Western government of Lebanon, a 
government which almost 3 years after the Cedar Revolution continues 
its struggle for survival. Today, that government is on the precipice. 
The Lebanese Parliament is preparing to elect a new President in just 3 
weeks. Should ongoing negotiations over a compromise candidate for 
President fail, the Syrian-backed opposition has threatened to form a 
parallel, shadow government--an act that could severely destabilize 
Lebanon.
    It's no secret that Syria and its supporters in the opposition, 
including Hezbollah, have worked to undermine Lebanese Prime Minister 
Fouad Siniora's government at every turn. It's no secret that the money 
and weapons that empower Hezbollah come primarily through Syria. Let's 
be clear: The United States must stand strongly in support of free and 
fair Presidential elections without intimidation or interference--and 
that means leveraging Syria to respect Lebanese sovereignty.
    An important part of this equation is the Special Tribunal for 
Lebanon established to try the assassins of Prime Minister Rafiq Hariri 
and other anti-Syrian, Lebanese leaders--I look forward to discussing 
the role this tribunal could play in our policy going forward.
    I also would like to discuss the key issue of our support for 
reconstruction in Lebanon. When I traveled there last December, I was 
struck by how Iran had seized the opportunity to win over the local 
population by channeling some half a billion dollars of reconstruction 
funds through Hezbollah--over twice as much as we had at the time.
    The United States has since invested almost $770 billion in 
supplemental assistance for Lebanon, a significant increase in funding 
from past years. We need to make sure that money is being used 
effectively--and consider what may be needed going forward.
    Syria has also been a source of instability in Iraq. In March 2007, 
Iraq coordinator David Satterfield said that at least 80 percent of 
suicide bombers in Iraq had traveled through Syria, and there are 
continuing reports of Syria's efforts to build ties with and host Sunni 
insurgents in Iraq. In September, however, General David Petraeus said 
that these crossings had recently fallen to half or two-thirds of that 
level. We need to understand whether there is, in fact, a positive 
trend developing, and if somehow we can capitalize. I also hope to 
discuss Syria's pivotal role in the ongoing Iraq refugee crisis, as the 
home of over 1.4 million Iraqis.
    Syria has also played a counterproductive role in efforts to 
resolve the Israeli-Palestinian conflict. We know that Syria has 
sponsored Palestinian militants like Hamas and helped rearm Hezbollah. 
The Israelis certainly know it. But it is telling that Prime Minister 
Olmert and a recent bipartisan group of high-level American foreign 
policy experts argued that Syria should be invited to the Middle East 
peace process in Annapolis later this month. I look forward to hearing 
whether the administration plans to invite Syria, and what can be done 
to get Syria to play a more constructive role in the Middle East peace 
process.
    So we all fully recognize that Syria is engaged in many 
reprehensible activities throughout the region. And it's clear that 
U.S. policy has focused more on punishing Syria through isolation and 
sanctions than on real engagement. But it seems to me that our approach 
has not yielded much progress in terms of getting Syria to play a more 
constructive role in Iraq and the Middle East peace process and stay 
out of Lebanon--and that one result has been to drive Syria closer to 
Iran.
    To test the Syrians, Senator Dodd and I met with President Bashar 
al-Assad for more than 2 hours last December. The meeting confirmed my 
belief that engagement with Syria could be useful in advancing our 
objectives. Make no mistake: The Syrian leadership will act in its own 
interests--but it's in our own interests to more aggressively seek out 
possible areas of common ground with Damascus. I look forward to 
understanding the substance of recent U.S. meetings with Syrian 
officials, what was asked and offered, and what the administration's 
strategy is going forward.
    One of the challenges we face is to bring Syria's leaders to a 
place where they are willing to make a strategic decision to change 
direction, and shift their allegiance away from Iran. It is neither 
surprising nor coincidental that while our relations with Syria have 
grown more estranged, Syria's relations with Iran have improved. 
Greater cooperation between Syria and Iran undermines our efforts to 
isolate Iran on a range of issues, including its pursuit of nuclear 
weapons, sponsorship of terrorism, and destabilizing role in Iraq. So I 
think today it's critical that we probe the nature and scope of the 
Syria-Iran relationship, and whether it is possible to pull Syria away 
from Iran.
    Thank you again for being here today.

    Senator Kerry. Senator Lugar--I know Senator Coleman is 
coming although he's not here yet--did you wish to make any 
comment, as the ranking member of the committee?
    Senator Lugar. Mr. Chairman, I have a statement that I'll 
put in the record, and I'll reserve the time for questions so 
we can expedite----
    Senator Kerry. Thanks.
    Senator Lugar [continuing]. Hearing our witnesses.
    Senator Kerry. I appreciate it.
    [The prepared statement of Senator Lugar follows:]

 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana

    Mr. Chairman, thank you for this opportunity to engage in an 
important discussion regarding recent developments in Lebanon and 
Syria. I join my colleagues in thanking Secretary Welch and our three 
accomplished witnesses on the second panel.
    The hopes of the United States and most of the international 
community for Lebanon are clear. We seek a sovereign, democratic, and 
prosperous Lebanon at peace with its neighbors and free from foreign 
interference. These widely shared goals, however, are endangered by the 
present political crisis involving the selection of the next Lebanese 
President. President Emile Lahoud's (Lahood's) term expires on November 
24, yet elections have been postponed several times. If the election 
that is scheduled for next week does not take place and the current 
President's term expires without selecting a replacement, it is 
possible two parallel governments could be established. Such a 
development would dramatically heighten tensions in Lebanon. The United 
States and the international community must be unwavering and 
unambiguous in our support for the democratic process in Lebanon and in 
our opposition to political intimidation. In accordance with U.N. 
Security Council Resolutions 1559 and 1701, as well as U.S. Senate 
Resolutions 328 and 353, the United States should work with other 
nations to support a fair political process in Lebanon free of 
violence.
    While a compromise selection for President may be the most 
effective short-term solution to the immediate crisis in Lebanon, much 
more is required to resolve the deeper conflicts undermining stability 
in that nation. Many of the maladies that plague Lebanon find their 
roots outside Lebanon's borders.
    The nature of the conflict in Lebanon underscores two important 
points for U.S. policy. First, the U.S. cannot seek to address 
individual crises in an ad hoc and isolated manner. The U.S. cannot 
indefinitely jump from crisis to crisis narrowly focusing on the 
immediate sources of conflict, ignoring the larger regional conflicts 
that serve as the underlying catalysts. American policy should be based 
upon a comprehensive and proactive strategy grounded in U.S. vital 
interests that recognizes the transnational nature of the challenges in 
the Middle East. In Lebanon, for example, it is difficult to imagine a 
durable solution to the instability and political paralysis that does 
not involve progress toward an Arab-Israeli peace settlement. As long 
as the Arab-Israeli crisis persists, Hezbollah will continue to exploit 
Arab-Israeli tensions as a pretext to maintain its arms. This is not to 
suggest that an Arab-Israeli settlement will be a panacea for Lebanon's 
problems. However, a solution to the Arab-Israeli crisis will increase 
the chances of attaining political reconciliation and stability in 
Lebanon, as well as the broader Middle East.
    Second, after years of abjuring direct talks with Syria, the U.S. 
has little to show for its strategy. The refusal to engage in 
meaningful and regular discussions with the Syrians freezes in place a 
dangerous status quo. The purpose of talks should not be to change our 
posture toward Syria. Nor should we compromise vital interests or 
strike ethereal bargains that cannot be verified. In fact, we should be 
pressing Damascus on human rights issues, such as its ban on foreign 
travel by political dissidents. For example, the case of Riad Seif 
(Ree-ad Safe), a prominent political dissident who is being denied the 
opportunity to travel outside Syria for treatment of prostate cancer, 
requires immediate resolution.
    If we lack the flexibility to communicate with Syria, we increase 
the chances of miscalculation, undercut our ability to take advantage 
of any favorable situations, and potentially limit the regional 
leverage with which we can confront the Damascus government. We also 
should be mindful that although Iran and Syria cooperate closely, their 
interests diverge in many cases, opening regional diplomatic 
opportunities.
    I look forward to the benefit of our witnesses' insights on these 
and other issues related to Syria and Lebanon.

    Senator Kerry. Ambassador, we look forward to your 
testimony.

STATEMENT OF HON. C. DAVID WELCH, ASSISTANT SECRETARY FOR NEAR 
      EASTERN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Welch. Thank you very much, Senators. Senator 
Kerry, it's good to be here in front of your subcommittee this 
afternoon.
    This is a very challenging issue, and I'm grateful for the 
chance to talk it through with you and your colleagues.
    I think now there's a proven record for Bashar al-Assad and 
his regime. A little less than a decade ago, he assumed power. 
And, at the time, there was a bit of a leadership transition in 
other parts of the Arab world, as well, so people looked to see 
what the new leaders of Jordan, Morocco, and Syria might be 
like.
    Today, I think we have a record of some experience in 
understanding what Syria, under President Assad's leadership, 
is like. And let me just make a couple of remarks about that.
    This is a government that, unfortunately, has tried to 
assert itself in Lebanon, undermining Lebanon's sovereignty and 
security directly and through proxies. It's a government that 
continues to harbor and support organizations that have been 
involved in terrorism, and that continue to be involved in 
terrorism. It's a government that has allowed some of these 
people to cross its borders into Lebanon and into Iraq, 
countries that nominally, have favorable relations with 
Damascus. And this is a regime that continues to turn a deaf 
ear to its own people's demands for freedom of expression and 
freedom to participate in political life.
    This problem with respect to Lebanon is particularly 
poignant and important right now, as Lebanon faces a 
Presidential election again. There is a history of political 
difficulties in Lebanon that means that there's rarely been an 
easy Lebanese Presidential election. And this one is certainly 
not made any easier by what Syria has been doing.
    Nominally, they withdrew from Lebanon in 2005, following 
Rafik Hariri's assassination, but we still see a very strong 
Syrian influence. Their allies, about this time last year, 
engineered the resignation or departure of an important element 
of the Lebanese Cabinet in an attempt to collapse the 
government and make it inoperable. They accused Fouad Siniora 
of leading an unconstitutional and illegitimate government. I 
think many of you have met Prime Minister Siniora, and you know 
he is a man of probity and courage. And he has withstood this 
assault on his government, and on his patriotism, with, I 
think, uncommon valor.
    We don't know who is behind the rash of political murders 
in Lebanon, but there's a depressing theme to those 
assassinations and to the attempts. I don't know that there has 
been a pro-Syrian politician who has been targeted. Every 
single one of those killed has been known for their pro-
Lebanon, prodemocracy, and anti-Syrian views.
    Because we share with others a concern about Lebanon's 
Government's inability to perform its duties and its need for 
support in ending the culture of murder with impunity for 
political reasons, the Security Council decided to establish a 
special investigation of some of these crimes. Because Prime 
Minister Siniora was unable to get his Cabinet and his 
President to act on it, he requested the Security Council to 
assume some of the sovereignty of Lebanon in constructing a 
special tribunal to deal with prosecutions for these crimes. 
I'm pleased to go into the status of that effort during our 
question-and-answer period.
    He would have done it through the Lebanese constitutional 
process, had he been able to, but the Cabinet couldn't agree to 
it, the Lebanese Parliament wouldn't meet, and the President 
wouldn't act, so it was necessary that the Security Council do 
that.
    Mr. Senator, you also mentioned Syria as an entrepot for 
the flow of foreign fighters and the supply of weapons and 
financing to both Lebanon and Iraq. Syria remains a source of 
instability in this regard. We're concerned that it continues 
not to impose some of the restrictions it could that would 
reduce this risk and put behind their words some evidence of 
sincerity.
    Syria also continues to obstruct efforts at Israeli-
Palestinian peace. There are Palestinian terrorist groups that 
operate, to this day, from Damascus, despite repeated demands 
from the international community for them to stop and a growing 
consensus in the remainder of the Arab world that the path of 
peace, not the path of violence, is the one that people want to 
see pursued.
    I think, as my colleagues who have been before you and 
others in the committee on the issue of Iraq have testified, 
there is a disproportionate number of foreign fighters who do 
cross from Syria into Iraq. That remains a serious problem. 
And, despite the fact that Iraq has long borders with several 
other countries, it's notable that this border remains the 
preferred access route.
    Syria could take decisive action against those who organize 
this jihad, as they call it, and the networks that support it. 
It could tighten its visa regulations on travelers from certain 
countries, or institute new procedures to address that risk, as 
most nations across the world have done in recent years. They 
could do more to step up their work with their Iraqi 
counterparts to look at measures along the border. We think 
it's entirely reasonable to expect that they should have taken 
these steps already.
    We have been willing to talk to them. We have a diplomatic 
mission in Damascus. We are not represented at the level of 
ambassador, of course. We withdrew our Ambassador after the 
murder of Rafik Hariri, and we have not returned an ambassador 
yet. But we are able to talk to them. Secretary Rice has met 
with her Syrian counterpart twice this year, once in the spring 
and once just recently. Their words are, on the face of it, 
fine. But we need to see, behind those words, more than that. 
We need to see actions.
    On the Lebanese election, Mr. Senator, it's coming down to 
the final days now before the constitutional end to Emile 
Lahoud's term. We have, day by day, worked on this issue with 
our partners in Europe, particularly France, but also the 
principal European troop contributors to UNIFIL, who played a 
very active role in trying to organize and sustain a common 
international call to allow these elections to proceed on time, 
in accordance with the constitution, and free of any 
interference or intimidation.
    Last Saturday, Secretary Rice had a meeting with several of 
her counterparts on the margins of the Iraq ministerial in 
Istanbul, and they declared this position forthrightly and 
publicly, and then delivered it to Syria. This group included 
not only France, traditional partner for the United States in 
this regard, but also Egypt, Saudi Arabia, Jordan, the United 
Arab Emirates, and the Secretary General of the Arab League. I 
believe that this is an important statement of common purpose 
and of the common normative value about what ought to happen 
here. And we hope that the Syrian Government pays attention to 
it.
    As you know, we've exercised a number of punitive measures. 
And we could take more. We have used authorities under the 
Syria Accountability Act to prevent certain transactions with 
Syria. Because Syria is a state sponsor of terror, there is a 
complete ban on any arms-related exports or sales to Syria, 
there are strict controls on dual-use items, and prohibitions 
on United States economic assistance. You know, in a region 
where we have decent relationships with almost all the 
surrounding countries, it's extraordinary that Syria stands out 
as kind of a dinosaur in this respect, and has been unable to 
construct a more normal relationship with us and its neighbors.
    We continue to talk to the Syrian Government about the 
issue of Iraqi refugees. As you know, they're host to quite a 
number of Iraqis who have fled Iraq. And, in this respect, we 
do appreciate Syria's decision to renew cooperation with us--on 
our programs--to address this humanitarian issue. We think that 
it's vital that it play this humanitarian role. There are quite 
a number of Iraqis in Syria, probably over one and a quarter 
million, and that's the majority of those displaced outside 
Iraq in the region. And, until recently, Syria has mostly kept 
its borders open to those trying to come out of Iraq, and has 
not sent them back. Iraqis do have access to some critical 
social services there, and we understand, as do others in the 
international community, this places an unusual burden on 
Syria.
    We're trying to help. In that respect, we've directed some 
assistance toward the needs there. Our Assistant Secretary for 
Refugee Affairs visited Syria in the spring, to discuss these 
issues. And, just recently, we sent our new senior coordinator 
for Iraqi refugees, Ambassador Foley, to Damascus, where he 
reiterated our commitment to providing help to Iraqis living in 
Syria, through the U.N. and through international partners.
    We have an agreed framework with the Syrian Government and 
with UNHCR, to carry out refugee admissions processing in 
Syria. Iraqis are being referred to us by UNHCR so that working 
with the Department of Homeland Security we can go through the 
resettlement process to the United States.
    The Syrian Government has a parlous human rights record in 
treatment of its own citizens. That, despite the relatively new 
regime, really hasn't changed from President Assad's father's 
day. They continue to imprison human rights activists and 
harass others. They refuse even the most limited steps toward 
transparency and participation in the political process. Their 
parliamentary elections were not much to speak about earlier 
this year. In May, the President of Syria ran, without 
opposition, under a referendum to renew his mandate as 
President. There was little risk that it would not be renewed.
    These concerns in all these areas, Senator Kerry, are 
documented in conversations with the Syrian Government, going 
back some years. And I--as you know, not merely because I'm a 
diplomat, but because I've worked in this area a long time--I'm 
all in favor of talking to people. The question is not whether 
to talk, but how we talk to them, what are we talking about, 
and what are they going to do about issues that divide us or 
issues of common concern?
    Should they take positive steps, I think we'd know that, 
and we would consider further dialogue and engagement, but 
these are really important issues, which have cost the United 
States--in lives and in money, and we, therefore, would expect 
that any engagement would be purposeful. I have no illusions 
about the difficulty of this problem.
    With that, sir, I'm happy to take your questions on these 
subjects, and I'll come back to some of the ones that you 
mentioned in your opening statement.
    [The prepared statement of Ambassador Welch follows:]


 Prepared Statement of Hon. C. David Welch, Assistant Secretary, Near 
      Eastern Affairs Bureau, Department of State, Washington, DC

    Thank you, Mr Chairman and other distinguished members of the 
committee, for inviting me here today. I welcome the opportunity to 
discuss the current status of our relationship with Syria and outline 
the challenges and opportunities that lie ahead. I would like to begin 
by emphasizing that despite our serious concerns with the Syrian 
Government's actions, the United State continues to stand with the 
people of Syria as they struggle under an oppressive dictatorship. The 
Syrian people deserve a government that respects human rights and does 
not use fear and intimidation for political gains. Our frustrations and 
concerns are directed solely toward the Syrian regime. This is a 
government that strives to undermine Lebanon's sovereignty and security 
through pro-Syrian proxies and partners; a government that continues to 
harbor and support terrorists and terrorist organizations; a government 
that has allowed terrorists and criminals to cross its borders; a 
regime that turns a deaf ear to its people's demands for freedom of 
expression, freedom of movement, and the freedom to elect a 
representative and responsive government. It is with this regime and 
its actions that the United States takes issue.
    Some argue that we have not done enough to engage the Syrian regime 
and that diplomatic isolation has resulted in fewer opportunities to 
raise our concerns or explain our desired outcomes. In reality, our 
concerns are well known and well documented. The Syrian Government 
knows very well what the United States and the international community 
expect. While appropriate levels of interaction should continue, it is 
time for the Syrian Government to show it is willing to be a 
responsible member in the community of nations. As Secretary Rice said 
following her meeting with Syrian FM Muallem at the May 2007 conference 
in Sharm el-Sheikh, the Syrians claim stability in Iraq is in their 
interest, but ``actions speak louder than words and we will have to see 
how this develops.'' We do continue to engage the Syrian regime on 
humanitarian issues. The U.S. is concerned with the plight of the 
estimated 1.4 million Iraqi refugees currently living in Syria. We 
recognize that Syria plays a humanitarian role in this regard and has 
largely kept its borders open to Iraqis fleeing violence and allowed 
Iraqis access to critical social services such as health care and 
education. We recognize that the refugees place a large burden on 
Syria's public services and institutions. PRM A/S Sauerbrey visited 
Damascus in March 2007 to discuss humanitarian and refugee issues. 
Ambassador James Foley, the Secretary's Senior Coordinator for Iraqi 
refugees, just returned from a trip to Damascus where he reiterated our 
commitment to providing assistance to Iraqis living in Syria through 
the United Nations and our international partners, as well as our 
commitment to the United States resettlement program. Thanks to A/S 
Sauerbrey's and Ambassador Foley's efforts, we have an agreed framework 
with the Syrian Government and the UNHCR for carrying out U.S. refugee 
admissions processing in Syria. Currently, 4,000 Iraqi and other 
individuals referred to us by UNHCR are being prepared for resettlement 
interviews with the Department of Homeland Security.
    There are many points of tension that account for our current 
relationship with the Syrian Government, and among the most important 
issues is the flow of foreign fighters through Syria and into Iraq. 
Syria shares a long, porous border with Iraq. It is through this border 
that a disproportionate number of Iraq's ``foreign fighters'' have 
entered the country with the goal of killing innocent Iraqi civilians, 
Iraqi security forces, and U.S. and coalition troops. In recent months, 
coalition forces and their Iraqi partners have made strides against al-
Qaeda in Iraq (AQI), and the Syrian regime has taken some steps to 
enhance its internal security posture. The Border Monitoring Technical 
Experts group has provided a forum for the U.S. and other countries to 
address this issue directly with the Syrians. However, the continued 
entry of those who seek to carry out horrific attacks poses a threat to 
recent gains. Syria is not powerless in this situation; there are a 
number of additional steps the Syrian Government can take. Were the 
regime in Damascus serious about helping Iraq and stopping the flow of 
al-Qaeda suicide bombers into Iraq, it would be more apparent. Decisive 
action against jihadi organizers and safe house networks represents one 
important step in this campaign. Beyond that the Syrians could 
institute a visa requirement for travelers from certain countries or 
regions to build additional barriers to the entry of terrorists and 
criminals into Syria. Syrian authorities can also work with their Iraqi 
counterparts to implement measures agreed upon during PM Maliki's 
August visit to Damascus. These include joint border patrols, exchange 
of liaison officers, and improved communications between the Syrian and 
Iraqi Interior Ministries. Syria also continues to provide safe haven 
to former Saddam Hussein regime loyalists and Baathist insurgent 
financiers, whose vocal and financial support to the insurgency in Iraq 
promotes extremism and undermines national reconciliation in that 
country. In the end, the Syrians share responsibility in following 
through on previous statements and promises and demonstrating a sincere 
belief that stability in Iraq is in Syria's interest.
    Like all countries, Syria has a responsibility to promote peace and 
security, especially amongst its neighbors. In Lebanon, however, Syria 
continues to pursue a policy of interference and an unabashed pursuit 
of its own agenda. Through intimidation and violence Syria shows its 
blatant disregard for the sovereignty of Lebanon and the security of 
the Lebanese people. By refusing to establish diplomatic relations with 
Lebanon or delineate its shared border, Syria demonstrates that its 
words of respect for Lebanon's sovereignty are empty rhetoric. Although 
overt Syrian security forces formally withdrew from Lebanon in 2005 
following the assassination of former Lebanese Prime Minister Rafiq 
Hariri, Syria and its Lebanese proxies and partners continue to 
interfere in Lebanon's internal affairs. For example, in November 2006, 
Hezbollah and its pro-Syrian allies engineered the resignation of six 
Cabinet members, including all five Shia ministers, and charged that 
the government of Prime Minister Siniora was thereby illegitimate and 
unconstitutional. Even worse, since Hariri's assassination six 
additional prosovereignty leaders have been murdered. Most recently, 
Lebanese Parliamentarian Antoine Ghanem--a staunch advocate for 
Lebanese sovereignty--was assassinated by a car bomb on September 19.
    Lebanon's Constitution requires Parliament to elect a new President 
by November 24. We are very concerned that in the next few weeks Syria 
or its supporters will attempt to manipulate the outcome through 
violence, intimidation or an obstinate refusal to participate in the 
electoral process. These concerns are not unfounded. Hezbollah and its 
opposition partners have threatened to derail elections by boycotting 
required electoral sessions. Such a step would lead to a political 
vacuum and potential chaos in Lebanon. We are making it clear that 
interference or intimidation in the electoral process is unacceptable 
to the United States and to the international community. If Syria hopes 
to have a more normal relationship with the United States or play an 
influential and responsible role in the region, it will heed these 
warnings.
    The Syrian regime, Hezbollah and pro-Syrian opposition elements in 
Lebanon have worked to deny justice to the Lebanese victims of 
political violence. The United Nations Security Council adopted 
resolution 1757 on May 30, 2007. This brought the Agreement 
establishing the Special Tribunal into force. The Special Tribunal was 
designed to bring to justice those responsible for Hariri's 
assassination and the related murders of those who defended Lebanon's 
independence and democracy. Pro-Syrian ministers in Lebanon's Cabinet 
resigned in an effort to prevent an Agreement between Lebanon and the 
United Nations to establish the Tribunal. Parliament speaker Nabih 
Berri refused to open Parliament's doors, depriving the legislative 
majority of its right to approve the Tribunal.
    Syria continues to obstruct efforts to advance Israeli-Palestinian 
peace and remains designated a State Sponsor of Terrorism due to its 
continued support of Hezbollah and Palestinian terrorist organizations. 
These groups, including HAMAS, the Palestinian Islamic Jihad, and the 
Popular Front for the Liberation of Palestine--General Command continue 
to base their external leadership in Syria. Despite repeated demands 
from the international community Syria refuses to expel these groups or 
their leaders from the safe-haven Damascus provides. Moreover, evidence 
suggests Syria provides weapons and support to Hezbollah, and 
facilitates Hezbollah's efforts to smuggle weapons into Lebanon. Given 
uncertainties as to Syria's desires to pursue nonconventional weapons 
and the status of the government's current arsenal, we are concerned 
that Syria allows internationally designated terrorist organizations 
unfettered access to its borders. Additionally, the stakes are that 
much higher should Syria strengthen its ties with countries such as 
Iran who have already demonstrated nuclear ambitions.
    We continue to have serious concerns about the respect for human 
rights that the Syrian Government denies its own people. We strongly 
support the Syrian people's desires for democracy, human rights, and 
freedom of expression. Throughout the last few months the government's 
already poor human rights record continued to worsen. The regime has 
increased restrictions on citizen's privacy rights and stepped up 
already significant restrictions on freedom of speech, press, assembly, 
and association. The Syrian regime continues to harass and imprison 
human rights activists and civil society representatives and their 
families, as well as deny its people the right to travel abroad freely. 
After sentencing civil rights activist Kemal Lebwani to 12-years in 
jail, prison officials continue to subject him to physical and 
psychological mistreatment. The Syrian Government has refused medical 
treatment for prisoners of conscience such as Anwar al-Bunni and Michel 
Kilo. The Syrian regime continues to refuse Mr. Riad Seif, a former 
Member of Parliament and former prisoner of conscience and other 
dissidents the right to travel outside Syria. Seif desperately needs 
medical treatment for cancer that he cannot receive in Syria, but the 
Syrian Government continues to violate international humanitarian norms 
by refusing his request to leave the country for medical treatment. In 
response, the U.S. has made public statements and urged other countries 
to press the Syrian Government to adopt more humanitarian policies.
    The Syrian regime also refuses to have an open, transparent, and 
fully participatory political environment. Syria's parliamentary 
elections on April 22 and 23 of this year were undermined by government 
manipulation. In May, Assad ran unopposed in a crudely choreographed 
Presidential referendum. Although opposition groups estimated voter 
turnout at significantly less than 50 percent, government statistics 
declared Assad had won 98 percent of the vote, with voter turnout 
officially reported at 96 percent. The Syrian people deserve 
democratically elected representatives who are willing to fight 
corruption, respect their human rights, provide job opportunities and 
inspire political participation by the next generation of Syrian 
leaders.
    We are committed to assisting Iraq's most vulnerable citizens by 
working with the United Nations and our international partners. In 
fact, the United States increased humanitarian assistance for displaced 
Iraqis from $43 million in 2006 to almost $200 million in 2007, $81 
million of which went to international organizations for appeals that 
included programs inside Syria. A further $3.7 of the $81 million went 
to the International Federation of the Red Cross/Red Crescent in 2007 
supporting health and other programs implemented by the Syrian Arab Red 
Crescent and Jordanian Red Crescent Societies benefiting Iraqi 
refugees. In addition, the State Department awarded $8 million in 
grants in FY07 to six nongovernmental organization partners for 
projects in Syria focusing on the health, education, and emergency 
assistance needs of Iraqi refugees. These projects also provide basic 
assistance such as food and nonfood items to the most vulnerable of the 
refugees. We plan to continue contributing generously to humanitarian 
assistance programs in 2008. In the aftermath of Ambassador Foley's 
visit, which I mentioned previously, the U.S., Syria, and UNHCR agreed 
on a framework for processing Iraqi refugee resettlement cases in 
Damascus. Syria has committed to issue visas to DHS adjudicators, who, 
in the coming weeks, will be interviewing hundreds of Iraqis referred 
by UNHCR to the U.S. Refugee Resettlement Program.
    It is clear there are a number of factors behind our strained 
relationship with Syria. I would like to now address the approaches we 
are taking to resolve our most serious concerns. First, Syria's actions 
threaten not just the Syrian people but the entire region. We are not 
the only ones alarmed by the Syrian Government's behavior. We are 
working closely with our partners in Europe and in the Middle East to 
coordinate efforts so as to maximize effectiveness, especially in the 
runup to Lebanon's elections. As an example of this coordination, 
Secretary Rice led a meeting on the margins of last week's Expanded 
Neighbors Conference in Istanbul with the Foreign Ministers of France, 
Saudi Arabia, Egypt, the United Arab Emirates, and Jordan, as well as 
the Secretary General of the Arab League to discuss the upcoming 
elections in Lebanon. We expect to consult more closely with our 
partners in the region on this subject in the coming weeks.
    We have already taken a series of punitive measures and will take 
more. The President has exercised authorities from the Syria 
Accountability Act to prohibit almost all U.S. exports to Syria, except 
for food and medicine, and has banned Syrian commercial flights to and 
from the United States. Due to Syria's continued designation as a State 
Sponsor of Terrorism there is a complete ban on U.S. arms-
related exports and sales to Syria; strict controls on the export of 
dual-use items; and prohibitions on U.S. economic assistance.
    On August 1 of this year the President signed Executive Order 13441 
to allow the property of persons undermining the sovereignty of Lebanon 
or its democratic processes and institutions to be blocked. It 
complements previous Executive orders, such as 13338, which financially 
isolates individuals and entities contributing to the Government of 
Syria's problematic behavior. President Bush signed E.O. 13338 on May 
11, 2004, in response to the Syrian Government's continued support of 
international terrorism, sustained occupation of Lebanon, pursuit of 
weapons of mass destruction and missile programs, and undermining of 
U.S. and international efforts in Iraq. These orders freeze any assets 
the affected individuals may have in the United States and prohibit 
U.S. persons from engaging in transactions with these individuals. 
Treasury recently designated four Syrian and pro-Syrian Lebanese 
individuals pursuant to these Executive orders. If necessary, the 
United States has the ability to further isolate the Syrian Government 
both diplomatically and financially.
    In addition to corrective measures and coordinated, multilateral 
engagement, we are continuing to engage the Syrian Government where 
appropriate on issues of mutual concern, specifically the issue of 
Iraqi refugees. The Syrian regime is well aware of the steps it must 
take in order to have a better relationship with the United States. It 
has not taken those steps. Its failure to do so is not for a lack of 
U.S. engagement.
    As previously mentioned, Secretary Rice met with Syrian FM Muallem 
in May and again last week in Istanbul, PRM A/S Sauerbrey traveled to 
Damascus to discuss refugee issues in March 2007, and Ambassador Foley 
has just returned from a trip to Damascus where he discussed Iraqi 
refugees with Syrian Ministry of Foreign Affairs officials. Even though 
we recalled our Ambassador in 2005 following Lebanese Prime Minister 
Hariri's assassination, there has continued to be limited engagement by 
senior level U.S. Government officials with their Syrian counterparts. 
Then Secretary of State Powell visited Damascus in May 2003. My 
predecessor, Ambassador Burns, met with Syrian President al-Assad in 
September 2004; Secretary Powell met with then-FM Shara'a at the UNGA 
in late September 2004 and again in Sharm el-Sheikh in November 2004; 
and former Deputy Secretary Armitage visited Damascus in January 2005. 
In each of these efforts, the Syrians promised to take action against 
the flow of foreign fighters into Iraq, end their interference in 
Lebanon, expel Palestinian terrorist leaders from Damascus, and to end 
Syrian state sponsorship of terrorism. Unfortunately, the Syrian regime 
has yet to demonstrate the necessary willingness to reorient its 
behavior back toward international norms. Despite the absence of an 
ambassador, we continue to have a diplomatic presence in Syria 
providing a mechanism for communication with the Syrian Government. An 
improved relationship with Syria can only come about when it behaves as 
a responsible member of the international community. We are under no 
illusions. The issues between Syria, the United States and the rest of 
the international community are complex and will take time and effort 
to resolve.

    Senator Kerry. Thank you very much.
    We'll start off with a 7-minute round, and try and get 
through.
    Mr. Secretary, it's not hard to paint a tough case about 
Syria's behavior. We all understand that. I listed many of 
those behaviors, and they are well known as a matter of public 
record. The question is: What's the policy that, sort of, deals 
with that? And I think that's where we may have some concerns, 
and there are legitimate questions.
    Isolation can work, but it has rarely, rarely worked when 
it's more unilateral than multilateral. And, as you know, none 
of the other major partners with whom we deal have withdrawn 
their ambassadors or have engaged in major sanctions or have 
joined us in a serious way to sort of leverage Syria to act 
differently.
    Can you share with the committee, perhaps: What was the 
gist of the conversation that took place between the Secretary 
and the Foreign Minister? What did we ask? What is the state of 
play, in terms of our expectations from Syria and perhaps even 
Syria's expectations, if there are any, about what they might 
get in return from us if they do something?
    Ambassador Welch. The United States has, broadly speaking, 
in its foreign policy arsenal, a robust selection of punitive 
measures that it could apply against countries that are taking 
actions against our interests. And, you're correct, we have 
applied quite a number of those, vis-a-vis Syria.
    Other countries have chosen to respond differently. Let me 
point out a couple of things that others have done.
    The European Union has not replicated the steps we've 
taken, exactly, but I would describe relations between Syria 
and the European Union as essentially frozen. Many of the 
countries in the Arab Middle East have tried to improve their 
relations with continental Europe through the European Union 
Association Agreement Process. That agreement between Europe 
and Syria is presently frozen. The political dialogue between 
Europe and Damascus is equally very narrow, focusing only on 
the problems, and not on the opportunities. And I think that's 
a powerful signal to Syria of how gravely it has put itself in 
isolation from Europe.
    Second, within the Arab world relations are very difficult 
between Syria and what you would normally expect to be its Arab 
friends. The relationship, in particular, between Egypt, Saudi 
Arabia, Jordan, and the Emirates--countries I mentioned that 
joined us in this demarche to the Syrians--is very cool. At a 
time when many of the Arab oil exporters are enjoying economic 
boom, their investments are going elsewhere in the Arab world, 
and I don't think that's a coincidence.
    Finally, you know, it's not exactly relevant, Senator, to 
your question, but it is an irony, I think, at a minimum, that, 
of all the members of the Arab League, the only two countries 
that do not have ambassadors in each other's capitals are 
Lebanon and Syria. There is no formal diplomatic relationship 
between the two. One would think that these two countries, 
which share a long border and, in many respects, some common 
history, would be able to have a better relationship. That is 
not because of the Lebanese; but because of the Syrians.
    With respect to the discussion between the Secretary of 
State and the Foreign Minister of Syria, I have known this 
gentleman for many years. He's a professional. And I would 
describe it, sir, as a professional conversation. We said our 
piece on the things that concern us. He said his. I think 
Syrians would like to see a better relationship with the United 
States, but he did not table anything that would back up his 
expressed desire to see that relationship improve.
    Thank you.
    Senator Kerry. Did we table anything--i.e., ``If you do X, 
Y, or Z, here is the kind of response that you might see from 
us''?
    Ambassador Welch. As I mentioned, Senator Kerry, were they 
to take actions in the areas that concern us, we're confident 
we'd be able to see that.
    Senator Kerry. Yes; but, you see, this is the problem. What 
I hear from people, who indicate to me, is that we basically go 
into these conversations and say to them, ``You've got to start 
doing this--X, Y, and Z,'' and that's, sort of, the end of the 
conversation. And then, they speak their piece, and say, 
``Well, you know, here's how we feel about X, Y, and Z,'' and 
that's the end of the conversation.
    Ambassador Welch. Let me give you an example, sir, of what 
I mean. There is a problem with the flow of foreign fighters 
into Iraq. Some of the source countries know that and cooperate 
with us on dealing with this issue, as you know, sir, including 
countries with which we have a strained political relationship. 
They have been willing, uniformly, to take measures to deal 
with this threat. To this day, Syria has no visa rules that 
would inhibit the entry of military-aged males from any Arab 
country into Syria. And this is the single most potent threat 
inside Iraq today. And if they wanted to do that, they could do 
it. I've been posted in Syria; it's a place where they can 
regulate entry pretty easily.
    Senator Kerry. When I met with President Assad, I raised 
that issue with him. I've met with him twice now in the last 2 
years, and both times, he said, ``You know, your people come 
over, and they tell us, `Well, we ought to be doing this or 
that,' and we actually wind up doing it, and we never hear from 
them again.'' And they suggested that there were some very 
specific things on the border, or in turning over certain 
individuals that we had identified, that they were prepared to 
do, and, in some cases, did. And I said, ``Mr. President, would 
you be willing to go out and stand up publicly and say this, 
and create a sort of public demonstration of this effort?''
    Now, he said, yes. Now, I'm not dumb enough or 
inexperienced enough to just take that at face value, but you 
certainly put it to the test, it seems to me. If the President 
of a country says he's willing to do that, it seems to me the 
Secretary of State could say, ``OK, let's see if you really 
are,'' and you go out and you put it to the test, and go from 
there. And then, one step begets the next. It wasn't as if 
Henry Kissinger knew exactly what Mao or others were going to 
do when he first went to China but he went and we had a goal. 
What is the goal here? I don't see quite how this process of 
isolation and of telling them what they have to do, without 
some process to build a mutuality, gets you anywhere. That's 
what I think is frustrating.
    Ambassador Welch. We would share your frustration. We would 
prefer not to be in a vicious cycle, where the only answer to 
what we think is credible information and well-presented and 
documented information, is, ``Well, yes, I've done some of it, 
and they should know it.'' We did present them, for example, 
with a list of persons of concern who we believe were 
conducting actions in Iraq, and their answer was, ``Well, you 
know, we'll look at that,'' and that was over 3 years ago. And, 
to this day, they are hosting many of these same people, in 
various parts of Syria, and allowing them to operate.
    Senator Kerry. OK.
    Ambassador Welch. Sir, this is not a U.S. request, this is 
a part of a mandatory Security Council Resolution, that all 
countries in the world do their best to interrupt this kind of 
traffic and support. So my belief is that the facts are as they 
are. As I said, there are long land borders for Iraq with other 
countries in the region, but this problem seems to be primarily 
located in Syria. And that has to be for a reason.
    Senator Kerry. Well, I don't want to abuse the time here. I 
did raise the question of some of those incomplete things, and 
I must say that the response that needed to be put to the test 
that came from him was that they were upset that there had been 
no followthrough on the other things that they had done, so 
they sort of stopped, by admission--that's at least the way 
they framed it. And, again, unless there's some sort of ongoing 
initiative, more than just sort of saying, ``You've got to do 
this,'' and they say, ``You've got to do this,'' and nobody 
does anything, except you get mad at each other and continue 
down the road, it seems to me you never gain the high moral 
ground of being able to show people that you've actually gone 
to the lengths of demonstrating your bona fides in a more 
public way, I guess is the way to put it.
    This is a battle partly for the Arab street and for the 
hearts and minds of a lot of people. And right now, given 
what's happened with Hezbollah, and given what's happened with 
Hamas, and given what's happened in Iraq, and given the rise of 
Iranian ability to sort of look with impunity on any of our 
saber-rattling, and so forth, it's not as if the, you know, 
leverage is increasing for the administration. So, one wonders, 
really, where that strategy takes us. We'll come back to that.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Chairman, I'm going to yield, first, to my colleague 
Senator Lugar, who's been here. And I do have a statement that 
I'd like to have entered into the record.
    Senator Kerry. Absolutely.
    Senator Coleman. But, why don't I, at this time, yield to 
my senior colleague, Senator Lugar.
    [The prepared statement of Senator Coleman follows:]

  Prepared Statement of Hon. Norm Coleman, U.S. Senator From Minnesota

    I would like to thank Senator Kerry for organizing this very 
important hearing to discuss our options with respect to Syria, which 
in recent years has proven to be an extremely difficult relationship to 
manage. I look forward to hearing the different perspectives on how to 
address the complexities we face in our relationship with Syria, which 
have tremendous security implications for the Middle East and the rest 
of the world. On a wide range of issues that the U.S. is dealing with 
in the region--from fighting al-Qaeda in Iraq to protecting democracy 
in Lebanon--Syria is intimately involved, unfortunately for the most 
part in extremely destabilizing ways.
    There has been a vigorous ongoing debate here in Congress on how to 
deal with Syria. There are a number of critical issues of mutual 
interest where the U.S. and Syria could cooperate, such as stabilizing 
Iraq, since over a million refugees have fled into Syria. We would also 
like Syria's help in stopping the flow of insurgents into Iraq, and we 
would like Syria to play a more constructive role in the pursuit of a 
peace agreement between the Israelis and Palestinians, among many other 
things.
    Yet we face a dilemma as to whether to engage the Syrians and if 
so, how. I am someone who supports the idea of having conversations 
with countries, even those in which we don't have the greatest 
relationship, in order to ensure that we are using all diplomatic tools 
at our disposal to address issues of national interest.
    But I also think we need to be very thoughtful and realistic about 
our engagement with such countries so that we have a reasonable 
expectation of our ability to hold these countries to their 
commitments. We must also have a clear idea of what costs we are 
willing to bear for such cooperation. In addition, I think that more 
extensive engagement with any problematic country should be preceded by 
at least minimal actions of good faith on their part so we have some 
reason to believe that they might actually hold up their end of the 
deal.
    One significant concern I have with respect to Syria is that the 
Syrians have done little, if nothing, to show that they are serious 
about pursuing a productive discussion with the U.S. If anything their 
actions have been destabilizing and provocative. I'll just mention a 
few of the most egregious activities:
    1. The Syrians were intimately involved in the assassination of 
former Prime Minister Rafik Hariri, who posed a threat to Syrian 
control through his peaceful and legitimate pursuit of greater 
sovereignty for Lebanon.
    2. Since the assassination, the Assad regime has done everything in 
its power to thwart the Tribunal that was mandated by the U.N. Security 
Council in March, at the cost of the political process in Lebanon.
    3. There is evidence suggesting that the Syrians are behind the 
campaign of political assassinations being carried out against anti-
Syrian Lebanese lawmakers--so far six prosovereignty leaders have been 
murdered. This is an affront to the will of the Lebanese people who 
democratically elected these representatives, and a chilling disregard 
for the rule of law.
    4. The Syrians continue to support terrorism in Lebanon, the 
Palestinian territories, and Iraq. Even U.N. reporting acknowledges the 
role that the Syrians have played in the rearmament of Hezbollah, and 
they continue to harbor and provide support to other terrorists groups 
such as Hamas. During his testimony in September, General Petreaus also 
made clear that the border with Syria is the main entrance point for 
insurgents. In interviews the general has described how the Syrians 
allow foreign fighters to arrive at Damascus International Airport and 
then cross the Iraqi border.
    5. Syria is receiving significant arms material from Iran, in 
violation of Security Council Resolution 1747.
    6. The Assad regime continues to repress its people and the 
squelching of political dissent. The regime has imposed a travel ban on 
all dissidents, including Riad Seif (Seef), who has been denied a visa 
to travel outside of Syria to receive necessary medical care for his 
cancer. He is being targeted because he has dared to speak of change 
for Syria.
    Again, I understand that the pursuit of our national interests 
often compels us to deal with even the most distasteful of regimes, and 
it is an option I am always willing to entertain. Nevertheless, it 
would be foolish to simply turn a blind eye to Syria's involvement in 
destabilizing and undermining democracy and the rule of law in Lebanon.
    Syria has the potential to be a constructive force for peace and 
stability in the Middle East. But their ability to be that positive 
force is in grave doubt at the current time.
    So I am left with the following question: How do we balance a 
desire to pursue accommodations with Syria on issues of potential 
common interests without undermining important objectives for the 
region, such as a stable Lebanon free of Syrian control? This question 
is all the more challenging in a situation where all of the issues on 
the table are highly interconnected. I hope our witnesses today can 
give us some guidance on this very critical question and how we might 
navigate through the complexities of our relationship with Syria.

    Senator Lugar. Well, I thank my friend.
    Mr. Secretary, in the election crisis in Lebanon--you've 
mentioned the March 14th elections, and I just ask, 
pragmatically, is there any other solution for that, other than 
the selection of a so-called compromise candidate? Would you 
discuss, for a moment, what the compromise might be, who the 
contending parties are, so that we all are, sort of, aware of 
what that might mean, and whether the United States favors that 
type of solution?
    Ambassador Welch. I will be happy to take a stab at it, 
Senator Lugar.
    The politics in Lebanon today are roughly divided between 
the March 8th opposition, which holds a strong part, but not a 
majority in Parliament, and March 14 which does have a majority 
in Parliament. March 14 has a substantial Maronite Christian 
component, but March 8 has one, too. The next President of 
Lebanon, as were his predecessors, will be a Maronite 
Christian. So, the debate is over who might receive 
parliamentary support. The United States has taken the 
approach, in this administration, that it's best for us to help 
to support the process, but to stay away from the individual 
candidates. I think that's consistent with our approach broadly 
speaking, but, I think, especially in this case, it serves our 
purposes.
    To some, in the present Lebanese political context, the 
word ``compromise'' has a pejorative tone. They like to talk 
more about ``consensus.'' But the consensus is, to put it 
bluntly, ``a deal,'' at the end of the day. Someone will be 
voted through the Parliament because they enjoy support. And 
that's where Lebanon's politicians have to decide.
    We have said that the next President of Lebanon should be 
selected by the Lebanese, with no outside intimidation or 
pressure, of which there is a considerable amount right now, 
and that they should be allowed to do it in accordance with a 
constitution that has no extra-constitutional solutions like we 
saw in the fall of 2004. And they should be allowed to do it on 
time; that is, by midnight on November 23 of this month, when 
President Lahoud's term ends.
    I don't know who they will select, Mr. Senator, and that's 
probably a good thing, because I don't think it's appropriate 
for us to be in that game. But we would like to see the next 
President of Lebanon be someone who looks to the sovereignty, 
security, and interests of his country, and not be manipulated 
by an armed terrorist group inside or an external neighboring 
power outside. Unfortunately, the current President of Lebanon 
has not demonstrated that he is that sort of figure. We would 
hope that his successor does a better job in that regard.
    Senator Lugar. Well, now, as you describe these two 
contending groups which may come to consensus, at least some 
observers would say one of the groups has been severely hurt by 
assassination of its members, ad seriatim, and the allegations 
are frequently that Syria had something to do with this. Now, 
on the other hand, it may be more far-reaching. Is there 
evidence that Iran has something to do with this, or some 
cooperation between the two. And at least Syria--rather, 
Lebanese who have come to visit with us over here are 
describing this attrition, that, if it goes on long enough, 
there will not be so-called consensus or compromise, the thing 
will have been decided by external forces, which then raises 
the question: Is this a legitimate concern for the United 
States? Is there some action we ought to be taking to preserve 
the integrity of the place, given actual violent killings and 
the aftermath of that, that's testified to by Lebanese coming 
for our help?
    Ambassador Welch. There are, broadly speaking, two courses 
available to us here. One is to do what we can to support and 
protect the process. And I think that, Senator, involves mainly 
political measures and support of the kind that we did last 
Saturday, in gathering with a few key Arab countries in France. 
I believe, sir, that that attention has to be devoted every 
single day to this problem. And hearings such as this are 
important for that. This will be big news in Lebanon. It may 
not make the front pages here--but I guarantee you, that you 
all show this interest in their future--it will in Beirut. The 
second course of action is to also say what we would not 
support. And, in that respect, I think the United States will 
be able to lead the international community in affording 
recognition to a legitimate democratically elected government, 
even if it's by a majority, if it comes down to that, and to 
deny recognition to any second government or to an illegally 
extended current system--as we see now. I think the mainstream 
of the Arab world and the mainstream of the Western world is 
united in that purpose.
    The Lebanese have enough political difficulties on their 
own without their neighbors or the Iranians adding to them. 
Now, this is not a fully satisfactory answer, because none of 
us knows what will happen in the next days and how the election 
will fare.
    Senator Lugar. Well, if we deny recognition to whatever 
comes up, where does this leave the Lebanese? You know, one 
strategy might be simply to create such chaos that we and 
others don't recognize. Then what? Doesn't this almost bring 
about domination by some other power, given the fact the 
Lebanese have not produced a government that people recognize?
    Ambassador Welch. Well, I think we have something of an 
example in what was attempted to topple the Siniora government. 
The opposition withdrew its membership in the Cabinet, the 
Parliament has not been able to meet and take decisions, pass 
laws. The President has refused to act, which he's 
constitutionally empowered to do at times such as that; and 
yet, the Siniora government, which is recognized 
internationally, has not folded. They've shown commendable 
courage under the circumstances, and their people support them. 
I believe it is imperative that the United States not abandon 
Lebanon during this time of difficulty. I'm confident that 
Congress supports us in that. There have been resolutions 
passed by the Senate and the House declaring that. And I think 
we need simply to keep repeating, because I think, in this 
instance, the most important things are the political measures, 
so that no one can be under any misunderstanding about what we 
want to see happen here. And that it's more than us, too. It's 
the other responsible countries in the region and in Europe.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Sir, thank you for your testimony. As you know, Syria has 
been denying visas to Department of Homeland Security officials 
who would process Iraqi refugee cases, and I'm told you mention 
in your testimony that Syria is committed to issue visas to 
DHS----
    Ambassador Welch. Right.
    Senator Feingold [continuing]. Adjudicators. Now, have they 
started issuing these visas? And, if not, when do you expect 
them to start issuing them? And, finally, how many agents do 
you expect to be issued visas? And will that be sufficient?
    Ambassador Welch. Senator Feingold, my understanding is 
that they have issued four after a period of not issuing visas 
to American government representatives. They have now issued 
some; a handful to DHS personnel. I don't think that they're in 
Syria yet. But, on this point, sir, I believe that with any 
kind of luck, and provided it is sustained, we may have turned 
a corner on getting the personnel necessary to do the 
adjudication of refugee status into Syria.
    Senator Feingold. Can you clarify for me the relationship 
between Syria and Iran? And what underpins the relationship? 
What does the administration think about it? And how does it 
fit into our broader concerns about Iran?
    Ambassador Welch. Syria and Iran have had kind of an odd 
partnership going back quite a number of years. Syria was one 
of the few countries that, after the 1979 revolution in Iran, 
maintained some form of stable relationship with the new 
Iranian governments. You know, there is lots of speculation 
about why that might have been the case, Senator, but it might 
have had a lot to do with the fact that the Syrian regime at 
the time was bitter enemies with the regime in Iraq.
    That said, over the many years since, the Iranian influence 
in Syria has grown. The number of Iranian travelers to Syria is 
really quite large. The interaction between the Syrian and 
Iranian intelligence services is vigorous. Iranian-supported 
terrorist groups move in and out of Damascus with ease. Iran 
projects its influence into Lebanon through Syria, including 
with shipments of weapons and other supplies to Hezbollah.
    Another thing that is increasingly evident is, as the sense 
of concern has risen internationally about Iran, particularly 
in the Arab world, it's led to an equal deterioration or 
parallel deterioration in Arab relationships with Damascus. So, 
you know, while there may be no formal sanctions, per se, by 
the Arab world against Syria, there are certainly informal 
measures in effect, which have really severely diminished the 
political and other relationships that Syria would expect 
normally to have, with its Arab brothers.
    Senator Feingold. So, in a way, Syria has become more 
isolated--in part, because of its relationship with Iran?
    Ambassador Welch. Absolutely.
    Senator Feingold. In that vein, despite an attempt by the 
international community to prevent Hezbollah from rearming 
after the 2006 summer war, and border security, according to a 
U.N. Assessment Team report, is insufficient to prevent the 
smuggling. From your testimony, I understand the United States 
primary attempt to address this problem has been through 
sanctions. However, since the evidence presented in the U.N. 
report suggests that Hezbollah is rearming, I'm obviously 
concerned that sanctions will not necessarily be effective.
    With the Lebanese President asking both the U.N. and the 
Arab League for assistance, what more needs to be done to curb 
this flow of weapons to Hezbollah? And I will make that my last 
question, not only out of deference to my colleagues, but also 
because every time I speak, this buzzing starts.
    Ambassador Welch. Well, Senator, we really are worried 
about this problem, because, while I believe that the security 
regime that's provided for in Resolution 1701 is a good and 
substantial one for southern Lebanon, it's very vulnerable, if 
there's a persistent rearmament of Hezbollah from outside. 
There are two Security Council resolutions that pertain here. 
One is that one; the other is 1747. There are not supposed to 
be any weapons going into Lebanon, except for the legitimate 
government, and Iran is not supposed to export any weapons. 
Both of these things are presently being violated. The Lebanese 
Government is stuck in the middle, trying to stop them.
    We've encouraged a more systematic and rigorous 
international assessment of this problem because most of it is 
occurring in an area where UNIFIL is not deployed. So, the 
first step is to get a sense of the scope of the problem, and 
then get some ideas on how to deal with it.
    The Germans have started a border protection program along 
some parts of the northern border. We are supporting that 
program, including financial assistance, and we're asking 
others to do more.
    So, that's the third component, is to continue to draw 
international attention and support to the issue.
    Finally, in our own security assistance relationship with 
Lebanon, with the army, principally, and some parts of their 
gendarmerie, the internal security forces, we do see part of 
that going to support their effort along the border. The 
Lebanese Army has 8,000 troops deployed along this border, 
which is an extraordinary new level of deployment for them. If 
you add that to what they have in the south, over half of their 
army is deployed to protect the area covered by UNIFIL in the 
south and the border with Syria. They need help in that regard, 
and we're trying to help them do it.
    Senator Feingold. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much.
    Senator Sununu.
    Senator Sununu. Thank you very much, Mr. Chairman.
    Secretary Welch, is the administration in any conversations
now with political opposition, Syrian political opposition, 
either abroad--expatriate community--or in Syria itself?
    Ambassador Welch. It's very difficult to talk to the Syrian 
opposition in Syria. Most of them are not either available, in 
a secure fashion, or able to speak to us. We try as best as we 
can to maintain contact in the society center. There are some 
very severe limitations on our ability to do so in Syria.
    We are in contact with people outside, though perhaps not 
as robustly with some, as we are not comfortable with some 
members of the opposition because of their backgrounds and 
history. But, for those who have none of that baggage, we are 
in touch with them. We have some limited Middle East 
partnership activity with respect to Syria.
    But, Senator, I'll be honest with you, this is not an easy 
thing to do in that particular place.
    Senator Sununu. You talked a little bit about border 
security, trying to deal with the transshipment of arms across 
the Syria/Lebanon border. Could you expand on a few points 
here.
    One, you mentioned an effort by the Germans to strengthen 
border patrol, particularly in the northern part of the 
country. What's the real scope of that effort? How many 
personnel are involved?
    Second, you mentioned the use of 8,000 Lebanese Army forces 
to deal with this issue. They're only as good as the training 
and the equipment that they have. And, in this area, the United 
States has made a pretty big commitment. So, what is the status 
of our military assistance to the Lebanese Army forces? And are 
there any obstacles or problems in providing them with the 
support for which we've made a commitment?
    Ambassador Welch. The German program started initially, 
Senator Sununu, at the time of the war, in summer of 2006, when 
one of the solutions to lifting the air and sea blockade was 
Germany's support into the airport and seaports of Lebanon to 
provide assurance that there wasn't any illegal traffic of 
weapons going on there. Because of that positive experience 
between Germany and Lebanon, the Germans offered a pilot 
program to look at border security in the northern area. I'm 
sorry, sir, I don't know exactly the details of the personnel 
and the cost, but this is a pilot program, not a full-blown 
initiative to cover the entire border.
    It's had its growing pains. We've been supportive of it. We 
would like to see it extended. We've encouraged other potential 
European partners to join in. We think the Germans are doing a 
good thing here. And we're constantly in dialogue with them 
about it.
    In terms of security assistance, of course, we--in addition 
to the normal law enforcement and intelligence relationships we 
have with a friendly country like Lebanon, we have ongoing 
security relationships with the army and the ISF, both of which 
work in those areas. They have some specialized equipment that 
they would like to apply to border surveillance missions, and 
we're looking at that possibility. Although I can't tell you 
exactly the numbers now, I would think that, all else being 
equal, that we would devote a large part of our assistance to 
that mission.
    Senator Sununu. But, that aside, there haven't been any 
obstacles or limitations on our ability to deliver the 
assistance to the Lebanese Army that we've committed to, both 
through the action of the administration and through 
appropriations we've provided in Congress.
    Ambassador Welch. On the contrary, sir, the congressional 
appropriations have been generous and have afforded us 
extraordinary flexibility to meet some very difficult problems 
there.
    Senator Sununu. I wasn't fishing for a compliment, I was 
just--I just wanted to, you know, make sure that there was 
nothing additional----
    Ambassador Welch. No----
    Senator Sununu [continuing]. That we could or needed to be 
doing.
    Ambassador Welch. Not that I can think of, but I appreciate 
the offer. It's rare.
    There are, from time to time, releasability issues on our 
side. I'm convinced we can work through those, Senator. And 
where we have a question or a concern, there are various 
measures we can take; for example, leasing equipment that might 
be returned later. We did that for the Nahr al-Bared fight. 
And, generally speaking, the Lebanese Army has been a 
trustworthy recipient of American military assistance. So, I 
think our record is pretty good.
    Senator Sununu. How does the administration intend to deal 
with the issue, the question, or the potential of inviting 
Syria to participate in the Annapolis meeting? It's my sense 
that Prime Minister Olmert has been somewhat receptive to that 
idea. Is that likely to happen?
    Ambassador Welch. Well, as you know, we're engaged in a 
very intensive process right now to try and move the Israelis 
and the Palestinians from where they have been eventually into 
negotiations. Annapolis is the future of that. We haven't 
announced a date for it, and we haven't issued invitations yet, 
but the President decided, some time ago, almost 2 months ago, 
that there would be certain natural participants. Of course, 
the two parties, Israel and the Palestinians, the members of 
the Quartet, and he decided that in order to give the right 
cast and comprehensiveness to the participation, we would 
invite the Arab followup committee to the Arab Peace 
Initiative. That's 23 countries and the Arab League's Secretary 
General. Syria is one of those countries. And Lebanon is also 
one.
    That said, we have not invited anybody yet, and so, they've 
not been called upon to answer an invitation. I don't perceive 
that the invitation, per se, will be the difficulty, Senator.
    Senator Sununu. Have you been pleased with the level of 
support that our allies within the Arab League have provided 
and the path leading to a potential meeting in Annapolis? Has 
their participation been constructive? Are they as engaged in 
the timeliness or the importance of timeliness and action at 
this particular time, or has there been a divergence in what 
they're saying privately versus what they're saying publicly?
    Ambassador Welch. We are encouraged. And I think you will 
have seen, from some of the public remarks from countries to 
which you refer, so are they. That said, this process is not 
yet mature to the point where we can make a judgment about: 
Will they be there or not?
    We believe that the Arab States have an important 
responsibility to support moves to peace. Jordan and Egypt, who 
already have peace treaties with Israel, have been particularly 
influential in trying to move this process along, and have been 
very helpful to the effort to try and broaden the consensus 
within the area.
    That said, Senator, this is a very difficult problem, and I 
have to tell you, in all honesty, that there's quite a bit of 
skepticism, not just in the Arab countries, but elsewhere, 
about whether this will work and whether the two parties, in 
particular, are prepared and ready to do things. We believe we 
can address that, but the job's not yet done.
    Senator Sununu. I apologize for going over, Mr. Chairman. I 
have one more brief question.
    It's my understanding that the Syrian Government has asked 
its allies in Lebanon to prepare to foment some internal 
disruptions and unrest in Lebanon, beginning on November 12. Do 
you have any confirmation of that? Is it your sense that they 
have, in fact, done that?
    Ambassador Welch. I can't answer that, specifically, but my 
sense is that, since November 12 marks the next nominal opening 
date for the Parliament to select the President, there is a 
high risk of something happening internally to signal that the 
place is a mess and parliamentarians can't take the risk of 
voting as they should. As you know, the Syrians are 
particularly influential in the Palestinian camps in Lebanon. 
That's a separate but parallel risk.
    And in Syria's own statements, they don't say, ``We're 
doing anything,'' of course, but they do point to the 
vulnerabilities and weaknesses in Lebanon, the need for 
stability there--as we say here, ``yadda, yadda, yadda.''
    Senator Sununu. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    It seems to me that, regardless of what happens on the 
Presidential elections--and we certainly hope that they'll be 
held in a fair manner, that we get an effective leader as 
President, who can be independent of Syria--but, unless there 
is more peace on the ground, unless we can deal with the 
external threats from Syria as to the stability within Lebanon, 
then it's going to be very difficult to make any type of 
progress toward a stable regime in Lebanon. You can't operate a 
government out of a hotel. I mean, you need to have free 
passage.
    I was in Lebanon a couple of months ago, and I can't tell 
you I saw much of the country, because we were pretty well 
restricted on anything we could do, because of fear of safety, 
and not because of the Lebanese Government.
    So, I guess my first question to you is--I want you to talk 
a little bit more about the status of the special investigation 
by the Security Council. And let me preface that by saying, you 
know, we've set up international criminal courts, and we're 
still awaiting those results. Seems to me that we always seem 
to, internationally--not the United States, but 
internationally--place a lower priority on holding people 
accountable for atrocities than we do on an agenda that appears 
to be looking forward, when, in reality, if you can't make 
closure in the past, you never really make progress in the 
future. And we need to find out, objectively, what happened in 
the assassination of the Prime Minister.
    I was very encouraged by the passage of the Security 
Council resolution for a special investigation. I think there 
was some doubt as to whether that could be done. It was done. 
And now, I think time is of the essence, and it needs to be 
done objectively, and we need to find out, and it could very 
well help us get the type of international credibility to the 
influence of Syria in the Government of Lebanon, that could 
very well help us, not only bring closure, but for future 
stability within Lebanon.
    So, could you give us a little bit more information how 
that's proceeding?
    Ambassador Welch. I hope so, sir. Let me divide my response 
into three parts.
    First, the investigation itself is managed by an 
international team--a very substantial one--of investigators. 
The United States participates in that with some specialized 
law enforcement support, but we're not the primary players. The 
lead investigator, Serge Brammertz, is an experienced person 
from Belgium, and he's doing, we think, a creditable job. In 
all honesty, sir, we don't know the status of the 
investigation. It's very carefully and tightly controlled by 
that team, which I think is proper under the circumstances. 
It's a serious and honest effort. He has reported from time to 
time to the Security Council that he's getting close to 
concluding his investigation, that he's uncovered important 
information, but he's really said very little else--a 
commendably discreet approach.
    And, second, there is the international tribunal itself. 
Because of the political crisis in Lebanon, the government was 
unable to pass this through its own system and agree, as 
Lebanon, to establish an international tribunal. So, 
unfortunately for Prime Minister Siniora, he was forced to 
refer the matter to the Security Council. At that point, the 
Security Council decided to act, and assumed on its part the 
role of Lebanon, essentially, in exercising this part of its 
sovereignty to set up the special tribunal.
    Now, it doesn't exist yet, sir, but it will. Already, 
they've agreed on a location. The Netherlands has offered to 
support the location. They've agreed on a budget, and the 
United Nations is raising money for it. The United States has 
contributed $5 million, as the first tranche of our budgetary 
support to the tribunal. France has given a higher amount of 
money. There are several other countries chipping in, too. And 
I would expect countries in the region to do so, as well. 
Importantly, so has Lebanon, already matching our own and 
France's, and soon to put in more.
    The third element that they're doing to set up the tribunal 
itself is to select those who would do the work of the 
tribunal. And that process, again, is commendably discreet, and 
it is underway.
    That's, sort of, on a law enforcement calendar. It's not on 
a political calendar. And I believe that's a good thing, 
because this brings me to my third point. The most important 
thing here is to end the sense of impunity for political 
murder. And you need international vigilance to help the 
Lebanese do that. The investigation is irreplaceable. I don't 
think this investigation could have progressed as far as it has 
without international support. And ideally, sir, one day there 
will be a prosecution of those responsible. In conclusion, I 
can't tell you who will be prosecuted, because I just don't 
know, at this point.
    Senator Cardin. I would just ask that this be a very high 
priority for the United States in trying to move forward with 
Lebanon in that region. Clearly, we need accountability. Will 
that court have jurisdiction beyond just Hariri's 
assassination? Will it be all the political assassinations in 
the country, or is there a scope issue here?
    Ambassador Welch. There is a scope issue. You know, to be 
honest with you, I'm not entirely sure of the parameters, how 
far back it reaches. I can provide you an answer for the record 
on that, because it was established to deal with the Hariri 
crime and beyond, but that's a very technical legal question 
that was worked out between the United Nations and Lebanon, 
and, rather than mislead you, I'd like to provide the answer 
for the record.
    [The written response from Assistant Secretary Welch 
follows:]

    You are right about the importance of U.S. support for the 
establishment of the Special Tribunal for Lebanon. The United States 
has worked closely with the United Nations to establish the Tribunal as 
quickly as possible, to signal that the era of impunity for political 
assassinations in Lebanon is at an end. The United States has already 
contributed $5 million to establish the Tribunal, and with the support 
of the Congress, we plan to make additional contributions throughout 
the life of the Tribunal.
    The statute of the Tribunal, incorporated in UNSCR 1757, provides 
the Tribunal with jurisdiction over persons responsible for the attack 
of February 14, 2005, resulting in the death of Former Lebanese Prime 
Minister Rafik Hariri and the death or injury of others. The Tribunal 
also has jurisdiction over persons responsible for other attacks that 
occurred in Lebanon between October 1, 2004, and December 12, 2005 (or 
any later date if decided by the U.N. and Lebanon with the consent of 
the Security Council) if the Tribunal determines that such attacks are 
connected and are of a nature and gravity similar to the Hariri 
assassination. This connection includes but is not limited to a 
combination of the following elements: Criminal intent (motive), the 
nature of the victims targeted, the pattern of the attacks (modus 
operandi) and the perpetrators.

    Senator Cardin. And also as to: What is the capacity of 
Lebanon today to pursue current threats that are being made 
against parliamentarians, and actions that are being taken, 
whether they have the capacity to pursue that, or whether they 
will need the support of the United Nations also in that 
regard.
    Ambassador Welch. Well, that's a tougher question for 
Lebanon, sir. And, you know, sadly, if you want to murder 
somebody, you can do it. And that has happened with sad 
regularity in Lebanon. There are 40 parliamentarians 
sequestered in a hotel in West Beirut now, under Lebanese Army 
and internal security forces protection. The government's doing 
its best to try and operate under this environment of threat. I 
think many of you know some Lebanese politicians personally. 
They live with this reality every single day.
    Senator Cardin. I would just urge----
    Ambassador Welch. Senator Kerry mentioned meeting one who's 
still having operations. I presume that was the Defense 
Minister. What amazes me is that, in the face of this threat, 
these people go to work every single day, determined to stand 
up as patriots for their country in the face of it.
    Senator Cardin. My only point was that I don't know how the 
results of the election will change the circumstances in 
Lebanon unless they can get control of the safety of the--of 
their elected officials--of their population, including those 
who may be in opposition to the relationship with Syria.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Cardin.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much.
    And, Mr. Secretary, we appreciate your presence here today, 
and your service.
    One question that I think you've addressed in your 
testimony and some of the questions is the United States 
posture with regard to how we engage a nation like Syria, in 
light of their track record. And one of the concerns that I 
have with regard to the Middle East or with regard to Iraq, in 
particular--and I think it's also a concern that we have, even 
with a nation like Syria--is there doesn't always seem to be a 
strategy with this administration. There seems to be episodic 
or tactical moves that are made, but there doesn't seem to be a 
strategy. And I wanted to have you, as you have already, but 
I'd ask you to restate it or reformulate it, in summary 
fashion--if someone walked up to you on the street and said, 
``Tell me, in a few minutes, what the United States strategy is 
with regard to Syria?'' how would you enunciate that--or, 
articulate that, I should say?
    Ambassador Welch. We would have hoped for a better 
relationship with this country. Syria, conceivably, could be a 
key player, a positive force for peace and stability in the 
area. It's an interesting country. I've worked there, Senator, 
and it's got a very interesting culture and history. Damascus 
is one of the oldest continuously inhabited cities in the 
world, and an object of some pride for Arabs, generally.
    Unfortunately, in the last 25 or so years, for a variety of 
reasons, Syria has estranged itself from the international 
community, an isolation that I think has grown in recent years.
    Earlier, the remark was made, ``You know, the United States 
pulled its Ambassador out of Syria, but no one else did.'' 
Well, actually, the history is a bit different. For their own 
reasons, Arab countries have withdrawn their diplomatic 
representation from Syria from time to time. Egypt did, after 
Camp David. Iraq did, because of acts of terrorism between 
Syria and Iraq in the Saddam Hussein days. The Palestinians 
have had a very tempestuous relationship over time with 
Damascus. Certain European embassies were attacked by Syrian 
mobs violently in recent years, for real and imagined affronts 
to Syrian dignity, and their personnel had to be removed. The 
United Kingdom removed its Ambassador and all of its diplomatic 
representation in the mid-1980s over an attempted terrorist 
incident, in planting a bomb on an airliner in London. So, this 
is not only our experience, it's that of others.
    What is the positive thing that we would like to see? There 
are certain areas of effort where we believe the government in 
Damascus could do things and make a difference. We wouldn't 
have the problems we see today in Lebanon if Syria were 
deciding to take a different role. Plain and simple.
    Syria has got a long and difficult border with Iraq. It has 
managed to let a lot of people in, and, very recently, to curb 
that number. Well, they could do a lot more to control the 
number of foreign fighters going through Syrian territory into 
Iraq.
    No. 3, they could control these extremists groups, 
terrorist groups that are operating from Damascus and 
conducting terrorism elsewhere in the area, principally 
Palestinian groups. You know, these are not representative of 
the Palestinian mainstream, which is now headed in a very 
different direction, but they can be controlled. There is not a 
single thing that goes on in Damascus that the Syrian 
Government couldn't shut down in a heartbeat if it wanted to.
    So, they have to answer us on these things. And, if they 
did, and in a convincing way, we would know it. And if we knew 
it, we would be able to respond appropriately. It's their 
choice.
    Senator Casey. I wanted to ask you also about the question 
that looms over a lot of our discussions when it comes to the 
Middle East. We're having a vigorous debate in this country 
about Iran and its intentions, its nuclear intentions, real 
concern about Pakistan, obviously, not just in light of the 
recent activity there in the destabilized situation which 
appears to be unfolding there, but also the same could be asked 
of you with regard to Syria. What can you tell us about the 
Syrian Government's intentions with regard to obtaining or 
moving in the direction of obtaining a nuclear weapon? What do 
you know? What can you tell us? And if they are, what do you 
think are the steps that we must take and what the 
administration plans to take?
    Ambassador Welch. Because of this record of Syrian behavior 
that I think we all understand, I think there's a need for very 
special vigilance about Syria's intentions with respect to any 
kind of weaponry, conventional or otherwise. We have a high 
concern, even about the conventional armament of Syria, and 
it's an element in our diplomatic approaches to other countries 
that they not engage in arms sales to Syria. For their own 
reasons, they do, and we've been unable to deter that.
    With respect to their unconventional weapons, Senator, if 
you don't mind, that's a subject that's not appropriate for an 
open hearing. I'm not trying to duck the question. Obviously, 
there's a need for special vigilance there. But that's not 
something I can address in open session.
    Senator Casey. And then, also, I guess, finally--and I 
think I'm out of time, maybe I'll wait for the next round, if 
Senator Coleman has questions. Maybe I'll come back to it.
    Thank you.
    Senator Kerry. Senator Coleman.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    Ambassador, let me first raise a--just a human rights 
issue, because I believe I saw this in your written testimony, 
but I don't believe you addressed it in your statement, the 
issue about the Syrian Government refusing medical treatment 
for prisoners of conscience, in particular. And there are a 
number of cases, one that--certainly, that I have been 
watching, and, I think, others in the Senate, is Riyadh Seif, 
waiting--we're awaiting action to--whether he's going to be 
allowed any opportunity to travel outside of Syria to receive 
medical care. I know there's been a call by the administration, 
the European Union, to lift the travel ban, not only for Mr. 
Seif, but for all Syrians who have the courage to voice support 
for reform. Can you give me an update as to whether, in fact, 
Syria has--the Syrian Government is allowing Mr. Seif to get 
appropriate medical care outside of Syria?
    Ambassador Welch. My understanding is that he has some very 
serious chronic health conditions, and that his medical 
situation is of grave concern to his family. The Syrian 
Government has been unresponsive to our entreaties on him and 
on others. I regret to say I have very little information about 
his condition right now, sir.
    Senator Coleman. I would appreciate if you would keep us 
informed as to whether there's any change in that status.
    Ambassador, let me get to an issue that Senator Cardin 
had--has raised. Used the phrase, talking about ``end the sense 
of impunity for political murder.'' You have political murder 
going on in Lebanon. Right now, I think there is a sense of 
impunity. We don't have the full report regarding the Hariri 
investigation. I think everything that I have seen is pretty 
clear that Syria was involved in that assassination. You then 
have a series of six other prosovereignty elected officials 
assassinated. I thought Chairman Lugar raised the question to 
you as to: What information do you have about Syrian 
involvement? I don't think you ever answered that part of the 
question. I'd raise it again. Can you tell me what information 
we have, at this time, regarding Syrian involvement in the six 
prosovereignty assassinations that have taken place subsequent 
to the Hariri assassination?
    Ambassador Welch. You're right, Senator, I didn't answer it 
directly, and I didn't answer it directly in the case of the 
status of the investigation into the Hariri murder, either. 
There's an international investigation into that one and some 
of the others, and the Lebanese, of course, are conducting 
their own inquiries, as well.
    Some people have been jailed for some of these crimes. I 
don't know how far the evidentiary trail goes. My observation 
would be, I think, as I said earlier, the fact is that those 
who have been targeted all appear to have one set of common 
beliefs, and thus, the hypothesis to be defeated, as economists 
would say, is that there has been one hand behind it. But I 
honestly don't know, Senator Coleman. The truth is that in 
Lebanon, far too often, these murders have not been 
investigated, there hasn't been a serious effort at that, and 
they haven't uncovered who's been behind the crimes.
    When they tried to resolve the civil war, there was an 
amnesty. And, at the time, we, as the U.S. Government, had to 
judge, ``Well, how do we handle crimes that might have been 
committed against Americans during that period?'' And we carved 
out an exception in the amnesty, in cooperation with the 
Lebanese Government, for that. This time around, we've tried to 
provide every investigatory resource that was requested of us 
by the Lebanese authorities, and to add in these other special 
arrangements, like the international investigation and the 
tribunal.
    At the end of the day, you know, like in all laws, sir, you 
want to create a barrier, a deterrence to this action. 
Sometimes it's easier to do that than it is actually to 
conclude a satisfactory investigation.
    I can't tell you today that, for some of the more prominent 
of these murders, that I know exactly who was behind it.
    Senator Coleman. I mean, the challenge we have is: How do 
you engage Syria without undermining the success of the 2005 
Cedar Revolution? How do you engage them without some belief, 
some sense that, you know, political assassination is off 
limits, recognizing democratically elected government is a 
precondition, stopping the flow of arms and support from Iran 
through Syria to Hezbollah is a precondition? And, for me, what 
I struggle with is: How do you believe, even if the answer is 
yes--what is it that you can see? How do you measure--there are 
two parts to the question--one: What kind of commitments do you 
have to have--basic commitments? And then: How do you measure 
whether they're believable?
    Ambassador Welch. Well, I think, in this case, we are going 
to be distrustful, to be candid, first. It's not an instance of 
``trust, but verify.'' The fact is, there is a poor record of 
Syrian effort and cooperation on these issues that concern us. 
So, the burden is on them to overcome that. We will do our best 
to verify it when they commit to something.
    And I'll give you an example of what I mean. Senator Kerry 
was asking: Did they take any action at all against some of the 
people identified as persons of concern to us in the past? Sure 
they did. But it was a minor subset of the larger group that we 
turned over to them for investigation and action.
    In the last few months, the Iraqi Government has come to us 
to say, ``You know, we have a big difficulty with the Syrians, 
because they're hosting opposition conferences in Syria of 
people who we know are involved in actions inside Iraq.''
    One of the things we've tried to do is support the Iraqis 
in going in--since they can do this now, they're fully 
sovereign, and have a relationship with Syria--and putting 
their case right out there in front.
    Finally, Senator, I don't think the United States should 
trade or balance off any of these issues. These are things that 
all the other responsible countries in the region are not 
doing. So, why would we trade the interests of Lebanon against 
Syria's misbehavior in Iraq? That's just not going to happen.
    Senator Coleman. I mean, is it fair to say that the 
sovereignty of Lebanon is not negotiable?
    Ambassador Welch. That's correct. And the tribunal and the 
investigation are not negotiable, either. That investigation 
should be allowed to proceed where it will go, without any 
interference by the United States or by anybody else, 
including, of course, Syria.
    Senator Coleman. Thank you, Ambassador.
    Senator Kerry. Thank you very much, Senator Coleman.
    This has been a long panel. We have another panel, too, of 
experts who can help shed some light on this, so we want to get 
to that. But, just a couple of quick things before we wrap up 
this panel. And, Mr. Secretary, you've been generous with your 
time. We appreciate it.
    First question. On the flow of arms coming through Syria 
and coming from Iran, to what degree--if any--has that impeded 
the activities of UNIFIL in the south? Has it had a negative 
impact on the UNIFIL efforts?
    Ambassador Welch. There is no armed Hezbollahi presence 
that UNIFIL has detected in its area of operations. Someone, I 
don't know if it was you, Senator, mentioned Hezbollahi flags 
flying in----
    Senator Kerry. Yes; I did.
    Ambassador Welch [continuing]. Certain places----
    Senator Kerry. Correct.
    Ambassador Welch. As you know, flags in Lebanon and many 
places in the Middle East are political banners, and that may 
be----
    Senator Kerry. No, no; this was a very specific effort that 
took place immediately after the war with Israel.
    Ambassador Welch. I see.
    Senator Kerry. And the bombings that took place, and before 
families had even returned, in an effort to win favor with the 
families, there was a real campaign out there to, sort of, 
stake a claim and then to be engaged in very generous 
rebuilding and relocation efforts.
    Ambassador Welch. Right, I see. Well, to the best of my 
knowledge, there is no armed Hezbollahi presence. UNIFIL is not 
reporting that there is. They are a very capable organization, 
however, Senator, and I cannot say that they are not able to 
infiltrate into that area. They have a good deal of local 
support.
    Senator Kerry. No; which is why, obviously, they are 
infiltrating, and all evidence we have is, that weapons are 
coming in and they are rearming. We understand that. And 
that's----
    Ambassador Welch. And----
    Senator Kerry [continuing]. Part of the----
    Ambassador Welch. And----
    Senator Kerry [continuing]. Dilemma. But the question I had 
is whether that's interfered or affected any of the UNIFIL 
activities.
    Ambassador Welch. Not yet, sir. The attack against Spanish 
peacekeepers, that occurred and resulted in several fatalities, 
was denounced by Hezbollah. I'm not entirely sure who was 
responsible for that, but it does not seem they were. There 
have been some rocket firings also from that area, from the 
UNIFIL area against Israel, just one that I recall, and I 
believe that was by an extremist Palestinian group.
    The worrisome thing about Hezbollah is that it's not 
comforting that they aren't there, because, even beyond the 
Litani, beyond the UNIFIL area of operations, they're able to 
launch longer range weapons against Israel.
    Senator Kerry. And with respect to President Assad's 
meddling in Iraq and the support for Sunni insurgents, which we 
also know is taking place, is there any evidence, or any 
potential, that that could spill back over into Syria and have 
an impact on the Sunni majority of Syria with respect to the 
Alawite sort of division? Do you have any sense of that?
    Ambassador Welch. I think the Syrians have reason to be 
concerned about Sunni extremist groups and Kurdish extremist 
groups, as well. As you know, there's a big population of Kurds 
in Syria. I believe that there have been confrontations between 
the Syrian Government's internal security forces and some 
groups in Syria. It's not entirely clear to us why that's 
happened, but there have been incidents there. And, given the 
history of the minority regime in Syria, which, as you know, 
faced great pressure, including violent pressure, from the 
Muslim Brotherhood in the 1970s and early 1980s, I would not be 
at all surprised if they were to have a difficulty from 
spillover from the al-Qaeda influenced elements in Iraq.
    Senator, just an editorial comment on that; that ought to 
be even more reason for them to begin to control this problem, 
in cooperation with others.
    Senator Kerry. I would think so. One would think so, at 
least.
    Well, I appreciate that. I don't know if my colleagues had 
any followup question.
    One thing I will note in the conversations that--Senator 
Dodd and I had over about 2 hours with President Assad, I think 
as recently as this January, and we've discussed the Hariri 
investigation, and, frankly, neither of us detected any hint 
that it ought to be on the table, that it was a point of 
negotiation. In fact, he was very clear that it should go 
forward, and that was at least the represented position. I 
don't know if there's some back-channel effort there. One can 
imagine all the speculation and reasons why they wouldn't want 
it to. But, at least in those conversations, there was plenty 
on the table, and that was never part of it. So, we did relay 
to the Department those things that we thought were 
opportunities to follow up on.
    That said, we all know that Syria has long had its 
tentacles deeply reaching into Lebanon, and we also know that 
this dangerous process of assassinating the majority is, in the 
view of every Member of this Congress, an abhorrent and 
unacceptable approach. And I think those legislators, who are 
unbelievably courageous--I met with, you know, Raoul Hariri 
when he was here just the other day, and with other members in 
the last weeks. And they are courageous. They live an 
extraordinary life of day-to-day risk. And I think it's very 
important for us in Congress to make clear to them how much we 
admire their effort to practice democracy and to stand up for 
their values, which we share, and how deeply committed we are 
to seeing them succeed and to seeing this election process 
respected. And the Syrians need to know that the Congress is 
looking at this with every ounce of vigilance we can, and that, 
in whatever ways this Congress can find a bipartisan approach 
to deal with it, we will look for it. And I hope that this 
message is heard in whatever ways it can be.
    With that said, we thank you, Mr. Secretary. We thank you 
for the work you're doing, and thank you for spending this time 
with us. We appreciate it very much.
    If I could ask for a quick and seamless transition to the 
second panel, we'd like to get you up here as quick as 
possible.
    Thank you.
    [Pause.]
    Senator Kerry. Well, thank you very much for your patience. 
If we could ask each of you to perhaps summarize your full 
testimony, it will be placed in the record as if spoken in 
full. And we certainly appreciate your being here with us 
today.
    Mr. Malley, why don't you lead off, and then Mr. Lesch, and 
then Mr. El-Hokayem.

   STATEMENT OF ROBERT MALLEY, MIDDLE EAST AND NORTH AFRICA 
  PROGRAM DIRECTOR, INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Malley. Thank you very much, Mr. Chairman, members of 
the committee.
    I think we're having this hearing at a very----
    Senator Kerry. Go ahead, you can--you want to remove--she's 
going to make you not be Secretary Welch. [Laughter.]
    Mr. Malley. No problem for me.
    Senator Kerry. There you go.
    Mr. Malley. It's an honor.
    This hearing takes place at a time of unprecedented 
challenges for our country in the Middle East, and you 
mentioned some of those crises, all of which are interconnected 
virtually in an unprecedented way--Iran, Iraq----
    Senator Kerry. Why don't you just identify yourself, for 
the record, so everybody knows your background, quickly.
    Mr. Malley. Robert Malley. I'm the Middle East Program 
director at the International Crisis Group.
    Crisis in Iran, crisis in Iraq, crisis in Lebanon, in 
Palestine, the growing sectarianism--and all this at a time 
when United States credibility is suffering, and at a time when 
there's an absence of an overarching security framework that 
sets the rules of the game.
    Syria is not necessarily central or decisive to all of 
these crises, but it plays a role in each and every one of 
them. It hosts, as we just heard, Palestinian militant groups. 
It provides aid and a transit point for weapons to Hezbollah. 
It has very deep tentacles into Lebanon, as you just mentioned. 
It is the only Arab country that has special ties to Iran. And 
it borders Iraq and has close ties with a number of groups and 
actors in Iraq. In other words, they can do something about 
every issue we care about. And, in those circumstances, they 
could assume a spoiling role or they could assume a stabilizing 
one.
    Now, with all due respect to David Welch and to the 
administration, what we've been doing over the last 2 years is 
not engagement, it's not the kind of genuine engagement that 
tries to see whether Syria can play a positive role. What it 
is, is a list of demands that we put, periodically, to the 
Syrians, without followthrough, without putting it in a global 
comprehensive context, and doing it at a time when the Syrians 
are persuaded, rightly or wrongly, that our goal is to 
destabilize their regime, overthrow their regime, remodel the 
region in a way that is inimical to their interests.
    Engagement doesn't mean surrendering our principles, 
surrendering our values, giving up on the tribunal, giving up 
on Lebanon's sovereignty, as you all rightly commented. It 
means having a frank discussion with the Syrians about whether 
there is an end state for the region that is compatible with 
our interests and that also meets their minimum needs.
    French President Sarkozy, who was here yesterday, as we 
speak, has sent emissaries to Syria to discuss the issue of 
Lebanon and the Presidential election. I don't think anyone 
here suspects that he is about to betray his commitment to 
Lebanon's sovereignty or to give up on the tribunal. But he 
reached the commonsensical conclusion that Syria plays an 
important role in Lebanon and that it's better to try to engage 
with them than to keep them isolated and being able--and giving 
them every incentive to play a spoiling role.
    Now, I know we know the arguments against that kind of 
engagement, but let me just go through some of the 
opportunities, I think, that exist, and some of which you 
mentioned on all of the issues that we have, opportunities that 
I think are not being seized.
    On the issue of Israel and the groups that Syria harbors, 
President Assad has said, multiple times, that he's prepared to 
have unconditional negotiations with Israel. One could question 
the motivation, one can question the sincerity, and there 
certainly is plenty of reason to do so. But why not test him? 
What do we lose by having President Assad send somebody to 
negotiate with Israel? In fact, even if his intention is simply 
to gain time, the simple fact of having Syrians and Israelis 
sitting at a table together at a time when so many in the 
region are denying Israel's right to exist, don't want to have 
a two-state solution, at a time when all of Syria's main 
allies--Iran, Hezbollah, and Hamas--are against a negotiated 
solution with Israel, that itself will send a powerful message 
to the region and to those groups who would have to read the 
signals on the wall and understand that their days, if this 
negotiation succeeds, are going to be numbered, in terms of the 
activities that they're engaged in right now. So, it would have 
a moderating impact on Hezbollah, on Hamas, on Islamic jihad.
    Now, let's think--turn to Iran. As was mentioned earlier by 
Assistant Secretary Welch, it is an odd couple, but it's a 
couple that really is a function of the regional context. 
There's an opportunity, I believe, today to try not to split 
them off. Syria has 25 years of the only country who really has 
had a close relationship with--it's been Iran, and it's been a 
stable, continuous, trustworthy relationship. But there are 
very, very real tensions and contradictions in that 
relationship, on every issue of importance. On Israel, as I 
just mentioned, Ahmadinejad says that Israel should be wiped 
out--off the face of the Earth. President Assad said, in 
response to that, ``We want to have recognition and 
normalization once we're at peace.''
    On the issue of Iraq, Iran is supporting the Shiite 
government, is supporting the Shiite militias, at the same time 
as we have President Assad in Syria that has close ties with 
the Sunni insurgency. They have different goals for Iraq right 
now.
    On the issue of Lebanon, there also are tensions, because, 
whereas one--Syria's main objective is to get rid of the 
tribunal. That's not Iran's objective. It's to strengthen 
Hezbollah as its instrument in Lebanon.
    So, on all these three, there are tensions that, rather 
than ignore, we should be exploiting.
    We also know that, at this time, the relationship with Iran 
is quite unpopular in Syria, certainly at the mass Sunni level 
at a time of great sectarian polarization in the region, but 
also at the elite level, when they question whether this is the 
kind of relationship they want to be stuck with, this 
monogamous relationship with Iran.
    On Iraq. On Iraq, again, there are so many objective 
reasons why we should be working hand in hand with Syria. Syria 
has changed its policy toward Iraq, not in response to what we 
asked them to do, but because of their own self---the threat 
perception. They used to be afraid of 150,000 American troops 
in Iraq. They no longer truly fear that they're going to turn 
around and go fight them. Their fear is now what's happening in 
Iraq; a break in Iraq could spill over, Kurdish independence 
which could inspire their Kurds, the Sunni jihadists, who you 
mentioned earlier, who may come back in--who are already coming 
into Syria, provoking real security difficulties, the refugees, 
the sectarian polarization in Iraq, which has implications for 
a minority Alawite regime in Syria.
    So, on all these issues, the Syrians have, in fact, taken 
some steps. Over the last several months, since 2006, they've 
recognized the Iraqi Government. They're dealing with it. 
They've made greater effort at the border. I think even General 
Petraeus acknowledged that. They have canceled the meeting of 
the armed opposition in Damascus, even though it had been 
planned. They've arrested some people. They've helped some of 
the tribes that are fighting against al-Qaeda. They're not 
doing this in a coordinated way. They're not doing this in 
conjunction with us. And they're not doing this in a sustained 
manner. But that's what we could get if we spoke to them and we 
dealt with them and tried to listen to their legitimate 
interests, and refused whatever illegitimate interests or means 
they're pursuing.
    The most difficult case, the one--the last one, is Lebanon. 
And I think it's difficult, for the reasons we've explored over 
the last hour. On that one, it appears that Syria's goals and 
the United States goals are clearly antagonistic. Lebanon--
Syria wants to interfere in Lebanese affairs. And Syria wants 
to do away with the tribunal. No doubt in my mind about those 
two things. But is our current strategy of erratic engagement 
with Syria, and threats and sanctions only, is that achieving 
any of our goals, vis-a-vis Lebanon? Is it protecting Lebanon 
from interference? I don't think so. And, again, I think our 
discussion--your discussion over the last hour made that point. 
Is it stabilizing Lebanon? Is it getting us any closer to a 
different kind of relationship between Syria and Lebanon, 
normal relationship between neighbors that have a lot of common 
interests? I don't see that, either. And, in terms of the 
tribunal, are--does anyone think that, at this rate, Syria's 
going to turn over any suspects, or, if the tribunal finds that 
they're guilty, turn over any culprits? Do they--do we think 
that the tribunal, which is both about accountability and about 
deterrence and turning a page in the relationship between 
Lebanon and Syria, does anyone think that, at this point, when 
the tribunal is viewed by Syria as a matter of life or death, 
when they believe that either they surrender to the tribunal, 
in which case they're afraid of the consequences, or they have 
nothing else to look forward to, because nobody's giving them 
any incentives, does anyone believe that Syria's going to act 
constructively, that this is leading to the goals we all share, 
in terms of Lebanon's sovereignty, independence, and pursuit of 
the tribunal?
    Another tack would be to tell the Syrians, and make clear 
by our deeds, ``We're continuing with the tribunal. No; that's 
an independent path, and we're taking it, and we're going to 
support it, but we're not trying to overthrow you or to 
destabilize your regime, and, in fact, we're going to engage 
with you, which will prove to you that we treat you as a 
legitimate interlocutor, we're going to put some assets on the 
table, in terms of possibly resuming negotiations on the 
Golan,'' in terms of talking about what they would have to do 
to lift the sanctions, so that we put Syria in the position; 
No. 1, where it is more confident that we're not trying to 
overthrow them; No. 2, where they see that the tribunal is not 
an instrument of destabilization, but, rather, is an instrument 
of trying to get Syria to turn the page in its relationship 
with Lebanon. We give them something to lose if, in fact, they 
continue to try to undermine the tribunal, which is whatever 
they would have gotten through engagement with us and the rest 
of the world. That would--seems to me, would be a better tack 
to try than what we're doing right now.
    Now, having said all that, I'd conclude with this thought. 
We now have, I believe, a real opportunity with Syria, and it 
is a critical--not ``the,'' but ``a'' critical actor in the 
region. For anyone who travels to Damascus, it's quite clear 
that they are in a very odd and paradoxical situation. They're 
quite confident, because they see that we, the United States, 
are losing, in their view, in Iraq, in Palestine, in Lebanon. 
So, they feel quite confident.
    But, at the same time, they know they're in a very 
uncomfortable box. Some of the things I mentioned earlier, the 
civil strife in Iraq and Lebanon, with very heavy sectarian 
overtones, is hurting them, because they have a majority Sunni 
population, a minority Alawite regime. It's affecting the 
legitimacy of the leadership. You have a young leader who's 
presiding over a very old sclerotic system. He knows that it is 
losing steam. He knows it's losing legitimacy. He needs 
something to regain that legitimacy, and he needs something to 
break out of the box he's in right now.
    The economic problems are very acute. The refugee 
presence--the presence of Iraqi refugees only added to it. But 
you have, as I said, a sclerotic system, which has not been 
able to reform. You have the oil revenues--Syrian oil revenues 
that will come to an end in about 5 years. You have the loss of 
external subsidies, Arab or otherwise. And all that means that 
here you have somebody who's looking for a different lease on 
life.
    And, finally, you have these regional contradictions that I 
mentioned, that, on every single front, if he supports--by 
supporting Hezbollah in Lebanon, he's alienating his Sunni 
base; if he supports the Sunni insurgency in Iraq, he alienates 
Iran; if he reached out to the Shiite-led government in 
Baghdad, it angers his allies in Iraq, and it angers his Sunni 
population.
    It's an uncomfortable box. We should seize the opportunity 
by engaging with them in a frank discussion, being true to our 
principles, but also trying to take into account their 
legitimate needs.
    Thank you.
    [The prepared statement of Mr. Malley follows:]

   Prepared Statement of Robert Malley, Middle East and North Africa 
      Program Director, International Crisis Group, Washington, DC

    Mr. Chairman, first, let me express my deep appreciation for the 
invitation to testify before this subcommittee. The question of how to 
deal with Syria is of high importance to U.S. interests at a time when 
we face a dangerous and virtually unprecedented situation in the Middle 
East. We should no more underestimate the gravity of regional 
circumstances than we should overrate our Nation's current capacity to 
address them alone. Simultaneous and interconnected crises in Iraq, 
Iran, Lebanon, and Palestine, increased sectarian polarization 
throughout the region, the absence of an overarching security framework 
or of robust American diplomacy together with diminished U.S. influence 
and credibility threaten to unleash a far wider and unmanageable 
conflagration.
    Syria is not a central or decisive actor in all of these crises. 
But it undoubtedly can have a significant impact on each. It may do so 
by taking on a spoiling role or a stabilizing one. How Washington deals 
with Damascus will go a long way toward determining which part the 
Syrian regime ultimately chooses to play.
    To be sure, there is no guarantee that a change of course by the 
U.S. administration and a decision to genuinely engage the Syrian 
regime will succeed in altering its behavior. Reasons for skepticism 
abound, related to the nature of the regime, the regional balance of 
power, the depth of mutual distrust, as well as fundamental differences 
on several important matters. But a sober analysis, rooted in the 
International Crisis Group's presence and unique access in Syria, 
suggests there is far more potential than the administration believes 
and a far more promising approach than the one it has adopted.
    Mr. Chairman, at the outset it is important to accurately assess 
Syria's capacity to influence regional events. On the Israeli-
Palestinian front, the process that will be launched at the forthcoming 
Annapolis meeting is fraught with both opportunity and risk. For the 
first time since 2000, the parties have agreed to negotiate permanent 
status issues; there is also greater confidence between the respective 
political leaderships than at any time since the early days of Oslo. 
That said, divisions among Palestinians threaten to undermine any 
progress; while Hamas may be weakened, it remains strong and retains 
the ability to torpedo the process. This could take the shape of 
escalating violence from the West Bank or from Gaza, either of which 
would overwhelm any political achievement, increase the political cost 
of compromises for both sides and negate Israel's willingness or 
capacity to relax security restrictions.
    The notion that Hamas or Islamic Jihad blindly follows Syria's lead 
is simplistic and highly misleading; nonetheless there is little doubt 
that Damascus exercises important influence given how few allies the 
Islamists enjoy. Syria is unlikely to cut its Palestinian allies off, 
let alone expel their exiled leadership, in exchange for renewed 
engagement or a revived peace process. But it can almost certainly 
moderate their behavior; what is more, the Islamists are adept at 
deciphering the regional map and would have to adapt their policies to 
signs of shifting regional and international dynamics.
    Similar dynamics apply to Hezbollah which depends on Syria for arms 
transfers and territorial depth. In the event of renewed Syrian-Israeli 
or Syrian-U.S. talks, Damascus will not wish to jeopardize either and 
therefore is likely to restrain the Shiite movement's activity at the 
southern border. Conversely, and in both instances, Syria could 
encourage its Palestinian or Lebanese allies to intensify or renew 
their attacks against Israel.
    Finally, the fact that Syria did not instigate the Iraqi crisis 
does not mean it is unable to sustain it if it so desired nor that it 
can be resolved without its help. The absence of an effective Iraqi 
central state, coupled with the country's growing fragmentation and the 
increased power of autonomous groups and militias, has enhanced the 
role of outside actors both as potential spoilers and as needed 
partners in any effort to stabilize the country. Given how dire the 
situation has become, it will now take active cooperation by all 
foreign stakeholders--Syria included--to have any chance of redressing 
the situation.
    In this context, Syria would bring important assets to the table. 
Unlike virtually all other involved actors--whether the U.S., Turkey, 
Iran, or other Arab states--Damascus is perceived as being relatively 
neutral by the full range of Iraqi actors; it has old ties with ex-
Baathists and tribes that straddle the Iraqi-Syrian border as well as 
new ones with Sunni insurgent groups; it has significantly deepened its 
relationship with the Maliki government; and it enjoys a good 
relationship with Moqtada al-Sadr. Sadr's office in Damascus faces that 
of a Shiite foe, Grand Ayatollah Sistani, and fiery anti-Iranian 
speeches by Sunni representatives are delivered uncensored even as 
Damascus' ties with Tehran continue to grow. Well positioned to act as 
a mediator, Syria could--if given proper incentives--play a more 
helpful role by enhancing border control; use its extensive 
intelligence on and lines of communication with insurgent groups to 
facilitate negotiations; draw on its wide-ranging tribal networks to 
reach out to Sunni Arabs in the context of such negotiations; and serve 
as an intermediary with Iran.
    Powerful arguments typically are made against renewed engagement. 
These are offered not only by the Bush administration, but also by a 
number of Lebanese as well as (more privately) several of the United 
States closest Arab allies. Because they are serious, and because they 
clearly have resonance in this country, they deserve being addressed in 
turn.
    At its core, the case against engaging Syria at this time is based 
on the conviction that the regime merely is seeking a respite from 
international pressure rather than a genuine change in its regional 
posture. Syria is seen as committed to its old ideological alliance 
with Iran, raising doubts as to whether such a long-term relationship 
can be easily reversed. In this context, the U.S. administration 
considers any overture by President Bashar--and particularly his calls 
for renewed Israeli-Syrian peace negotiations--as disingenuous attempts 
to break out of increased isolation, cover up greater intrusion in 
Lebanese affairs, and shift focus away from the investigation into 
former Prime Minister Hariri's assassination. Engagement with Syria is 
seen as futile or, worse, damaging, an escape hatch for a regime that 
only responds--if at all--to sustained pressure.
    Many also dismiss the argument that Syria would moderate its 
policies if return of the Golan were on the table. As U.S. officials 
put it, Damascus may like to recover the Golan, but its core interests 
lie elsewhere: Resuming its hegemony over Lebanon and scuttling the 
international tribunal. Since Washington is not prepared to concede on 
either, there is little to be gained by discussions. Some go further 
and maintain that occupation of the Golan has become the lifeline of a 
regime that has lost legitimacy; the occupation provides justification 
for maintaining the state of emergency, postponing domestic reforms and 
silencing opposition. The mere initiation of a high-level dialogue 
would send a signal to worried U.S. allies in Lebanon (the March 14 
forces) that a deal was being cooked behind their backs. In like 
manner, engagement would threaten the unprecedented consensus that 
currently exists between the U.S., major European and Arab (Saudi 
Arabia, Egypt, Jordan) countries on the issue of Lebanon and the 
tribunal.
    Finally, U.S. officials question how important a role Syria can 
play in assisting efforts in Iraq: The conflict has become self-
sustaining, and Damascus purportedly enjoys only very limited leverage 
on the parties. Insofar as Iraq's breakdown is of concern to the 
regime, it will do what little it can out of self-interest, not to 
please the U.S.
    As their strongest piece of evidence, administration officials 
state that engagement was tried, tried again, and failed. In successive 
visits, then-Secretary of State Powell and Deputy Secretary of State 
Richard Armitage made clear what was expected of Syria: To halt any 
support for the Iraqi insurgency; cease interfering in Lebanese 
affairs; and stop supporting violent organizations such as Hamas, 
Islamic Jihad and Hezbollah. More recently, a parade of foreign 
(essentially European) visitors to Damascus is said to have produced 
nothing but greater Syrian self-confidence that their strategy was 
working. Anything other than very limited and circumscribed discussions 
with the U.S. (chiefly on the question of Iraq) merely would validate 
the regime's conviction that it can play these cards in order to 
extract valuable concessions.
    Although the arguments have some merit, the conclusion does not 
stand up to scrutiny.
    1. Syria's sincerity about wanting to recover the Golan should be 
tested rather than dismissed out of hand. For some time, President 
Bashar has conveyed a willingness to resume negotiations with Israel. 
In interviews, he offered a vision of the two countries living side by 
side in peace; claimed that negotiations could resume without 
preconditions and that a deal could be reached within 6 months; and 
stated that normalization under the terms of the Arab Peace Initiative 
would result.
    Interpretations of the Syrian President's motivations differ. Some 
see a genuine desire to recover the Golan. Some believe it is an 
attempt to break out of isolation. Others are persuaded he wants to 
distract attention from the investigation into Prime Minister Hariri's 
assassination. Whatever the intent may be--and there is reason to 
believe it is a combination of the three--the signals are worthy of 
note. Indeed, that Bashar may be prompted by multiple reasons and see 
more than one benefit accruing from a reinvigorated peace process makes 
it all the more important to pursue.
    The argument that the occupation serves the regime's interests 
overlooks what it stands to gain by recovering the Golan. While there 
is widespread agreement that President Bashar's position has been 
bolstered as a result of both the 2006 Lebanon war and personnel 
changes he has been initiating over the years, he contemplates an 
uncertain future. The regime faces sectarian polarization in the 
region, a decline in its political legitimacy and, most of all, acute 
economic problems linked to the loss of external subsidies, the 
expected drying up of its oil resources within the next few years and 
the sclerosis of its system. Although in his early forties, he has 
inherited an aging regime for whom cautiousness increasingly is akin to 
inertia. Confronted with the real possibility of regime stagnation and 
gradual decline, President Bashar needs a major achievement of his own 
to revive its legitimacy. Regaining the Golan, with all the attendant 
diplomatic and economic benefits--most notably normalization with the 
West--could be critically important in that respect. Indeed, the 
President has confided to various interlocutors that recovery of the 
Golan--thereby achieving what his father could not--would make him a 
hero in his citizens' eyes.
    Even assuming that Syria is more interested in the process than the 
outcome--a debatable proposition--the mere picture of Syrians 
negotiating with Israelis would have a ripple effect in a region where 
rejection of Israel's right to exist is gaining ground and where 
Syria's allies (Iran, Hezbollah, and Hamas) are on record as opposing a 
negotiated settlement. Moreover, the onset of peace talks would affect 
the behavior of militant groups close to Syria. In other words, 
whatever Bashar's intent, his offer of direct talks with Israel should 
be seized. Even if the U.S. is leery of direct engagement, for it to 
express doubts about the prospect of direct talks between an Arab 
nation and Israel is both unprecedented and short-sighted. The onset of 
the Annapolis process is one more opportunity to jump-start Israeli-
Syrian talks.
    2. Lebanon's sovereignty should not be sacrificed; rather, the 
challenge is to assess whether Syria is prepared to pursue its 
interests differently, consistent with Lebanon's independence. Syria's 
relationship with Lebanon has long been highly problematic. 
Historically and ideologically, it still views its neighbor as part of 
Greater Syria and the notion of ``two countries for one people'' 
continues to resonate widely. Damascus also sees Lebanon exclusively 
through the prism of its national security interests: It perceives 
Hezbollah as a critical asset in its struggle with Israel; the Bekaa 
Valley as its strategic soft belly from where Israel has launched 
attacks; Lebanon as inevitably falling under Israel's influence if it 
escapes its own; and a pro-Western government (such as the current one) 
as a mere American tool designed to destabilize the regime. During the 
1990s, the relationship became one of wholesale domination. Syria 
mastered and manipulated Lebanon's politics, plundered its economic 
resources, and arrested and detained its citizens at will.
    This hegemonic relationship ended after Hariri's assassination, but 
not without exacting a heavy price: Syria was forced to a precipitous 
and humiliating withdrawal; it has endured considerable international 
pressure and isolation; and it has witnessed an alarming deterioration 
in the two nations' relations. Many Syrian officials most closely 
identified with the experience of the 1990s have since been either 
removed or marginalized. All in all, a growing number of Syrians now 
challenge the assumption that the benefits of domination were worth its 
cost. In their eyes, although a handful of officials enriched 
themselves thanks to their corrupt activities, they were promoting 
personal rather than regime or national interests. In fact, their 
actions are now considered to have endangered the country as a whole.
    The question many Syrians now ask is whether their country could 
defend its core interests through legitimate means (for example its 
strong ties to Lebanese allies and Lebanon's dependence on Syria for 
trade example) while forsaking direct political, security, or military 
interference and normalizing ties with its neighbor. It is the question 
serious U.S. engagement with Syria should be designed to elucidate.
    3. The international tribunal should continue unimpeded but in a 
manner that protects rather than threatens Lebanon. The question of the 
international tribunal arguably looms as the most difficult obstacle to 
improved U.S./Syrian relations. The Syrian regime undoubtedly considers 
it a mortal threat and will go to great lengths to eliminate it. That 
outcome is just as plainly unacceptable to the U.S.
    The purpose behind the tribunal should be clear: To offer justice 
and accountability but also, and no less decisively, ensure that Syria 
turns a page in its relationship with Lebanon. Given current U.S./
Syrian relations, the tribunal will do nothing of the sort. Even if 
Syria's implication in Hariri's murder were firmly established, under 
existing circumstances Damascus would refuse to hand over any culprit. 
At best, it would handpick its own suspects--or scapegoats--before 
trying and convicting them for high treason. At that point, Syria would 
face calls for greater sanctions and isolation; some in Lebanon and the 
U.S. would renew pleas for forcible regime change.
    And then what? Such an outcome would not serve any parties' 
interests. A tighter embargo would hurt Lebanon more than Syria, given 
Beirut's economic frailty and dependence on its neighbor for trade and 
commerce. Seeking regime change would leave Lebanon more vulnerable 
than ever, as Syria is far from having fully exploited its 
destabilizing potential. A successful effort to oust the regime would 
represent a mortal threat to a fragile and multiconfessional Lebanon. 
In short, pursuit of the current course of action will not deliver the 
guilty, protect Lebanon, or lead to the kinds of changes in Syria the 
U.S. would like to see.
    The tribunal should continue and might even become a useful tool in 
altering Syria's behavior toward Lebanon, but only by avoiding a head-
on confrontation with Damascus which inevitably would come at Lebanon's 
expense. The key in this respect is to demonstrate that its purpose is 
not to overthrow or destabilize the Syrian regime, but rather to alter 
its Lebanon policy. Empty rhetorical pledges will not do; rather, 
concrete indications that the U.S. harbors no such intent are needed. 
Even as the tribunal proceeds, adopting a policy of careful but serious 
U.S. engagement with Syria, putting the Golan and improved economic 
ties on the table, and cooperating on Iraq-related issues, such as the 
refugee inflow, could achieve three important results.
    First, it would send the message that Washington considers the 
regime a legitimate interlocutor. Second, it would provide the regime 
with significant political and economic resources, allowing it to 
absorb the consequence of a putative guilty verdict--and to turn over 
culprits--without risking delegitimating at home. Third, it would 
heighten the cost to the regime of resisting the tribunal's verdict, 
since Syria would stand to lose whatever benefits derived from 
engagement. Conversely, to make the tribunal a question of life or 
death for regime is the surest way to destroy Lebanon.
    4. Ties to Iran are strong, but are neither tension-free nor 
inalterable. For the past quarter century, Iran has been Syria's most 
loyal, most dependable and, at some points, only ally. Damascus will 
not abandon this relationship for the sake of renewed dialogue with the 
U.S. or as an entry fare for negotiations with Israel.
    That said, Syrian officials are equally clear that different 
relations with the U.S. or a peace agreement with Israel would change 
the regional picture--the country's alliances and policies--and that 
relations with Iran are fraught with tensions. These contradictions run 
deep and are at play in all major regional theatres. Whereas Iran has 
ruled out any dealings with Israel and openly calls for its 
destruction, Syria repeatedly asserts its willingness to negotiate and, 
should a deal be reached, normalize relations. Since the Iraq war, Iran 
has heavily supported Shiite groups and militias; Syria, though it 
recently has strengthened ties with the central government, has 
provided aid to Sunni insurgent groups and former Baathists for whom 
Tehran is the principal foe. Finally, the two countries have divergent 
priorities in Lebanon. Syria, intent on stopping the tribunal at 
virtually any cost, appears willing to destabilize its neighbor even if 
it means greater polarization and, therefore, Hezbollah's further 
identification as a sectarian party. Iran's aspiration to pan-Islamic 
leadership along with its desire to salvage its years-long investment 
in Hezbollah requires avoiding a dangerous domestic, confessionally 
based confrontation.
    Reports of a deepening strategic alliance have led to various 
reports on Syria's so-called Shiitisation. Some are true but 
exaggerated (Iran has engaged in more active proselytizing but it is 
narrowly focused on poorer Syrians and is far less widespread than 
claimed); much is pure fabrication (the Syrian regime has not promoted 
recent Shiite converts to positions of responsibility in the security 
apparatus). Most of the promised Iranian investments have yet to 
materialize and pale in comparison to the billions spent by the gulf. 
Perhaps most importantly, the relationship is largely unpopular among 
average Syrians, prompting outright hostility among Sunnis and relative 
discomfort within the regime. In one indication of how low Iran's 
standing dropped in response to heightened sectarian polarization 
throughout the region, posters of Bashar flanked by Nasrallah and 
Ahmadinejad which were put up after the 2006 Lebanon war have largely 
disappeared.
    The question, for now unanswered, is whether the relationship would 
survive if and when vital interests were to clash, for instance in the 
event of an Israeli-Syrian peace agreement. Far less uncertain is that 
their ties--from the outset a function of the regional context--will 
strengthen in the context of greater regional tension.
    5. There is significant common ground between the U.S. and Syria on 
Iraq, but common action will require a change in bilateral ties. That 
Syria does not wish to rescue the U.S. under existing circumstances is 
self-evident. The Iraq war was conceived from the outset as part of a 
broader effort by the administration to remake the region at Syria's 
(and Iran's) expense. To this day, U.S. strategy is viewed by Damascus 
as inherently hostile, seeking to isolate, impose sanctions, curtail 
its regional role, and prevent resumption of Israeli-Syrian 
negotiations.
    This helps explain, in part, what Syria is not doing, like 
detaining Iraqis the U.S. specifically asks it to detain. The regime is 
convinced any such gesture would be viewed as a sign of weakness and 
would intensify rather than diminish American pressure. That said, 
there already are abundant signs of a shift in Syrian policies. During 
the early stages of the war, Syria overtly backed Iraqi militants as 
buses carrying armed militants were openly charted by the regime. This 
stopped long ago in response to U.S. pressure, only to be replaced by a 
phase of covert support.
    A more profound transformation took place in 2006 as Syria's threat 
perceptions changed. Whereas 150,000 American troops at the border once 
were considered an existential threat, they came to be seen as 
harmless; due to the Iraqi quagmire, their presence in Iraq became an 
insurance policy against regime change rather than a tool to promote 
it. Instead, the regime saw Iraq's collapse as the graver menace.
    The country's breakup and Kurdish independence could destabilize 
Syria; already, in 2005, the experience in Iraq emboldened Syria's 
Kurdish population, leading to sharp confrontations with security 
services. A full scale Iraqi civil war would deepen sectarian tensions 
throughout the region, threatening to undercut the Syrian regime's 
domestic legitimacy, heighten popular dissatisfaction with its 
Hezbollah and Iranian alliance and bring to the fore contradictions 
inherent in Syrian foreign policy--claiming a pan-Arab mantle, yet 
strongly allied with Persian Iran. The extraordinary inflow of Iraqi 
refugees confronts the regime with severe economic and security 
problems, leading the regime to wish for their prompt return. The war 
has bolstered salafi jihadists who cross over from Iraq, a generation 
of more experienced, organized and better armed fighters who engage in 
almost daily (albeit unreported) clashes with Syrian security services. 
More broadly, the war places the regime in an increasingly 
uncomfortable bind: It cannot abandon Sunni insurgents, lest it anger 
its Sunni majority; cannot side against the Shiite-led government, lest 
it alienate Iran; and does not wish to oppose Iraq's Kurds lest it 
inflame its own Kurdish population.
    All this has led to an undeniable policy reappraisal. The regime 
recognized and dealt with the Iraqi Government; tightened border 
surveillance; arrested a number of important insurgency-linked figures; 
postponed a planned conference of the armed opposition; and offered 
support for tribal elements fighting against al-Qaeda in Iraq.
    Such steps remain cautious, improvised and at times erratic; if 
accepted as a genuine partner by the U.S., the regime could do more and 
better. Syrian officials acknowledge Iraq offers the most promising 
arena for improved bilateral relations. But as long as the 
administration's paradigm remains fixated around regime change or 
remodeling the Middle East, Damascus will not be willing to offer 
genuine assistance.
    Of all the administration's arguments, the claim that Syria knows 
precisely what to do to improve relations is the most powerful and most 
disingenuous. Sitting down with Syrian officials and handing them a 
list of demands will not alter their behavior. The belief that mere 
engagement is the ultimate reward the U.S. can offer its foes is the 
flip side of that other costly myth--that isolation is the decisive 
penalty that the U.S. can inflict on them.
    Syria will not cut its links to Hamas or Hezbollah before 
resolution of its conflict with Israel is in sight. It will not 
abruptly sever ties to Iran nor stop interfering in Lebanon's affairs, 
at least as long as it believes the only alternative to a subordinate, 
pro-Syrian government is an assertive, anti-Syrian one. And it will not 
help the U.S. in Iraq under circumstances where it is convinced the 
U.S. is seeking to destabilize it.
    The question, in short, is not whether to engage but how and to 
what end. Another attempt to reopen dialogue devoid of substance risks 
putting off the Syrian regime and convincing it that the context is not 
yet ripe for real negotiations. Conversely, U.S. advocates of 
engagement are likely to be discouraged by Syria's response, which will 
only validate the view that Syria is not serious in its calls for a new 
relationship.
    The alternative is to begin genuine U.S./Syrian discussions 
focusing on interests and potential reciprocal steps. The goal would be 
to define a possible regional end state acceptable to both, which might 
include:

  <bullet> A multilateral effort, including Syria, to bring about a 
        more equitable and inclusive Iraqi compact leading to a united, 
        federal country that respects the rights of all constituents, 
        is nonaligned, devoid of U.S. bases and enjoys normal relations 
        with all its neighbors;
  <bullet> A genuinely sovereign, independent Lebanon whose government 
        is nonaligned, neither dominated by nor hostile to Syria and 
        agreement by Damascus to forsake direct military or political 
        interference, open an embassy, demarcate final borders and 
        provide information on the fate of the many Lebanese 
        disappeared;
  <bullet> Continuation of the Hariri investigation to ascertain 
        responsibility and achieve accountability but with an 
        understanding that the ultimate objective is not to destabilize 
        the current regime but to ensure Syrian hegemony is a thing of 
        the past;
  <bullet> Support for renewed Israeli-Syrian negotiations under U.S. 
        and Quartet auspices;
  <bullet> Syrian pressure on Hamas and Hezbollah to maintain calm, 
        avoid provocations and, in Hamas's case, allow President Abbas 
        to conduct negotiations with Israel, submit any accord to a 
        referendum, and abide by its results.

    Mr. Chairman, engagement with Syria undoubtedly would be a 
difficult endeavor, and should be undertaken with eyes wide open. The 
regime is confident, convinced that the regional tide is turning 
against the U.S. and believes that any hope to oust it has ended.
    But as anyone visiting Damascus these days doubtless will notice, 
the regime's supreme confidence coexists with outright anxiety. 
Sandwiched between civil strife in Iraq and Lebanon, facing increasing 
sectarian polarization throughout the region, losing political 
legitimacy at home and confronted with acute economic problems, the 
regime is eager for renewed domestic popularity and international 
investment.
    It also is facing increasingly complex regional contradictions. By 
supporting Hezbollah in Lebanon at a time of confessional tensions, it 
alienates its own Sunni majority; by providing support to Sunni 
insurgents in Iraq, it places itself on a collision course with Iran; 
by reaching out to the Shiite-led government in Baghdad, it angers some 
of its allies in Iraq as well as segments of its own Sunni population. 
And of course, hovering over it all is the investigation which, should 
it implicate high-level Syrian officials, would put the regime in a 
very difficult spot.
    Syria will not give in to U.S. demands but it just as surely is 
seeking a way out. This creates a real and important opportunity for 
the United States. Yet, hobbled by the view that engagement is a sign 
of weakness and doubting its ability to make pragmatic compromises 
while protecting core principles, it is an opportunity the 
administration has been loathe to seize. Given the perils the U.S. 
faces in the Middle East, there is no conceivable justification not to 
try.

    Senator Kerry. Thank you very much.
    Dr. Lesch.

   STATEMENT OF DR. DAVID W. LESCH, PROFESSOR OF MIDDLE EAST 
          HISTORY, TRINITY UNIVERSITY, SAN ANTONIO, TX

    Dr. Lesch. Thank you, Mr. Chairman, for inviting me here.
    I think my value added here today is not to reiterate a lot 
of what Rob said, but to provide some insight into President 
Bashar al-Assad, with whom I've met on a regular basis since 
early 2004, and met with this past Sunday. In fact, I arrived 
quite late last night from the Middle East, so if I appear 
incoherent, then I hope you'll understand--also to provide some 
insight to the Syrian regime, as well as the perspective from 
Syria.
    I think a positive Syrian role can be transformational, in 
terms of United States interests and regional stability in the 
Middle East, one that could lead to a comprehensive Arab-
Israeli peace, the diminution of Iranian influence, the rapid 
dissipation of rampant anti-Americanism in the region, which, 
as we all know, is fertile ground for terrorist organizations, 
and the exertion of positive Syrian influence on Iraq, where, 
as Rob stated, the threat perception has changed, and where 
their interests coincide much more with United States interests 
now, and where there are markedly different interests with 
Iran, as well. So, there's fertile ground for cooperation, I 
think, in Iraq. Also, the exertion of positive influence in 
Lebanon and the war against global terrorism, in general.
    Syria, in my opinion, is the--is a key to this, because of 
its unique ability in the Arab world to play both sides of the 
fence, so to speak. It has been the traditional beacon of Arab 
nationalism and the vanguard of the anti-Israeli front, yet it 
is also a member, as we all know, of the 1991 Gulf War 
Coalition, and participated seriously in bilateral negotiation 
with Israel throughout the nineties.
    As a result of the post-9/11 United States foreign policy 
shift and circumstances surrounding the war in Iraq, the Bush 
administration essentially said to Syria, ``You have to choose 
which side of the fence you want to be on. And if you want to 
be on our side, you have to give up everything on the other 
side.'' President Bashar essentially said no to this. Syria is 
a relatively weak country, with few strategic arrows in its 
quiver. And Bashar was not about to give up these arrows before 
any negotiations. And it all--it is all about strategic assets 
to Bashar, as it was with his father. As he told me on one 
occasion regarding Iraq, about a year ago, he said, ``It is 
not''--excuse me, Iran--he said, ``It is not about our--not 
about ideology, our close relationship with Iran, it is about 
interests. Whoever is better for Syria's interests will be its 
friend.''
    Now, Bashar is securely in power, and I am 100 percent sure 
of that, and will continue to be so for the foreseeable future, 
in my estimation. It is a shame that our image of him was so 
skewed and unrealistic at the beginning of his tenure in power 
simply because he was a computer nerd/ophthalmologist who liked 
Phil Collins music. There was no way he could meet the 
expectations, given the dilapidated, broken-down country he 
inherited and the regional and international baptism by fire he 
immediately encountered. Therefore, he and some of his 
successes were dismissed much too quickly by many, and 
certainly he feels this way.
    Much of the congressional testimony regarding Bashar 
surrounding the Syrian Accountability Act in 2002-2003, was 
grossly uninformed--ill-informed and unfortunate. He's been 
fighting that image ever since.
    Unfortunately, Bashar doesn't help matters at times, with 
his own less-than-prudent comments, which were made for 
domestic and regional consumption, but fed into the 
construction and confirmation of the negative image of Bashar 
and policy against Syria that was going on at the same time in 
Washington. Bashar didn't adequately adjust to the shifts in 
United States foreign policy, and also, Syria is just pretty 
bad at public diplomacy. Although Bashar has done a better job 
at this than his father, the Syrians still have a long way to 
go.
    Although Bashar has a progressive and modernizing outlook, 
we must remember that he is Hafez al-Assad's son. He spent all 
of 18 months in London with advanced study in ophthalmology, 
and he is a child of the Arab-Israeli conflict and a child of 
the superpower cold war. Therefore, he felt compelled to defend 
traditional Syrian interests. Now, he's no longer the untested, 
inexperienced leader. He has been in power 7 years. And one 
doesn't do that in Syria without having some level of 
capability. And I have seen him grow into the position with 
more confidence and more of a comfort level since I've been 
meeting with him.
    He has been on the upswing, politically, domestically, and 
even regionally, since surviving the intense pressure of the 
Mehlis report in fall 2005, the investigation into the Hariri 
assassination, in part by default because of mounting U.S. 
problems in the region, and also partly due to his own 
maneuvering. I think the makeup of the February 2006 Cabinet 
shuffle, reshuffling in Damascus, was a clear reflection of 
his--of this upswing.
    Now, Bashar has built up a reservoir of popularity, 
domestically and even in the region, for keeping the country 
together, despite the external pressures and also the 
instability in neighboring countries, and for being perceived 
as not having caved in to the United States or, as they say in 
the region, for having refused to give into the American 
project. He has effectively funneled the expected nationalist 
response and need for resistance into support for the regime, 
that has also give the regime something of a pass, 
unfortunately, in terms of quelling signs of internal dissent.
    Now, having said this, Bashar does not have absolute 
authority. It would be wrong to see the Syrian regime, or 
Syrian security, as a tightly knit, well-oiled, hierarchical 
machine, particularly Syrian security. In fact, here I was 
seeing President Bashar, when I landed at the airport in 
Damascus last Friday, I was detained and told I was blacklisted 
from the country because of some other projects in which I am 
involved--rather innocuous cultural tourist projects--security 
in Syria obsessed with control, they had some concerns about 
this project. One hand, the right hand, of security doesn't 
know what the left hand is doing. They don't know that I meet 
regularly with President Bashar. And they were very upset and 
apologetic when they found out.
    Now, Bashar has to reach consensus, negotiate, bargain, and 
manipulate the system. Implementation regarding domestic issues 
is a serious problem in Syria. He is fighting against systemic 
institutional, bureaucratic, and cultural inertia that 
seriously retards any reform progress. There is also an array 
of Faustian bargains erected under his father--i.e., unswerving 
loyalty in return for casting a blind eye toward personal 
enrichment and corruption--that sometimes has the regime 
sincerely and--saying and wanting to do one thing, while 
actions by important groups connected to the regime, or 
actually in the regime, do something quite contrary to this. 
There's really not much Bashar can do about it without 
undercutting his support base, especially in a threatening 
regional environment.
    Bashar has, however, acquired control over foreign policy 
decision, although the decisionmaking process still relies 
too--on too much ad-hocism--what I call ``ad-hocism.'' There's 
no national security council coordinating policy. Instead, 
there seem to be informal committees that focus on various 
foreign policy issues. But Bashar, in my opinion, is the prime 
decisionmaker now. This hasn't always been the case.
    Now, despite this ad-hocism, Syrian officials have a way to 
getting in line with regime policy, mimicking declarations and 
pronouncements, often word by word. As such, I am confident an 
agreement with Syria, Syrian-Israeli Peace Treaty, whatever, 
would be assiduously maintained, as they have been in the past.
    Finally, in my opinion, and echoing a little bit what Rob 
was saying, while many see Syria's ties with Iran, Hezbollah, 
and various Palestinian factions, such as Hamas, as a 
liability, I actually see them as a potential asset in the 
current environment and state of things for the United States. 
If Syria is given a real seat at the diplomatic table, 
certainly with the Golan on the agenda, which it very much 
wants, whether it be at this proposed conference in Annapolis 
or some other setting, it can certainly be utilized as a 
conduit and a positive-influence process. This is definitely 
how Bashar is trying to position Syria. He has touted, and 
rightly so, the crucial Syrian role in orchestrating the Meccan 
agreement, earlier this year, between Fatah and Hamas, in the 
role in mediating with Iran for the release of the British 
sailors captured in the Persian Gulf, and in steering Hezbollah 
toward political compromise in Lebanon, particularly with the 
Barry initiative recently, although Barry has met with 
Hezbollah, but the Shiite response.
    Now, Bashar has repeatedly stated that the Palestinian 
track--he reiterated this on Sunday--can go out in front of the 
Syrian one, which I thought was quite clever. And Bashar and 
Syrian officials have repeated held out an olive branch, as Rob 
mentioned, to Israel, unconditionally calling for the 
resumption of negotiations, albeit with United States 
involvement. In fact, as many have pointed out, including many 
Israelis, it is unprecedented that Israel is refusing to take 
up the unconditional offer of an Arab State with which it is 
not at peace. Indeed, the Israelis are the ones making the 
conditions in line with United States policy.
    Now, again, the ineptitude, sometimes, of Syrian public 
diplomacy makes this an awkward process at times, in terms of 
communicating their positions to the West and certainly to the 
Israeli public.
    Finally, in closing, the United States has a history of 
negotiating with countries with whom it has a clear 
disagreement. It is unfathomable to me, knowing what the 
Syrians want and the role that they can play, why we continue 
to refuse to engage in a sincere dialogue with Damascus. The 
missed opportunities of the 1990s led directly and indirectly, 
the Madrid peace process, to, among other things, the al-Aqsa 
intifada, the war in Iraq, the 2006 Hezbollah-Israel war--in 
fact, Hezbollah probably would have been totally emasculated by 
now if there was a Israeli-Syrian peace treaty, and there 
should have been--a historic missed opportunity in the late 
1990s--and, some might even argue, 9/11, I fear would happen if 
this opportunity is missed.
    Now, if the United States says ``jump,'' Syria will not 
say, ``how high?'' It will be cautious, primarily because of 
the tremendous level of distrust that has built up between 
Washington and Damascus in recent years. But, with hard work 
and serious intent, the relationship can move forward.
    I do want to mention two things in reaction to what 
Assistant Secretary of State Welch said. One of the members of 
the committee asked a question about the meeting between Rice--
Secretary of State Rice and Syrian Foreign Minister Walid 
Moallem that occurred--was it in May?--this past year--or this 
year in Sharm el-Sheikh, regarding the situation in Iraq. The 
Syrians tend to discount Secretary of State Rice, rightly or 
wrongly. They consistently tell me, both Bashar, as well as 
Syrian Foreign Ministry, that, after that particular meeting, 
Arab officials, probably Foreign Ministers, informed the 
Syrians that Vice President Dick Cheney's office, or him, 
himself, had called these Foreign Ministers, saying to dismiss 
everything that Rice had said, because she does not speak for 
the administration. I have no idea whether this is true or not. 
The Syrians seem to believe it is true, and they're acting 
accordingly, in terms of discounting the initiatives of 
Secretary Rice.
    Also, on one last thing, on the Lebanese assassinations, 
Syria certainly is a suspect, and I agree with Syria being a 
suspect. But, inter- and intrasectional rivalries are so 
antagonistic in Lebanon that it is difficult to pinpoint who is 
doing what. In the Middle East there's a tendency to have 
conspiracy theories about the CIA. There are CIA conspiracy 
theories galore, which, of course, is ludicrous. And we need to 
make sure that we don't do the same thing and ascribe similar 
capabilities to Syrian security. They do some things well, but 
overall, it's a pretty inept group.
    Thank you for your time.
    [The prepared statement of Mr. Lesch follows:]

  Prepared Statement of Dr. David W. Lesch, Professor of Middle East 
              History, Trinity University, San Antonio, TX

    Mr. Chairman, members of the committee, I have long and ardently 
believed that the inability to consummate a Syrian-Israeli peace treaty 
during the 1990s Madrid peace process was a failure of historic 
proportions. An agreement would have been transformational in a number 
of ways.
    Although the repercussions today of an agreement would, perhaps, be 
less dramatic in an immediate sense, one predicated upon the 
reestablishment of a high-level U.S.-Syrian dialogue would nonetheless 
still be transformational in terms of U.S. interests and regional 
stability. It would lead toward: (1) A comprehensive Arab-Israeli 
peace; (2) the diminution of Iranian influence; (3) the rapid 
dissipation of the rampant anti-Americanism in the region which, as we 
all know, is fertile ground for terrorist organizations; and (4) the 
exertion of positive Syrian influence in Iraq, Lebanon, and the war 
against global terrorism.
    Syria, in my opinion, is the key to this because of its unique 
ability in the Arab world to play both sides of the fence: It has been 
the traditional beacon of Arab nationalism and the vanguard of the 
anti-Israeli front, yet it was also a member of the 1991 gulf war 
coalition and participated seriously in direct bilateral talks with 
Israel throughout the 1990s.
    As a result of the post-9/11 U.S. foreign policy shift and 
circumstances surrounding the war in Iraq, the Bush administration 
essentially told Syria to choose which side of the fence it wanted to 
be on, and if it was on our side, it had to first give up all of those 
things on the other side.
    President Bashar said, ``No,'' to this. Syria is a relatively weak 
country with few strategic arrows in its quiver, and Bashar was not 
about to give these up prior to negotiations--and it is all about 
strategic assets with Bashar, as it was with his father. As he told me 
on one occasion regarding Iran: ``It is not about ideology, it is about 
interests; whoever is better for Syria's interests will be its 
friend.''
    Bashar is securely in power, and will continue to be so for the 
foreseeable future in my estimation. It is a shame that our image of 
him was so skewed and unrealistic at the beginning of his tenure in 
power simply because he was a computer-nerd/ophthalmologist who liked 
Phil Collins music. There was no way he could meet these expectations 
given the dilapidated, broken-down country he inherited and the 
regional and international baptism by fire he immediately encountered; 
therefore he--and some of his successes--were dismissed too quickly by 
many. Much of the congressional testimony regarding Bashar surrounding 
the Syrian Accountability Act in 2002-2003 was grossly ill-informed and 
unfortunate, and he has been fighting that image ever since. 
Unfortunately, Bashar did not help matters at times with his own less-
than-prudent comments, which were made for domestic and regional 
consumption but fed into the construction and confirmation of the 
negative image of Bashar and policy against Syria going on at the same 
time in Washington. Bashar did not adequately adjust to the shifts in 
U.S. foreign policy. Syria is also horrible at public diplomacy. 
Although Bashar has done a better job at this than his father, the 
Syrians still have a long way to go.
    Although he does have a progressive and modernizing outlook, we 
must remember that he is Hafiz al-Assad's son, spent all of 18 months 
in London, and is a child of the Arab-Israeli conflict and superpower 
cold war. He felt compelled to defend traditional Syrian interests. He 
is no longer the untested, inexperienced leader. He has been in power 7 
years, and one does not do that in a place like Syria without being 
capable. And I have seen him grow into the position with more 
confidence and more of a comfort level since I began meeting him on a 
regular basis since early 2004--and, of course, I just met with him 
this past Sunday (November 4, 2007).
    He has been on the upswing since surviving the intense pressure 
produced by the Mehlis report in fall 2005, in part by default because 
of mounting U.S. problems in the region and partly due to his own 
maneuvering. The makeup of the February 2006 Cabinet reshuffling was a 
clear reflection of this.
    Bashar has built up a reservoir of popularity domestically--and 
even in the region--for keeping the country together despite the 
external pressures and instability in neighboring countries--and for 
being perceived as not having caved in to the U.S., or as they say in 
the region, for having refused the American project. He has effectively 
funneled the expected nationalistic response and need for resistance 
into support for the regime that has also given the regime something of 
a pass in terms of quelling signs of internal dissent.
    Now, having said this, Bashar does not have absolute authority. It 
would be wrong to see the Syrian regime (or Syrian security) as a 
tightly knit, well-oiled, hierarchical machine. Bashar has to reach 
consensus, negotiate, bargain, and manipulate the system. 
Implementation regarding domestic issues is a serious problem in Syria. 
He is fighting against systemic institutional, bureaucratic, and 
cultural inertia that seriously retards any reform process.
    There is also an array of Faustian bargains erected under his 
father, i.e., unswerving loyalty in return for casting a blind eye 
toward personal enrichment and corruption, that sometimes has the 
regime sincerely saying and wanting one thing while actions by 
important groups connected to or even in the regime do something 
contrary to this, and there is not much Bashar can do without 
undercutting his support base, especially in a threatening regional 
environment.
    Bashar has, however, acquired control over important foreign policy 
decisions although the decisionmaking process still relies on too much 
ad-hocism. There is no national security council coordinating policy; 
instead, there seem to be informal committees that focus on various 
foreign policy issues, but Bashar, in my opinion, is the prime 
decisionmaker. Despite this ad-hocism, Syrian officials have a way of 
getting in line with regime policy, mimicking declarations and 
pronouncements often word for word. As such, I am confident an 
agreement with Syria would be assiduously maintained.
    Finally, in my opinion, while many see Syria's ties with Iran, 
Hezbollah, and various Palestinian factions such as Hamas as a 
liability, I see them as a potential asset for the U.S. If Syria is 
given a real seat at the diplomatic table--which it very much wants--
whether it be at the proposed Middle East peace conference or in some 
other setting, it could certainly be utilized as a conduit in a 
positive influence process. This is definitely how Bashar is trying to 
position Syria: He has touted, and rightly so, the crucial Syrian role 
in orchestrating the Meccan agreement earlier this year; in mediating 
with Iran for the release of the British sailors captured in the 
Persian Gulf; and in steering Hezbollah toward political compromise in 
Lebanon.
    Bashar has repeatedly stated that the Palestinian track can go out 
in front of the Syria one, which, I thought, was clever, and Bashar and 
Syrian officials have repeatedly held out an olive branch to Israel, 
unconditionally calling for a resumption of negotiations--albeit with 
U.S. involvement. The ineptitude of Syrian public diplomacy makes this 
an awkward process at times.
    The United States has a history of negotiating with countries with 
whom it has clear disagreement. It is unfathomable to me, knowing what 
the Syrians want and the role they can play, why we continue to refuse 
to engage in a sincere dialogue with Damascus. The missed opportunity 
of the 1990s led directly and indirectly to, among other things, the 
al-Aqsa intifada, the war in Iraq, the 2006 Hezbollah-Israel war (in 
fact, Hezbollah probably would have been totally emasculated by now if 
there was a peace treaty), and some would even argue 9/11. I fear what 
might happen if this opportunity is missed.

    Senator Coleman. Thank you.
    Mr. El-Hokayem.

STATEMENT OF EMILE EL-HOKAYEM, RESEARCH FELLOW, SOUTHWEST ASIA/
   GULF PROGRAM, THE HENRY L. STIMSON CENTER, WASHINGTON, DC

    Mr. El-Hokayem. Thank you. Emile El-Hokayem, research 
fellow, Henry L. Stimson Center.
    First, thanks for this honor and opportunity to testify on 
Syria today.
    The challenge posed by Syria to regional stability in the 
Middle East is very complex and multifaceted. Until a few years 
ago, Syria was a partner of the United States in the search for 
peace. Now it is entangled in all the conflicts in the region.
    Syria is certainly not the ultimate threat to either the 
region or United States interests, nor does to pose the kind of 
ideological, political, strategic challenge that Iran does. 
However, it has proven intransigent and belligerent on a number 
of key issues for the international community.
    For the sake of time and because a lot has been covered 
earlier, I will focus on the Lebanon-Syria relationship.
    Nowhere has Syrian reach been as visible and problematic as 
in Lebanon. Syrian heavy-handedness and mismanagement of 
Lebanese politics has created very deep resentment against 
Syria and Lebanon, which cuts across sectarian lines. Lebanon's 
transition from Syrian rule to full independence, sovereignty, 
and stability has been very strenuous for Lebanese society and 
Lebanese politics.
    The upcoming Lebanese Presidential elections will be a 
momentous test for the future of Syrian-Lebanese relations. 
These elections could open a new face, not only in bilateral 
relations between those two countries, but also between Syria 
and the rest of the world. But the prospects for such a 
positive outcome are very dim, because Syria perceives these 
elections as an opportunity to defeat its Lebanese and foreign 
foes, and Syria fears that a victory of these foes will further 
weaken its hand next door.
    Critics of the current policy argue that it hasn't worked; 
that United States interests with regard to Syria go beyond 
Lebanon, and that sidelining Syria invites more interference 
and destabilization. The problem with this argument are 
manyfold. First, the United States and Europe engaged Syria for 
very many years, with no reciprocation from Damascus on any of 
the issues raised. Notably, during the 1990s, it's very 
difficult to pinpoint at--what Syria has given Lebanon during, 
you know, the height of the peace process. Syria was also 
allowed to set Lebanon's security and domestic politics for 15 
years, ultimately overplaying its hand. Syria was also given 
many opportunities to shape more favorable outcomes for itself, 
but chose, instead, to provoke an escalation. It's not a lack 
of engagement, but Syria's maximalist and unresponsive posture, 
that has precipitated the current crisis.
    Critics must also acknowledge that United States policy 
toward Syria is not unilateral or even controversial with 
America's allies. It is a mainstream, multilateral policy 
endorsed by the European Union and key Arab States and 
formalized through U.N. Security Council resolutions.
    In those circumstances, what to obtain from Syria in return 
for unconditional engagement is very unclear. It will take a 
long and arduous process of dialogue to start seeing the 
benefits of the strategy, if any.
    A main concern is that all the progress made on the 
Lebanese front since 2005 could be reversed in the meantime. 
This will not happen unless a dual process of United States 
engagement of Syria and of Israeli-Syrian peace talks becomes 
more important to Washington and Tel Aviv than to Damascus. 
Then, even modest Syrian cooperation on Iraq and Israel could 
become reason enough not to challenge Syrian behavior in 
Lebanon.
    While there is no doubt that Syria is legitimately adamant 
in its desire to recover the Golan Heights, it is my judgment 
that it also wants a dominant say in all matters Lebanese, 
which amounts to very serious breaches of Lebanese sovereignty 
and a de facto rights over Lebanese affairs.
    So long as Syria refused to normalize relations with 
Lebanon by delineating the borders, exchanging embassies, and 
ending its interference in Lebanese affairs, it will be very 
difficult to overcome Lebanese fears and suspicions over 
Syria's real intentions or the substance of a bilateral United 
States-Syrian dialogue.
    The continued importance of Lebanon to Syria has many 
dimensions. But, let me be clear, much of the daily interaction 
between the two countries is legitimate, the product of strong 
and old societal ties, and that both countries are bound to 
have privileged relations in the future. But Syria's current 
approach to Lebanon is dictated by regime interest in Damascus 
rather than a healthy long-term vision of the relationship. 
Lebanon needs not be a threat to Syria's stability, but this is 
Damascus's call.
    Bashar al-Assad, the Syrian President, repeats to his 
foreign visitors that Syria is not a charity. Should Syria--or 
should the--should Syria cooperate with the United States, he 
expects full United States engagement. But this route could 
lead to sacrificing a number of important processes. The 
international tribunal and the Hariri assassination--
investigation could halt. U.N. Security Council Resolution 
1701, which ended last year's war, could be transformed into a 
conflict-management mechanism in which Syria would have a major 
say, going back to the situation of 1996, where Syria became a 
recognized actor in managing escalation between Lebanon, 
Hezbollah, and Israel. And it also could jeopardize the U.N.-
led process to normalize relations between the two countries.
    In examining whether the United States should engage Syria, 
the Senate should consider why Syria has failed to cooperate 
with every attempt to obtain Syria--Syrian cooperation on 
Lebanon. And some countries have offered very attractive 
incentives to Syria. One only needs to look at the delighted 
reaction of the Syrian leadership following the visits of 
American congressional delegations and European Foreign 
Ministers over the last years, and invitations to participate 
in Arab League meetings, and the utter lack of Syrian 
responsiveness afterward.
    Syria continues to await renewed international recognition, 
or at least acquiescence to a central role in Lebanese affairs. 
Syria calculates that, in due time, international fatigue with 
the Lebanese political crisis, new leaderships in the United 
States and Europe, necessity over Iraq, the capacity of its 
Lebanese allies to sustain pressure on the Siniora government, 
and sheer steadfastness will reward its obstinacy. In the short 
term, this means that the power vacuum and even instability in 
Lebanon are seen as more harmful to the governing coalition and 
its foreign allies than to Syria and its allies in Lebanon.
    This is why unconditionally reengaging Syria is tantamount 
to subordinating the sovereignty and future of Lebanon to the 
fortunes of the peace process, Syria's cooperation on Iraq, or 
the fluctuation in the Persian Gulf. And this, after more than 
a million people turned out in the streets of Beirut to 
peacefully demand the end of Syrian hegemony in Lebanon.
    Let me end by saying that keeping Syria in the cold is not 
a long-term solution to Lebanon's or the region's problem, nor 
is a threat of further coercion. If Syria still considers peace 
with Israel and normalization with the West as strategic 
choices because of the very tangible political and economic 
benefits that would then flow, then it could demonstrate its 
seriousness by putting an end to its destructive role in 
Lebanon.
    There is a path ahead that involves restarting the peace 
process between Syria and Israel, and it will require United 
States diplomatic leadership after the Annapolis conference. 
Simultaneously with a United States-Israel initiative to 
restart peace negotiations with Israel, Syria should commit to 
the Quartet and the United Nations to demarcate its borders 
with Lebanon, exchange Embassies, and abide by U.N. Security--
resolutions regarding Lebanon. In exchange, the Quartet would 
endorse a resumption of peace talks, the United States would 
agree to suspend sanctions and send back its Ambassador to 
Damascus, and the European Union would commit to press ahead 
with economic and trade discussions.
    Syria's refusal of such a deal would be only construed as a 
desire to continue using Lebanon as a negotiating card and an 
asset. More worryingly, Syrian obstruction could simply reflect 
a continued desire for hegemony in Lebanon, validating the 
worst fears of a very deeply insecure Lebanese population. This 
is why dissociating Syria's foreign affairs from its obligation 
toward Lebanon is a very serious mistake. It's ironical, but 
only fair, for Lebanon to constrain Syria's policy options 
after Syria did so for so long.
    Thank you.
    [The prepared statement of Mr. El-Hokayem follows:]

  Prepared Statement of Emile El-Hokayem, Research Fellow, Southwest 
     Asia/Gulf Program, The Henry L. Stimson Center, Washington, DC

    First, let me express my appreciation for the opportunity to 
testify today on the pressing matter of Syria.
                  1. overview of the syrian challenge
    The challenge posed by Syria to regional stability in the Middle 
East is complex and multifaceted. Until a few years ago Syria was a 
partner of the United States in the search for peace. Now, thanks to 
its policy choices, alliances, geographic location and spoiler 
capacity, Syria is enmeshed in all the current and potential conflicts 
in the Middle East: Lebanon, Israel-Palestine, Iraq, and Iran. Syria is 
not the ultimate threat to either the region or U.S. interests, nor 
does it pose the kind of ideological, strategic, and political 
challenge that Iran does. But it has proven intransigent and 
belligerent on a number of issues of great importance to the 
international community.
    Nowhere has Syrian influence been as visible and disruptive as in 
Lebanon. After occupying (and stabilizing) Lebanon for 15 years with an 
international cover, Syrian heavy-handedness and mismanagement of 
Lebanese politics has created deep resentment against Syria which cuts 
across sectarian lines. Lebanon's transition from Syrian domination to 
full independence, sovereignty, and stability has been strenuous for 
its society and politics. Since 2005, Lebanon has experienced political 
paralysis, economic regression, a devastating war with Israel, various 
grave security incidents, including a campaign of political 
assassination and intimidation and a 3.5 month-long miniwar against 
Sunni jihadists. Syria's contribution to this instability is difficult 
to overstate, even if it is often murky.
    The upcoming Lebanese Presidential elections will be a momentous 
test for the future of Syrian-Lebanese relations. Depending on Syrian 
behavior (i.e., whether Syria will recognize a President acceptable to 
all Lebanese factions who also upholds Lebanon's responsibilities 
toward the international community and protects its full sovereignty or 
even a President who enjoys the support of a majority of 
parliamentarians), these elections could open a new phase not only in 
bilateral relations between Syria and Lebanon but also between Syria 
and the rest of the world. But the prospects for such a positive 
outcome are dim, partly because of Syria, which perceives these 
elections as an opportunity to defeat its Lebanese and foreign 
opponents with the support of its Lebanese allies and which fears that 
a victory of its foes will further weaken its hand.
    2. assessing u.s. policy toward syria and syria's regional role
    Critics of the current policy of isolation argue that it hasn't 
worked, that U.S. interests with regards to Syria go beyond Lebanon and 
that sidelining Syria invites more interference and destabilization on 
Syria's part. The problems with this argument are manifold: High-level 
delegations from the U.S. and Europe engaged Syria for many years, 
without reciprocation from Damascus on any of the issues raised; Syria 
was allowed to set Lebanon's foreign and domestic policies for 15 
years, ultimately overplaying its hand; Syria was given many 
opportunities to shape more favorable outcomes for itself, but, feeling 
besieged, chose instead to provoke an escalation in Lebanon that 
eventually backfired. It is not a lack of engagement but Syria's 
maximalist and unresponsive posture that has precipitated the current 
crisis, driving the U.S. administration and other countries to even 
consider, then wisely reject regime change as an option.
    Critics must also acknowledge that U.S. policy toward Syria is not 
unilateral or even controversial with America's allies. It is a 
mainstream, multilateral policy endorsed by the European Union and key 
Arab states, and formalized through U.N. Security Council resolutions.
    Critics, however, are right to stress that U.S. interests regarding 
Syria are not limited to Lebanon. Iraq is the most prominent issue to 
come to mind. If the United States decides to stabilize Iraq through 
serious regional cooperation, it will need the help of all of Iraq's 
neighbors, including Syria. But if one were to gather all of Iraq's 
neighbors around a table, it would be Syria that would have the least 
to offer in terms of positive incentives. Indeed, Syria's supposedly 
good relations with Iraqi factions don't translate into constructive 
leverage. In terms of tribal, political, or financial power, Syria is 
not part of the major league. Although it does not have the capacity to 
deliver what the U.S. needs most in Iraq, it does and will maintain the 
capacity to derail any domestic or regional consensus it deems contrary 
to its interests. Syria's hosting of 1.5 million Iraqi refugees must be 
commended and that burden acknowledged and shared, but Syria should not 
be allowed to leverage this crisis to promote more mischief in Iraq. 
Indeed, there is increasing evidence that Syria is attempting to 
organize proxies in Iraq, essentially former regime elements who found 
a base in Syria since 2003. The Iraqi Government's repeated pleas for 
the extradition of many of these figures have been rejected. But given 
the fragmented nature of the Iraqi insurgency and its autonomous 
political calculations, Syria has been less successful than it hoped in 
determining the political agenda of any of the Iraqi factions and will 
find it difficult to position itself as a key power broker.
    The other set of interests pertains to the perennial Syrian support 
and hosting of rejectionist Palestinian factions. Little was obtained 
from Damascus at the height of the peace process in the 1990s, so it is 
difficult to imagine a dramatic reversal when Syria is under so much 
pressure. Palestinian politics and progress in the peace process will 
be the determining factors, not unlikely Syrian cooperation.
    Finally, there is Iran, whose alliance with Syria (and Hezbollah) 
makes it a key player in Levantine politics. The declared hope of many, 
including Israeli officials, is to drive a wedge between the two 
countries by restarting the peace process. But the nature and strength 
of the Syrian-Iranian alliance prevent such a scenario from unfolding. 
In fact, Syria is not likely to give up an alliance that brings 
everyone to its doorstep.
    In these circumstances, what to obtain from Syria in return for 
unconditional engagement is unclear. It will take a long and arduous 
process of dialogue to start seeing the benefits, if any, of such a 
strategy. A main concern is that all the progress made on the Lebanese 
front since 2005 could be reversed in the meantime. This will not 
happen unless a dual process of U.S. engagement of Syria and of Israel-
Syria peace talks becomes more important to Washington and Tel Aviv 
than to Damascus. Even modest Syrian cooperation on Iraq and Israel 
could then become reason enough not to challenge Syrian behavior in 
Lebanon.
                3. syrian calculations regarding lebanon
    Is Syria's interest in Lebanon uniquely motivated by the desire to 
recover the Israeli-occupied Golan Heights? Or is there a more complex 
calculation driving Syria's attempts to reassert its role in Lebanon? 
While there is no doubt that Syria is legitimately adamant in its 
desire to recover the Golan, it is my judgment that it also wants a 
dominant say in all matters Lebanese, which amounts to serious breaches 
to Lebanon's sovereignty and a de facto veto right on Lebanese affairs. 
So long as Syria refuses to normalize relations with Lebanon by 
delineating the border, exchanging embassies and ending its 
interference in Lebanese affairs, it will be difficult to overcome 
Lebanese fears and suspicions over Syria's real intentions and the 
substance of a bilateral U.S.-Syrian dialogue. There is still a vivid 
memory in Lebanon of U.S. acquiescence to Syrian rule that resulted 
from Syria's support of the United States against Saddam Hussein in 
1990.
    The continued importance of Lebanon to Syria has many dimensions. 
Let's be clear that much of the daily interaction between Syria and 
Lebanon is legitimate, the product of strong and old societal ties, and 
that both countries are bound to have privileged relations in the 
future. But Syria's current approach to Lebanon is dictated by regime 
interests in Damascus rather than a healthy long-term vision of the 
relationship. Lebanon needs not be a threat to Syria's stability, but 
this is Damascus' call.
    Syria sees Lebanon as a convenient battlefield for its conflict 
with a number of foes, including the United States, France, Israel, and 
Saudi Arabia. Lebanon is also seen as a source of threat to Syria's 
regime because it is no longer in Syria's orbit, now has an autonomous 
foreign policy, is solidifying relations with Syria's foes, allows the 
airing of anti-Syrian views, and has allowed the international 
community to pose, through the international tribunal looking into the 
Hariri assassination, a possibly existential threat to the regime. In 
Lebanon, Syria sees a lost source of economic benefits, critical 
strategic depth that needs to be regained and secured at all costs, and 
an important negotiating asset.
    Bashar al-Assad repeats to his foreign visitors that Syria is not a 
charity--should Syria cooperate with the U.S., he expects full U.S. 
engagement. But this route could lead to sacrificing a number of 
important processes: The international tribunal and the Hariri 
investigation could halt, U.N. resolution 1701 could be transformed 
into a conflict management mechanism in which Syria will have a major 
say, and the U.N.-led process to normalize relations between the two 
countries would likely fail, among other casualties of engagement.
    In examining whether the U.S. should engage Syria, the Senate 
should consider why Syria has failed to cooperate with every attempt to 
obtain Syrian cooperation on Lebanon--some of which have offered 
attractive incentives. Saudi Arabia and other Arab states offered Syria 
reintegration into the Arab fold and much-needed investments; France 
has promised ``spectacular returns'' in exchange for a hands-off 
approach to Lebanon; the European Union has offered economic assistance 
and cooperation; and countless European officials have promised to 
support relaunching the peace process with Israel. Damascus has 
rebuffed all offers because it is still hoping for a complete reversal 
of fortunes in Lebanon. One needs only to look at the delighted 
reaction of the Syrian leadership following the visits of American 
congressional delegations and European foreign ministers over the last 
year, or invitations to participate in Arab League meetings, and the 
utter lack of Syrian responsiveness afterward.
    Syria continues to await renewed international recognition of or at 
least acquiescence to its central role in Lebanese affairs. Syria 
calculates that in due time, international fatigue with the Lebanese 
crisis, new leaderships in the U.S. and Europe, necessity over Iraq, 
the capacity of its allies to sustain pressure on the Lebanese 
Government and sheer steadfastness will reward its obstinacy. In the 
short term, it means that a power vacuum and even instability in 
Lebanon are seen as more harmful to the governing coalition and its 
foreign allies than to Syria and its allies in Lebanon.
    The logic of unconditional reengagement carries other risks and 
costs that its proponents dismiss too easily. U.S. engagement without 
Syrian concessions on Lebanon will hurt further U.S. credibility in the 
region, jeopardize multilateral processes, alienate Arab allies worried 
about Syria's alignment with Iran, and comfort Syria's image as a tough 
resister that can force the United States to come to terms on Syrian 
terms.
    Unconditionally reengaging Syria is tantamount to subordinating the 
sovereignty and future of Lebanon to the fortunes of the peace process, 
Syria's cooperation on Iraq, or the fluctuations in the Persian Gulf, 
and this is after more than a million people turned out in the center 
of Beirut on March 14, 2005, to peacefully demand and obtain the end of 
Syria's hegemony over Lebanon.
                            4. a way forward
    Keeping Syria in the cold is not a long-term solution to Lebanon's 
or the region's problems, nor is the threat of further coercion. If 
Syria still considers peace with Israel and normalization with the West 
strategic choices because of the tangible political and economic 
benefits that would then flow, then it could demonstrate its 
seriousness by putting an end to its disruptive role in Lebanon.
    There is a path ahead that involves restarting the peace process 
between Syria and Israel, and it will require U.S. diplomatic 
leadership after the Annapolis conference. Simultaneously with a U.S.-
Israeli initiative to restart peace negotiations with Israel, Syria 
should commit to the Quartet to demarcate its border with Lebanon, 
exchange embassies, and abide by U.N. resolutions 1559 and 1701. In 
exchange, the Quartet would endorse the resumption of peace talks, the 
United States would agree to suspend sanctions under the Syria 
Accountability Act and send back its Ambassador to Damascus, and the 
European Union would commit to press ahead with economic and trade 
discussions. Syria's refusal to do so would only be construed as a 
desire to continue using Lebanon as a negotiating card with Israel, 
even as Syria today can no longer guarantee the disarmament of 
Hezbollah as it could in the 1990s. More worryingly, Syrian obstruction 
could simply reflect a continued desire for hegemony in Lebanon, 
validating the worst fears of a deeply insecure Lebanese population. 
This is why dissociating Syria's foreign affairs from its obligations 
toward Lebanon is a serious mistake. It is ironical but only fair for 
Lebanon to constrain Syria's policy options after Syria did so for so 
long.

    Senator Kerry. Thank you very much, Mr. El-Hokayem. I think 
your testimony is important. It helps us really, kind of, draw 
the lines here and engage. So, I appreciate it.
    The one distinction that I would draw, if I may, is that I 
wouldn't measure a congressional visit and, sort of, suggest, 
``Gee, because the people went there, and it, you know, didn't 
elicit anything''--I was one of those people who went there, 
and I had no anticipation that it, per se, would elicit 
something, because we can't negotiate, and we have nothing to 
offer; we're there to learn and, sort of, glean what 
opportunities may be. But there's no way that an administration 
in another country, with a administration here that they view 
as--in any of number of different lights, potentially even as 
wanting the regime change, until they get assurances, is going 
to give anything. So, I have no surprise there. I mean, that's 
not a measurement to me. But it is interesting for you to 
suggest, as you have, that their intransigence and behavior is 
sort of a per se negation of some of the other suggestions that 
have been made here. And what I want to do is get both Dr. 
Lesch and Mr. Malley to, sort of, respond to that, see if we 
can get you all engaged a little bit. I think it'll be helpful.
    So, listening to what you've just heard, Dr. Lesch--you've 
just come back, and you're--you've been a student of this, of 
both the individual side, Bashar Assad, as well as the 
governance, what is your reaction as you listen to this sort of 
hard, very restrictive approach that you've heard, which is 
essentially the status quo and, sort of, where we are?
    Dr. Lesch. Well, Mr. Chairman, I am distressed by it. As I 
mentioned in my testimony, Syria presents, I believe, under 
current conditions, a great deal of opportunity. Bashar al-
Assad wants good relations with the United States. He has been 
consistent with that ever since he came to power. He has 
expressed anger, frustration, at times, with me regarding U.S. 
policy, and----
    Senator Kerry. Does he want them with a preparedness to 
give up what he views as a long, historical, and cultural right 
with respect to Lebanon?
    Dr. Lesch. He's not going to give that up. Syrians are not 
going to give that up. Lebanon is important to Syria----
    Senator Kerry. So, then how do you have a good relationship 
with the United States if you're not willing to respect 
sovereignty and democracy in Lebanon?
    Dr. Lesch. He has said he--he has said to me, this past 
Sunday, they're willing to establish diplomatic relations with 
Lebanon; meaning, draw borders, exchange embassies, recognize 
borders, et cetera. In fact, he had agreed to a Saudi-Egyptian 
initiative, it's my understanding, a year or year and a half, 2 
years ago, where such things would occur in exchange for some 
role for Syria, in terms of a say in national security in 
Lebanon--Lebanese foreign policy for a period of time.
    Senator Kerry. Now, is that a statement that's made with an 
assumption that, if things continue as they are, he'll be 
dealing with a government that he has essentially planted in 
place and can count on to be subservient to him?
    Dr. Lesch. He wasn't that specific, and he's not going to 
be that specific.
    Senator Kerry. Well, I mean, I'm trying to--you know----
    Dr. Lesch. Yes.
    Senator Kerry [continuing]. Let's read through the----
    Dr. Lesch. Yes. I mean, one of the things--the Syrians see 
Lebanon strategically, as well as economically. You know, they 
see--they saw the Israeli invasion in 1982 as an attempt to 
outflank Syria. And it was. And they saw American attempts 
afterward as a way to do what the--through diplomacy, what the 
Israelis couldn't do militarily. The current situation--they 
see the current situation in similar terms, where they see the 
United States trying to do, through diplomacy, what the 
Israelis couldn't do militarily, in terms of the Israeli-
Hezbollah war. So, they're fearful of Lebanon becoming a source 
of instability inside Syria, a source of subversion. They don't 
want it to be, you know, a host country for what they view as 
this American project for transforming the Middle East, which 
would transform the regime in Syria. Again, that's the way they 
see it.
    Senator Kerry. But doesn't that make them, therefore, an 
inalterable enemy of democracy? I mean, opposed to the capacity 
for Lebanon to actually be a full-fledged----
    Dr. Lesch. No----
    Senator Kerry [continuing]. Sovereign democracy.
    Dr. Lesch [continuing]. I don't think you can look at it 
that--in that Manichean fashion. I think there is room for 
compromise. I mean, Syria obviously would like a regime in 
power that's not against Syria. I think they are resigned to 
the fact that their relationship, as it existed in the past, is 
not going to be there anymore--when the troops were there. They 
have said, across the line from Bashar on down, ``We are never 
sending troops back into Lebanon. That is a thing of the 
past.'' But, obviously, being such an important neighbor when 
there's such economic interdependence, they would want a 
positive relationship and a regime in power that is not bent, 
from their point of view, on----
    Senator Kerry. So, how do you and Mr. Malley define 
``engagement'' in a way that doesn't, in effect, fall into this 
trap of rewarding and giving something for nothing, and so 
forth, as defined? Both of you. Why don't you go ahead, Mr. 
Malley.
    Mr. Malley. Let me make three points on that.
    First, maybe I just have more confidence in our diplomacy 
to be able to talk to somebody without surrendering on our 
basic values. I think we've done that in the past, and I 
think--I don't--I just don't understand the logic of saying 
that if we spoke and engaged with Syria, and tried to get 
things from Syria, whether it's on Iraq, on Israel, on the 
Hamas, on Hezbollah, that that would be tantamount to 
surrender.
    Senator Kerry. Well, Mr. El-Hokayem suggests that they've 
had a number of years, through the nineties and others, to show 
some evidence on any of these things, and they haven't.
    Mr. Malley. Well, the main point----
    Senator Kerry. What's your response to that?
    Mr. Malley. The big difference in the nineties--in the 
nineties, we not only turned a blind eye, we had no problem 
whatsoever--and I'm sorry to say I was a member of the 
administration that had no problem whatsoever--in Syria's 
behavior in Lebanon. I mean, we gave them the green light to 
intervene, and we had no problem with their policies. It may 
well have been a mistake, but that's--that was not the proper 
test. The test came when the--when things changed in Lebanon.
    And that brings me to my second point. I think it's fair to 
say we have to be firm on Lebanese sovereignty, Lebanese 
independence. They should be red lines. I don't see how the 
strategy today is achieving those goals. We've all spent the 
last 2 hours talking about Syrian interference, so certainly a 
policy of pressure and sanctions is not achieving that goal, 
because Syria today feels it has far more to lose by ``giving 
up,'' on Lebanon than by acquiescing on the demands that are 
made, because it doesn't see an incentive on the other side of 
the ledger, at least.
    So, I would fear that, if we take this position, we may 
risk destroying Lebanon, because that's what Syria is capable 
of doing in the name of trying to protect it.
    Now, that brings me to my third point, which is, I think 
the really fair question we need to address: Is there a 
relationship between Syria and Lebanon that is acceptable to 
the Syrian regime and acceptable to us? That, I think--that's, 
of course--I mean, the one thing we know that we can't accept 
is Syria intrusion and violation of Lebanese sovereignty. The 
one thing we know Syria can't accept is a hostile regime in 
Lebanon. But is there something in between that we could 
accept? Frankly, I don't know. I think we have to check that 
and test that.
    What I do sense from talking----
    Senator Kerry. I'm going to let you finish, but do you 
agree with that formulation?
    Dr. Lesch. Yes, Mr. Chairman, I do. And I think there is 
some room to compromise, and certainly we should explore these 
things, because I think Syria and Bashar al-Assad is willing to 
explore them, as well.
    Senator Kerry. Go ahead, Mr. Malley, finish up.
    Mr. Malley. What do we--we know that--I mean, what we want 
to do--there's been a period of Syrian hegemony over Lebanon in 
the nineties, followed now by a period of very great intrusion 
and interference in political and military ways. We want to get 
to a point, if we can, where the relationship between the two 
will be the relationship between two neighbors in which neither 
government is hostile to the other. I don't--as I said, I don't 
think Syria will accept that--and in which they have normal 
relations, and Syria's relationship with Lebanon, it has 
influence--I think, as Emile said, it's always going to have 
influence, family ties, the huge economic dependence that 
Lebanon has on Syria--I mean, the sanctions against Syria hurt 
Lebanon as much as they hurt Syria--and the fact that it has 
allies in Lebanon. Can we construct an end state in which 
Syria's comfortable with a nonaligned Lebanese regime that is 
independent, sovereign, that is not used as a platform to try 
to overthrow or destabilize the regime in Syria, as has 
happened many times in the past, in which there are--as Emile 
says, there's diplomatic relations, demarcated borders, where 
Syria gives information on the many Lebanese who have 
disappeared over the years as a result of Syrian actions? 
That's the test. I don't--I truly don't have the answer, but I 
think many Syrians today, when I speak to them, they recognize 
that, No. 1, the ways of the past are, no longer; No. 2, that 
they've paid such a high price for what they did for the 
benefit of the very few within the Syrian regime who enriched 
themselves through corruption, and who--many of whom have now 
had to pay the price of no longer being in the regime or no 
longer being in the country.
    So, I think there's a realization among the elite--maybe 
not among the very elite in the regime, but among the Syrian 
elite--that the relationship with Lebanon, as it occurred over 
the nineties, was not entirely to their benefit, and they may 
be thinking of a different way to have a relationship that is 
more normal between two neighbors.
    Senator Kerry. Mr. El-Hokayem, do you want to respond?
    Mr. El-Hokayem. Yes; thank you.
    As usual, the trick is in the details. Dr. Lesch talked 
about President Bashar al-Assad mentioning his willingness to 
normalize relations. And actually, he made a statement about 
this 3 weeks ago. It's available in the public domain. It was 
conditional normalization. He basically said, ``I will 
formalize relations with a government, not directed by--and a 
government that I consider friendly.''
    And which brings me to the point brought up by Rob Malley, 
which is that Syria can live with a mutual and nonhostile 
government in Lebanon. Well, let's look at the criteria's that 
such a Lebanese neutral, nonhostile government would have to 
fulfill in order to consider--be considered so by Syria.
    Well, they include things like subordinating its security 
policy and foreign policy to Syria, things that would happen, 
probably, anyway, because Lebanon, for instance, is not going 
to start a peace process with Israel because of domestic 
considerations. But this would be clearly a Syrian redline.
    Another thing, for instance, would be an end to security 
and defense cooperation and assistance between Lebanon and 
foreign allies. The list of--it would also include----
    Senator Kerry. But you're making presumptions about those 
things. You don't--all of those things are, ``negotiable,'' 
until they're not negotiable. And if you're not engaged in a 
discussion, you have no way of really beginning to push back, 
leverage other interests. I mean, you've got a major peace 
process with the Golan Heights on the line. You've got a lot of 
things here that are leveragable.
    Mr. El-Hokayem. I----
    Senator Kerry. You may have this whole Sunni-Shia division 
that comes back to haunt President Assad in ways that--there 
may be longer term interests. I mean, there are a lot of 
different interests here. You seem to be unwilling to get face 
to face to actually explore those, rather than just say to 
them, ``Here's what you've got to do. Goodbye.''
    Mr. El-Hokayem. No; not at all. I--I'm--actually, I think 
that Syria needs to be talked to. And you mentioned earlier 
your visit, other congressional visits, to Syria. I personally 
welcome those. I don't see these as threats. When Secretary 
Rice meets with Foreign Minister Moallem--I think all these are 
good things.
    The problem is that you have a number of processes, U.N. 
processes that have been started that could be jeopardized in 
the process. What matters more than the United States 
negotiating posture is how Syria interprets things. And when we 
see how they interpret some very small moves, like President 
Bashar al-Assad's handshake with King Abdullah, and, for the 
next 3, 4 months, we all heard about Syria and Saudi Arabia 
joining hands again, that all their--all the disagreements 
between the two were solved because of this--well, we realized, 
a few months later, that it wasn't the case, that Syrian-Saudi 
relations at--are at their worst.
    I'm not worried about the international community not 
knowing what it wants from Syria. I'm worried about Syria 
interpreting moves by the international community the way it 
wants to. I worry also about Syria defining redlines that would 
be then adopted by its Lebanese allies. If it--if Lebanese 
parties have problems, have issues they want to rise with the 
current governing majority, that's fair. This is part of the 
normal--a normal political process. The problem is when 
suddenly you internalize the redlines of your patron.
    Senator Kerry. Senator Coleman.
    Senator Coleman. First, Mr. Chairman, I want to thank you 
for this hearing. This has been as good a discussion in a 
complex area of the world as I think I've participated in, 
where you've really laid out both sides and had this kind of 
cross-exchange. And it's very, very helpful.
    And it is complex. And I don't know if we're that far 
apart, but we are, because the devil is in the details. Yes; 
should there be discussion. But, on the other hand, be careful 
of how that discussion is set up, understand the consequences 
of it.
    The fundamental question I would have--let me just step 
back a little bit, because--Mr. El-Hokayem, in your testimony 
you talked about there being others who have had the discussion 
with Syria. And what's interesting here is that it's--you know, 
if we're not talking to them, then perhaps it isn't going on. 
But would Mr. Lesch or Mr. Malley disagree with the statements 
by Mr. El-Hokayem, that the Saudis, the other Arab States, the 
French, and others, have all engaged Lebanon--Syria in trying 
to step back with Lebanon, but have not had--seen anything 
productive come out of that?
    Mr. Malley. I think many countries have had the discussion. 
I think we are uniquely positioned, because what Syria wants, 
it wants mainly from us, and what--and we can give what nobody 
else can, in terms of engagements with Syria. It's the reason 
why, even though I find it somewhat odd, the Syrians insist 
that the United States be at the table if they're going to talk 
to Israel. I mean, the crisis that Syria feels it has is less 
with the rest of the world, when with the United States. It may 
be a wrong perception, but I think the real test is in the 
discussions with us. To a lesser degree, but still important, 
with France. And that's why the discussions that are taking 
place as we speak between President Sarkozy's envoys and 
President Assad's team are one test of how far Syria is 
prepared to go.
    Dr. Lesch. I agree with that. For Syria, the United States 
role is pivotal regarding any sort of negotiation over the 
Golan, simply because it's only the United States that can act 
as a guarantor of any agreement between Syria and Israel, in 
addition to the fact it's through United States involvement 
that Syria can hopefully reach an accommodation regarding 
Lebanon and also Iraq and other issues in the region.
    Senator Coleman. And, clearly, Syria is in a unique 
position. There would be an opportunity--there is--I agree, as 
I look back at the, kind of, mutual interest that we have, and 
the role that it can play. The question is, you know: Are there 
preconditions to sitting down with somebody who has not 
demonstrated a willingness to be a constructive partner at all? 
And so, my concern would be, if others--the French, the 
Europeans--put something on the table, will we continue to see 
Syria intent in reasserting its central role in Lebanese 
affairs? Don't you think you should see something before--
    But, I guess my question is: Do--either Dr. Lesch or Mr. 
Malley--do you question Syria's desire to reassert its central 
role in Lebanese affairs?
    Dr. Lesch. Do I question Syria's----
    Senator Coleman. Yeah.
    Dr. Lesch [continuing]. Syria's desire to reestablish? 
Well, one of the fundamental things that--what you've just 
said--is that the relationship that Syria had regarding any 
sort of Arab-Israeli peace process, regarding Lebanon, is that, 
you know, these things--its relationship with Hezbollah, its 
presence in Lebanon, its relationship with groups such as 
Hamas, and on and on and on, that these--that this--that this 
relationship would be altered or changed after a peace 
agreement between Israel and the United--and Syria, that that--
a treaty would come prior to these things. That changed during 
the Bush administration, where Syria now has to do, as Senator 
Kerry said, A, B, C, and D before, even, negotiations begin. 
And Bashar al-Assad is not going to do that.
    So, I don't--I--Syria, as Rob and I have both stated, has 
vital interests in Lebanon. I don't doubt their sincerity in 
maintaining that level--a level of influence in Lebanon. But I 
think there's also room for compromise. And, obviously, we need 
to test it. We need to explore it. And I don't see any harm in 
that.
    Mr. Malley. I'll answer you very directly, Senator. I have 
no doubt that Syria has the aspiration and the desire to 
control Lebanon. For me, that's not a matter of any doubt. I 
think Syria's track record proves it. The role of a diplomatic 
engagement--with carrots, with sticks, with incentives, and 
with disincentives--is to contain those aspirations. Many 
countries have aspirations that we--that hopefully are not--are 
never going to be expressed and put into practice. We've come 
from a period, as I said, where Syria went from hegemony, now 
to interference, and we want to get them to the point where 
they feel their, what we consider, legitimate needs are met, 
but not through illegitimate ends, and certainly not for the 
purpose of illegitimate goals. That, for me, is the challenge 
of a diplomatic engagement.
    Senator Coleman. I was with a noted author of learned and 
Middle East affairs this morning with some of my colleagues, 
and he made the comment that in this country we say things in 
public, but the real deal is in that one-to-one conversation. 
In the Middle East, it is--when you say things in private, what 
you really have to ask is, ``OK, now say that in your language, 
publicly.'' And, you know, Dr. Lesch, you come back and say 
there's a conversation in private. And I guess my question is, 
is to say this publicly without preconditions, publicly, that 
this is what we intend to do, and perhaps--and I'd say--you 
know, I don't need to see A, B, C, and D. I'd just like to see 
A. I'd like to see B. I'd like to see a couple of steps that 
would demonstrate what I've heard privately. I've had those 
discussions with representatives of Syrian Government. But I'm 
looking for the, you know, ``show me,'' rather than just ``tell 
me.''
    Mr. El-Hokayem.
    Mr. El-Hokayem. This is exactly my point, is that, until 
2005, Lebanon served as a negotiating asset for Syria. It 
served as a convenient battlefield. The list of the many uses 
of Lebanon for Syria is pretty long. Syria has withdrawn since 
2005. The question is whether it still should be a card of 
Syria in any of its regional deals and moves.
    I strongly believe that it shouldn't be the case anymore. 
At the end of the day, domestic Lebanese dynamics will prevent 
Lebanon from doing things against Syria that Syria has a--is 
afraid of, as long as Syria agrees to normalize relations.
    One question. Syria is--says it's ready to delineate 
borders, as Bashar al-Assad said a few weeks ago, should there 
be a friendly government in Beirut. The question is: Would 
Syria agree to delineate the borders in the region of the 
Shebaa Farms, which continues to serve as a pretext of tension 
for Hezbollah between--for Hezbollah against Israel? Up until 
now, Syria has not done anything positive to solve the Shebaa 
Farms issue.
    Of course, Syria shouldn't have to do A, B, C, and D. The 
problem is when it hasn't done A, then A has happened, and then 
you allow A to be a card in Syria's hand again.
    Senator Coleman. My last question, Mr. Chairman, because 
I'm concerned about this definition of ``friendly government,'' 
and how it may be a self-fulfilling prophecy if we continue to 
see what we've seen with the series of pro-sovereignty 
officials being assassinated. And I look forward to the results 
of the investigation into the Hariri assassination.
    I'd simply ask Dr. Lesch and Mr. Malley if it were, in 
fact, demonstrated that Syrian officials were involved in both 
the Hariri assassination and the assassinate--the other pro-
sovereignty assassinations, would that change your 
perspectives?
    Dr. Lesch. I think it would--quite frankly, could Syria be 
involved in all of these things? Yes. And I think, on the other 
hand, realistically, in looking at foreign policy as a 
pragmatic venture, in terms of United States interests and 
gained--and pursuing United States interests in the region, 
not, obviously, that we should ignore any verdicts, but I 
think, at this time, we can't let the investigation of the 
tribunal hamper or act as a roadblock or use it as an excuse to 
engage with Syria. I think, from our perspective, we should 
engage with Syria in a very active way, and adopt a very active 
posture, separate the tribunal from trying to reestablish a 
dialogue with Syria, say, ``We are going to return the 
Ambassador to Damascus to test the willingness to do what it 
says it wants to do,'' and to set up a process for dialogue and 
maybe--that may lead and create the foundation for negotiations 
toward peace. And we're going to see if the Syrians are willing 
to, you know, back up what they have said.
    Senator Coleman. Mr. Malley.
    Mr. Malley. I said in my testimony I think the tribunal 
should go forward, no matter what. And I think that if Syrians 
are found to be guilty, they need to be brought to account. And 
I think that that should be U.S. policy, it should be the 
international community and the United Nations policy.
    The question is that we have--there's some time before the 
tribunal gets to that point. And, I think, between now and 
then, we need to be engaged in the kind of policy of 
conditional, or at least of careful, engagement with the 
Syrians, for two reasons.
    One, for all the reasons I mentioned earlier; I think it's 
to our benefit, in terms of Israel, in terms of Iraq, in terms 
of Iran, et cetera; but also because, I think, if you come to 
the point, a year, 2 years from now, when the guilty verdicts 
come down, and if Syrians are found to be guilty, we want the 
Syrian regime to know that it will have a price to pay if it 
doesn't comply with the orders of the court. And the best price 
to pay would be for it to lose whatever it got out of 
engagement, whether it's economic benefits, whether it's 
political benefits, whatever they may be. We want them to be in 
a position to know that they can pay that price, because they 
have other assets that they could live with, but also that they 
would be found to pay a very heavy price if they try to 
obstruct the work of the tribunal at that point. There's some 
time--the tribunal has not even been set up, as Assistant 
Secretary Welch said. And we don't have any time to lose, 
because there's so many other crises going on the region. Let's 
pursue the tribunal, but let's not wait for it to be completed 
to decide what we're going to do about Syria.
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. If I can just respond to a couple of those 
things. You know, the reality is that--and I think one of the 
witnesses said it earlier--that President Bashar Assad is going 
to respond to what he perceives to be in his and in Syria's 
interests. And right now, regrettably, for a host of reasons, 
our foreign policy has lost leverage and credibility in the 
region. We're not exactly in the leverage seat here. And so, 
it's very difficult to sit here and, sort of, define, in this 
context, what all the plays can be.
    The fact is that if we were in a better position, vis-a-vis 
Iran, so that our saber-rattling and threats could actually 
have some legitimacy in anybody's eyes, or we were in a 
stronger position with respect to the Mideast peace process of 
these last years, and we have, in fact, by indifference, in my 
judgment, actually empowered Hamas, to some degree, to be 
stronger, because we didn't help President Abbas and others to 
develop into, you know, sort of a cogent partnership--I mean, 
there are a whole bunch of reasons that you can't exactly make 
the full judgment here. And I personally think it's going to be 
very difficult to get much out of that region until there's a 
huge shift in this administration.
    But, on the other side of the coin, this notion of not 
engaging, not being involved, and, sort of, reacting to how you 
measure everything that has happened in the past, therefore 
that's what's going to happen in the future, I resist that.
    And I'm going to tell you a story. I was at Admiral Bill 
Crowe's funeral the other day in Annapolis. Admiral Crowe, as 
Chairman of the Joint Chiefs of Staff, a four-star admiral, 
took it on himself to invite the Russian marshal--the field 
marshal of the Russian forces to the United States to visit our 
military installations. And the military hated the idea. And, 
of course, you can imagine what some people in the right wing 
did in America. The people on the right just vilified him for 
doing it, ``It was a terrible idea.''
    Well, lo and behold, he came over here, and he went to many 
of our different installations, and, in fact, Admiral Crowe 
told him, one day at Fort Myer--took him over to Fort Myer, and 
had told everybody on the base, ``This is what I'm going to 
do.'' The people knew. He said, ``You go walk around for the 
day, and you ask anybody anything you want to ask them.'' And 
he did. Well, later he became the adviser to Gorbachev on 
proliferation issues, nuclear weapons, et cetera. And he was at 
Reykjavik when Gorbachev and Ronald Reagan made their 
decisions. And he was a principal adviser, because he had 
learned what the Russian military, you know, didn't understand, 
which was the power of the United States, the real power, the 
real strength of our country, because he came over here and saw 
it, and didn't just operate from their slogans and from their 
stereotypes and presumptions. I think that's a great lesson 
about how you define interests and get people to see things 
that they don't see today.
    And, in my judgment we have no illusions--I have no 
illusions about the historical imperative that President Assad 
feels and Syrians feel with respect to Lebanon. And we are, all 
of us, dealing with a part of the world that has been defined 
by Winston Churchill and the British and the French and 
mandates and a lot of other things. And you've got these 
tribal, almost feudal interests, that are trying to be managed 
in a very modern and complex world. It's not easy. We don't do 
a very good job of thinking about it, understanding it, of 
playing some of those interests.
    I think, from what I've heard from people in the region and 
from the interests of the people in these countries, we ought 
to be sophisticated enough to be able to play to the ability to 
define something out of this. If you looked at the Balkans a 
few years ago, you'd have never thought you'd have 10 years of 
NATO managing a peace system in which not one troop has been 
killed, nor even a bunch of other parts of the world, where you 
make things happen that are different from what you perceive, 
because that is the art of diplomacy. And you have to engage in 
diplomacy. And it seems to me that there's so much opportunity 
staring us in the face here to, sort of, begin to explore these 
kinds of things, without any naivete or illusions about the 
difficulties or the complications of getting people to change 
those interests that are centuries old, or aspirations that are 
current and modern.
    But, I'll tell you this, I think if you can continue down 
the road we're going--I mean, by any measurement, how is 
Lebanon safer? How have we strengthened our position in the 
region? I mean, these are very legitimate questions to be 
asked. And if you want the Lebanese Government to survive, as 
we do, the status quo appears to be stacking up against them.
    You want to respond, I can tell.
    Mr. El-Hokayem. Well, I fully agree with you on the need 
for, you know, more U.S. leadership engagement in the region. I 
hope--it should have happened yesterday, if not before. The 
issue for me here is--or--and for Lebanon, as a whole, is--
relates to the experience of the nineties, relates to the 
international acquiescence to Syrian domination in 1990 because 
of the need to bring Syria onboard against Iraq. It's--it also 
relates to the fact that Lebanon was not allowed to have an 
independent, even semiindependent, foreign policy for 15 years 
during the peace negotiations.
    The issue today for the million Lebanese who demonstrated 
on the streets on March 14, 2005, is whether this was worth it, 
whether it was worth it to demonstrate peacefully, to turn to 
the international community and say, ``We agree with the 
multilateral processes.'' These people would not have showed up 
in the streets of Beirut in a violent encounter against the 
Syrians. They waited. And then the time was ripe. The question 
is whether the international community can sustain its effort 
to restore sovereignty and stability to the country and 
formalize normalized relations with Lebanon's most important 
neighbor.
    U.S. leadership will be needed. Progress on the Palestinian 
front will be needed. Progress on the Iranian front will be 
needed. Progress on the Syrian front will be needed, of course. 
The question is: How do you insulate Lebanon from other large 
calculations that it has already paid the price for?
    Thank you.
    Senator Kerry. Senator Coleman, any--you all set?
    Senator Coleman. I think, actually, Mr. El-Hokayem summed 
up what I was going to say. I think that is the--that is the 
issue right now. And I am one who has always believed that we 
need to discuss and we need to meet, and--but I just think we 
always have to realistic as to expectations, and we have to be 
careful of the consequences of--certainly in this part of the 
world--of what we do, publicly. And, Mr. Chairman, I would just 
hope that there would be--this opportunity is out there, and, 
if we could see some very real movement--again, not A, B, C, 
and D, but just some concrete steps that demonstrate the 
sincerity of what, you know, Dr. Lesch and Mr. Malley are 
talking about, I think we could move to another phase.
    Senator Kerry. You can, Senator, but you've got to have an 
overall strategy that you're actually trying to implement. And 
it won't work if the conversation is, ``You've got to do A, B, 
and C before you even get somewhere.'' You've got to--it's a 
process--and it's hard to describe completely, but it's 
missing. And I think people who have been engaged in this 
understand that it's missing. I think that Mr. El-Hokayem, 
thinks it's missing. And so, I don't--I mean, I--we have to 
take steps that guarantee those courageous people who went out 
in the street, who voted overwhelmingly, who elected a 
democratic government, that that's sustained. But just measure 
the outrage that existed in the wake of the Hariri 
assassination. It moved a whole army out of Lebanon. The world 
came united to there. It's the absence of our engagement and 
maintaining that credibility that's allowed us to drift 
backward from that kind of point. We know what we can achieve. 
And, I believe, if we got back into that game in a serious way, 
we could retap into that same kind of energy. And, I'll tell 
you, the decision to move that army was a decision for 
survival, self-interest. There's no reason for us not to create 
that same kind of compelling force for self-
interest again.
    But I don't think--but you've got to have clean hands to do 
it. You've got to come at it in a way that you're able to 
leverage the situation, not be on the defensive. And I think 
we're excessively on the defensive right now.
    Any--you want to add anything? Then we're going to close 
up, here.
    Dr. Lesch. Sure. I think there is more that the Syrians can 
do, not severing the relationship with the Palestinian groups 
or Hezbollah or Iran prior to any engagement or any process or 
any peace process, but there is more that they can do. They--as 
I've said repeatedly, they are bad at public diplomacy. They 
don't even know what the term means, at times. But they also 
see public diplomacy now, after what they feel as having been 
rebuffed to many peace overtures to Israel and openings to the 
United States, they see it as a sign of desperation, an 
appearance of being weak. They see what's happened before with 
those Arab leaders who have engaged in public diplomacy with 
Anwar Sadat, Arafat, and Bashar has no desire to mimic that and 
their fates.
    They also have a history of playing their cards close to 
the vest, perhaps too close to the vest. I've always--I've been 
telling President Bashar, ``You know, you really need to hire a 
public relations firm to be able to communicate your vision and 
your views to the West, and especially to the Israeli public, 
in order to turn things around without having do a Sadat and go 
to Jerusalem.''
    Senator Kerry. Well, I understand that. And I must say, in 
my experience here in this committee, dealing with some things, 
I've learned that. And when I was chairman of the POW-MIA 
Committee, and I had the--I was engaged in negotiating with the 
Vietnamese during that period of time, and we were trying to 
open up prisons and historical centers and all kinds of things, 
that the stereotypes and the preconceived notions and the 
clumsiness with which people would respond had nothing to do 
with their real intent, and often was just--you know, I 
remember once literally flying within 1 month, on two weekends 
for 12 hours on the ground both times in Hanoi, just to clarify 
those things and to work through them. And, by doing that, we 
managed to keep a process on track that was about to be lost 
for the misconceptions and clumsiness, and, in the end, allowed 
President George Herbert Walker Bush to lift an embargo, and 
President Bill Clinton to normalize relations, and here we are 
today.
    So, I believe in these things. You can do it, but you've 
got to, kind of, have that basic sense of direction, which, 
unfortunately, I'm not sure we're on today.
    Enough said.
    Thank you all very much. Very informative, very helpful.
    We will leave the record open for--we'll leave the record 
open for 24 hours, in the event that there are any questions to 
be submitted, and then we'll leave it open for the period to 
have those answered.
    Senator Kerry. Thank you. Appreciate it.
    We stand adjourned.
    [Whereupon, at 5:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                              Connecticut

    Mr. Chairman, thank you for holding this important hearing to 
explore U.S. policy options regarding Syria, a country which can and 
does play an important role, whether spoiler or stabilizer, in a host 
of increasingly unstable regional conflicts in Lebanon, Israel, and 
Iraq.
    At the outset I'd like to commend Rob Mally for his lucid and 
forceful testimony in support of American diplomatic engagement with 
Syria. One of the administration's key failures in this region has been 
its inexcusable and counterproductive shunning of diplomacy. Secretary 
Baker testified before this committee nearly a year ago regarding the 
Baker-Hamilton Commission and bluntly declared that ``we have missed 
the boat on Syria.'' I agreed with him then, as I do now, and I worry 
that we are witnessing the consequences of such diplomatic neglect.
    I am under no illusion that the Syrian regime is currently acting 
as anything but a spoiler, especially in Lebanon. Nor do I believe that 
simply engaging with Syria will necessarily change the behavior of the 
Assad regime. But I do believe that sitting on the sidelines while 
Syria continues to assert its hegemony over Lebanon, supply Hezbollah 
and Hamas with economic, military and political support, and continue 
to act as a spoiler in Iraq, guarantees instability.
    More than that though, the Bush administration has done little to 
stabilize the Seniora Government, or to help the Lebanese people 
rebuild their economy and their country after the devastation of the 
Israel-Lebanon war in August 2006. The resulting vaccum was quickly 
filled by Hezbollah, aided by Syria and Iran, and since that that time, 
Lebanon has been nearly crippled by political violence.
    The United States and the wider international community must 
vigorously support Lebanese sovereignty, and must work to end unwanted 
Syrian influence in Lebanese political affairs. Syria must cease its 
attempts to prevent the international community from fully 
investigating and bringing to justice those responsible for the 
February 2005 assassination of former Prime Minister Rafik Harari. 
Syria and Lebanon have a historic relationship, and there is no reason 
to end close economic and cultural ties between the two countries. If 
Syria wants to maintain a political relationship with Lebanon, then it 
should do so in accordance with international norms: Establish an 
Embassy in Beirut, and create a proper and normal border operation with 
Lebanon. But its political interference in and destabilizing of 
Lebanese politics must end.
    It is my hope that Syria attends the upcoming Arab-Israeli peace 
conference in Annapolis and participates in good faith and without 
ulterior motives. But I worry that because of the 5 years of near total 
abandonment by the United States of the Arab-Israeli conflict, we are 
now faced with even more difficult challenges is brining these parties 
to the table to begin the negotiating process.
    Simply issuing demands and ultimatums to Syria is no longer an 
option; we have tried that approach for years and have little to show 
for it. Instead, we must renew a serious and level-headed approach to 
engaging Syria. With realistic expectations and with the backing of the 
international community, we must change our course.
                                 ______
                                 

Responses of Assistant Secretary David Welch to Questions Submitted for 
                   the Record by Senator Joseph Biden

                                 syria
    Questions 1-3. You stated in your written testimony, ``Our concerns 
are well known and well documented. The Syrian Government knows very 
well what the United States and the international community expect.''

  <bullet> Could you elucidate the specific concerns?
  <bullet> Have these concerns remained constant or have they evolved 
        over time? When were they first communicated to the Syrians? 
        How recently were they reiterated?
  <bullet> If these concerns were positively addressed by the Syrians, 
        has the State Department made it clear to Syria what reciprocal 
        steps would be taken by the United States? What are those 
        steps?

    Answer. Syrian activities continue to undermine prospects for peace 
and stability throughout the region. Issues of concern to the U.S. 
include: The Syrian Government's failure to prevent Syria from being a 
transit point for foreign fighters entering Iraq; refusal to deport 
from Syria former Saddam regime elements who actively support the 
insurgency in Iraq; the ongoing interference in internal Lebanese 
affairs, such as Lebanon's current Presidential election; and active 
support for the terrorist organization Hezbollah; the safe-haven Syria 
provides to Palestinian terrorist groups such as Hamas; and its 
deplorable human rights record as demonstrated by the harsh prison 
sentences against civil society activists Kamal Labwani, Michel Kilo, 
Mahmoud Issa, and Anwar al-Bunni, and by leading regime oppositionist 
Riad Seif's inability to travel to seek much-needed medical care.
    These concerns have remained consistent and have been raised on a 
number of occasions, most recently during Secretary Rice's meeting with 
Syrian Foreign Minister Walid Muallam on November 3 on the margins of 
the Expanded Iraq Neighbors ministerial in Istanbul. Secretary Rice 
previously met with her Syrian counterpart in May 2007 at the Expanded 
Iraq Neighbors ministerial in Sharm el-Sheikh. Both of these meetings 
aimed to bolster Iraqi security and stability. During both meetings 
Foreign Minister Muallam asserted his country's desire for a stable and 
prosperous Iraq and pledged Syria's support. We will have to see if 
sustained actions match the Syrian Government's statements.
    Our Embassy in Damascus continues to impress our concerns upon the 
Syrian Government. Senior Department of State officials have also met 
with senior Syrian Government officials to discuss our concerns in the 
past. These meetings include a January 2005 meeting between then-Deputy 
Secretary of State Richard Armitage and Syrian President Bashar al-
Assad in Damascus; a November 2004 meeting between Secretary of State 
Powell and then-Syrian Foreign Minister Farouk al-Shara'a in Sharm el-
Sheikh; a September 2004 meeting between Secretary Powell and Foreign 
Minister al-Shara'a in New York; and a May 2003 meeting between 
Secretary Powell and President al-Assad in Damascus. Additionally, in 
September 2004 Department of State Assistant Secretary for Near Eastern 
Affairs Bill Burns and Department of Defense Assistant Secretary Peter 
Rodman, along with NSC and CIA officials, met with President al-Assad 
in Damascus. In August 2003 Assistant Secretary Burns met with 
President al-Assad in Damascus. Finally, our Embassy in Damascus 
remains open, providing a mechanism should the Syrian Government desire 
a serious dialogue on any of these issues.
    In each of these engagements, the U.S. told the Syrians that we 
would judge their intentions on deeds, not words. In each instance the 
Syrian offiicals pledged to end their interference in Lebanon, to expel 
Palestinian terrorist leaders from Damascus, and to end Syrian state 
sponsorship of terrorism.
    More than 3\1/2\ years after our engagement on these issues we 
continue to await demonstrable action. Only when the Syrian regime 
takes concrete measures to address these issues will the U.S. be able 
to discuss next steps.
                                lebanon
    Questions 4-7. You testified about Secretary Rice's recent meeting 
on Lebanon and the margins of the Iraq Neighbors Conference, in 
Istanbul with the Foreign Ministers of France, Saudi Arabia, Egypt, the 
United Arab Emirates, and Jordan, as well as the Secretary General of 
the Arab League.

  <bullet> What, if any, concrete actions did the attendees of this 
        meeting agree upon with respect to Lebanon and Syria?
  <bullet> What, if any, followup to this meeting is planned?
  <bullet> What steps are being taken to ensure that there is not undue 
        Syrian manipulation into the Lebanese Presidential election 
        process?
  <bullet> What steps are being taken to assure the safety of Lebanese 
        lawmakers?

    Answer. The Secretary's meeting in Istanbul with the Foreign 
Ministers of France, Saudi Arabia, UAE, Jordan, and Egypt, as well as 
Secretary General of the Arab League Amre Moussa reaffirmed the 
international community's desire for successful Lebanese Presidential 
elections resulting in a new President who represents an independent 
and sovereign Lebanon and who is committed to upholding relevant 
international resolutions. Elections must occur without intimidation or 
interference. Together, the attendees at the meeting, agreed on a 
statement that foreign interference in the elections would not be 
tolerated; this statement was delivered to the Syrians.
    Following the Istanbul conference we have continued to work closely 
with our partners pressing this message during travel to Lebanon and 
Syria. In addition to intense diplomatic cooperation, the United States 
has used unilateral tools to maintain pressure on Syrian and others who 
would undermine Lebanon's democratic processes. We have instituted 
travel and financial sanctions against Syrian and Lebanese individuals 
who are undermining Lebanon's democracy. Financial sanctions were 
placed on four new individuals on November 5.
    The safety and security of Lebanese lawmakers remains a top 
priority. As you know, many are currently residing in a Beirut hotel 
where strict security measures deter those who would use violence to 
affect an outcome in Lebanon's elections. We continue to press for 
rapid establishment of the Special Tribunal for Lebanon, which will try 
those accused of the assassination of former PM Rafiq Hariri. The 
Tribunal may help deter future politically motivated assassinations by 
sending a clear message that the era of impunity for such political 
attacks is over.

    Question 8. Do you expect Syrian participation at the Annapolis 
meeting, tentatively scheduled for later this month?

    Answer. Secretary Rice has been clear that while the key 
participants at Annapolis will be the Israelis and Palestinians, we 
view the Quartet and members of the Arab League Follow Up Committee on 
the Arab Peace Initiative as natural participants. Syria is a member of 
the follow up committee. This will ultimately be a decision for the 
Syrian Government.

    Question 9. Is engagement with Syria in Annapolis subject to the 
same preconditions referenced in question 1, above?

    Answer. The United States remains committed to comprehensive peace 
in the Middle East. We are committed to engaging with countries that 
are committed to the two state solution and that reject violence. The 
focus of Annapolis, however, will be Israel and the Palestinians.

    Question 10. In the event of Syrian participation at Annapolis, 
will Secretary Rice seek to facilitate bilateral discussions between 
the Syrian and Israeli delegations?

    Answer. The United States remains committed to comprehensive peace 
in the Middle East. However, the focus of this Annapolis will be on the 
Israeli-Palestinian track because we believe that is the track that is 
ripe.

    Question 11. United Nations Security Council Resolution 1325 calls 
upon Member States to ensure increased representation of women at all 
levels for the prevention, management, and resolution of conflict. To 
what degree, and in what manner, are you seeking the participation of 
women leaders and women's organizations both in the consultative 
process in preparation for talks in Annapolis, and to be part of the 
official negotiations?

    Answer. Engaging civil society is a critical component of our 
foreign policy strategies. On November 1, 2007, the Secretary met with 
the International Women's Commission, an organization that has a 
longstanding record of constructive engagement of Israeli and 
Palestinian women to progress the cause of peace. We believe that 
organizations such as the IWC can play a critical role in supporting 
peace and building confidence between the Israeli and Palestinian 
people.
                                 ______
                                 

Responses of Assistant Secretary David Welch to Questions Submitted for 
                   the Record by Senator Robert Casey

    Question. What can you tell us about the Israeli airstrike on a 
Syrian site on September 6? Can you confirm that this site housed 
components of an illicit Syrian nuclear program? If not, are you 
prepared to provide this information to members of this committee in a 
classified format?

    Answer. We have seen press reports speculating that the Syrian site 
targeted by a September 6 Israeli airstrike housed components of a 
possible Syrian nuclear program. We have no further comment to provide 
in either an unclassified or classified setting.

    Question. What is the current assessment of the administration as 
to whether the Syrian regime is pursuing a nuclear weapon? If so, how 
advanced was Syria in its efforts to produce a nuclear weapon?

    Answer. We remain concerned about the Syrian regime's desire to 
pursue nonconventional weapons. Our concerns are heightened by Syria's 
continued support of Hezbollah and Hamas, the presence of other 
terrorist organizations in Syria and their ability to move weapons 
across Syria's borders for use in countries such as Lebanon, and 
Syria's relationship with states known to have nuclear ambitions, such 
as Iran.

    Question. What can you tell us about any coordination and/or 
sharing of information between the United States and Israel prior to 
the September 6th airstrike?

    Answer. We are unable to comment on this issue.

    Question. Was there any discussion of bringing information on an 
illicit Syrian nuclear weapons program to the International Atomic 
Energy Agency for further investigation and onsite inspections? If not, 
why not?

    Answer. We continue to support the International Atomic Energy 
Agency's efforts to investigate all claims of illicit nuclear weapons 
programs.

    Question. What impact, if any, does the Israeli airstrike have on 
Western efforts to dissuade Iran from pursuing a nuclear weapons 
program?

    Answer. Our message to Tehran remains: Abandon the quest for 
nuclear weapons; establish a full and verifiable suspension of all 
proliferation-sensitive nuclear activities; and commit to good faith 
negotiations. The United States has joined other members of the P5+1 
(U.K., France, China, Russia, and Germany) to offer a generous 
incentives package--providing Iran assistance in the fields of nuclear 
energy, medicine, transportation, agriculture, etc.--to encourage 
Tehran's cooperation. Secretary Rice has additionally and repeatedly 
noted that she will meet with the Iranians at any time and any place to 
discuss the nuclear issue and other matters, once they have suspended 
enrichment and reprocessing.

                                  <all>

</pre></body></html>
